Audit Report




OIG-13-007
INFORMATION TECHNOLOGY: The Department of the Treasury
Federal Information Security Management Act Fiscal Year 2012
Performance Audit
November 9, 2012




Office of
Inspector General
Department of the Treasury
    THIS PAGE INTENTIONALLY LEFT BLANK
 
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220


                                            November 9, 2012
     OFFICE OF
INSPECTOR GENERAL

           MEMORANDUM FOR NANI COLORETTI
                          ACTING ASSISTANT SECRETARY FOR MANAGEMENT

                                  ROBYN EAST
                                  DEPUTY ASSISTANT SECRETARY FOR INFORMATION
                                    SYSTEMS AND CHIEF INFORMATION OFFICER

           FROM:                  Marla A. Freedman /s/
                                  Assistant Inspector General for Audit

           SUBJECT:               Audit Report – Fiscal Year 2012 Audit of Treasury’s Federal
                                  Information Security Management Act Implementation for Its
                                  Unclassified Systems

           We are pleased to transmit the following reports:

                   The Department of the Treasury Federal Information Security Management
                    Act Fiscal Year 2012 Performance Audit, November 7, 2012 (Attachment 1)
                   Treasury Inspector General for Tax Administration – Federal Information
                    Security Management Act Report for Fiscal Year 2012 (Audit No.
                    2012-20-114), September 28, 2012 (Attachment 2)

           The Department of the Treasury Federal Information Security Management Act
           (FISMA) Fiscal Year 2012 report presents the audit results of Treasury’s
           compliance with FISMA for its unclassified systems. FISMA requires federal
           agencies, including Treasury, to (1) have an annual independent evaluation
           performed of their information security programs and practices and (2) report the
           results of the evaluation to the Office of Management and Budget (OMB). OMB has
           delegated to the Department of Homeland Security (DHS) the collection of annual
           FISMA responses. FISMA also requires that the independent evaluation be
           performed by the agency Inspector General (IG) or an independent external auditor
           as determined by the IG. To meet our FISMA requirements, we contracted with
           KPMG LLP, an independent certified public accounting firm, to perform the FISMA
           audit of Treasury’s unclassified systems, except for those of the Internal Revenue
           Service (IRS), which was performed by the Treasury Inspector General for Tax
           Administration (TIGTA). As indicated above, TIGTA’s audit results are presented in
           Attachment 2. Appendix IV of Attachment 1 includes our response to DHS’s
           FISMA 2012 Questions for Inspectors General and incorporates the responses from
Page 2


the TIGTA report as well. KPMG conducted its audit in accordance with generally
accepted government auditing standards.

Based on the results reported by KPMG, TIGTA, and the financial statement audit
report of the IRS conducted by the Government Accountability Office (GAO),1 we
determined that Treasury’s information security program for unclassified systems is
in place and is generally consistent with FISMA, but could be more effective.

The KPMG audit of Treasury’s unclassified systems (except for those of the IRS)
identified a number of areas that could be improved. Specifically, KPMG reported
that:

    1.  Logical account management activities were not in place or not consistently
        performed by the Bureau of Public Debt (BPD), the Alcohol and Tobacco
        Tax and Trade Bureau, Departmental Offices (DO), Office of the Comptroller
        of the Currency (OCC), and Financial Crimes Enforcement Network
        (FinCEN).
    2. Security incidents were not reported in a timely manner at the Bureau of
        Engraving and Printing, BPD, and FinCEN.
    3. System security plans at OCC and Financial Management Service (FMS) did
        not fully document all security controls from National Institute of Standards
        and Technology (NIST) Special Publication 800-53, Revision 3, and one
        System Security Plan for FinCEN was not updated to address weaknesses
        identified in the security assessments.
    4. Audit logs were not sufficiently reviewed by FMS and DO in accordance
        with NIST and Treasury requirements.
    5. Plans of Action and Milestones were not tracked in accordance with NIST
        and Treasury requirements at DO.
    6. Vulnerability scanning and remediation was not performed in accordance
        with Treasury requirements at FMS, United States Mint, DO, BPD, and
        OCC.
    7. Contingency planning and testing controls were not fully implemented or
        operating as designed at DO and FMS.
    8. Backup controls were not in place or were not operating as designed at BPD
        and Community Development Financial Institution Fund.
    9. System configuration settings were not implemented properly at DO and
        OCC.
    10. System baselines were not documented properly at BPD, FMS, and FinCEN.
    11. Multifactor authentication was not implemented at FMS.




1
 FINANCIAL AUDIT: IRS’s Fiscal Years 2012 and 2011 Financial Statements (GAO-13-120, dated
November 2012)
Page 3


KPMG is making 31 recommendations to the responsible officials to address the
findings noted above.

TIGTA reported that the IRS’s information security program generally complies with
FISMA, but improvements are needed as a result of the conditions identified in
configuration management, identity and access management, and security training.

In addition, GAO reported IRS’s information security over financial reporting
systems as a significant deficiency, which was previously reported as a long-
standing material weakness.

In connection with the contract with KPMG, we reviewed their report and related
documentation and inquired of its representatives. Our review was differentiated
from an audit performed in accordance with generally accepted auditing standards.

If you have any questions or require further information, you may contact me at
(202) 927-5400 or Joel A. Grover, Deputy Assistant Inspector General for Financial
Management and Information Technology Audit, at (202) 927-5768.

Attachments

cc: Edward A. Roback
    Associate Chief Information Officer
    Cyber Security
    THIS PAGE INTENTIONALLY LEFT BLANK
 
            ATTACHMENT 1

       The Department of the Treasury
Federal Information Security Management Act
    Fiscal Year 2012 Performance Audit,
              November 7, 2012
    THIS PAGE INTENTIONALLY LEFT BLANK
 
The Department of the Treasury
Federal Information Security Management Act
Fiscal Year 2012 Performance Audit




November 7, 2012




KPMG LLP
1676 International Drive, Suite 1200
McLean, VA 22102
                              The Department of the Treasury
      Federal Information Security Management Act Fiscal Year 2012 Performance Audit

                                                               Table of Contents

FISMA Performance Audit Report
BACKGROUND .......................................................................................................................................... 4
  Federal Information Security Management Act (FISMA) ........................................................................ 4
  Federal Standards and Guidelines ............................................................................................................. 4
  Department of the Treasury Bureaus/Offices (Bureaus) ........................................................................... 5
  Department of the Treasury Information Security Management Program................................................ 6
OVERALL AUDIT RESULTS .................................................................................................................... 9
FINDINGS .................................................................................................................................................. 12
  1. Logical account management activities were not in place or were not consistently
      performed by the bureaus at BPD, TTB, DO, OCC, and FinCEN .................................................. 12
  2. Security incidents were not reported in a timely manner at BEP, BPD, and FinCEN .................... 13
  3. System security plans at OCC and FMS did not fully document all security controls from
      NIST SP 800-53, Rev. 3, and one SSP for FinCEN was not updated to address weaknesses
      identified in the security assessments.............................................................................................. 15
  4. Audit logs were not sufficiently reviewed by FMS and DO in accordance with NIST and
      Department of the Treasury requirements ....................................................................................... 15
  5. POA&Ms were not tracked in accordance with NIST and Department of the Treasury
      requirements at DO ......................................................................................................................... 16
  6. Vulnerability scanning and remediation was not performed in accordance with Department
      of the Treasury requirements at FMS, Mint, DO, BPD, and OCC.................................................. 17
  7. Contingency planning and testing controls were not fully implemented or operating as
      designed at DO and FMS ................................................................................................................ 18
  8. Backup controls were not in place or were not operating as designed at BPD and CDFI
      Fund................................................................................................................................................. 19
  9. System configuration settings were not implemented properly at DO and OCC............................ 20
  10. System baselines were not documented properly at BPD, FMS, and FinCEN ............................... 20
  11. Multifactor authentication was not implemented at FMS ............................................................... 21
MANAGEMENT RESPONSE TO THE REPORT ................................................................................... 22

Appendices
APPENDIX I – OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 34
APPENDIX II – STATUS OF PRIOR-YEAR FINDINGS ....................................................................... 38
APPENDIX III – THE DEPARTMENT OF THE TREASURY’S CONSOLIDATED RESPONSE TO
DHS’s FISMA 2012 QUESTIONS FOR INSPECTORS GENERAL ....................................................... 53
APPENDIX IV – APPROACH TO SELECTION OF SUBSET OF SYSTEMS ...................................... 64
APPENDIX V – SELECTED SECURITY CONTROL CLASSES AND FAMILIES.............................. 66
APPENDIX VI – SUMMARY OF OTHER IT FINDINGS FROM TREASURY FINANCIAL
STATEMENT AUDITS ............................................................................................................................. 70
APPENDIX VII – GLOSSARY OF TERMS ............................................................................................. 75
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




Honorable Eric Thorson
Inspector General, Department of the Treasury
1500 Pennsylvania Avenue NW
Room 4436
Washington, DC 20220


Re: The United States Department of the Treasury Federal Information Security
    Management Act Fiscal Year 2012 Performance Audit

Dear Mr. Thorson:

This report presents the results of our independent evaluation of the United States Department of
the Treasury’s information security program and practices. The Federal Information Security
Management Act of 2002 (FISMA) requires federal agencies, including the Department of the
Treasury, to have an annual independent evaluation performed of their information security
programs and practices and to report the results of the evaluations to the Office of Management
and Budget (OMB). OMB has delegated its responsibility to Department of Homeland Security
(DHS) for the collection of annual FISMA responses. DHS has prepared the FISMA 2012
questionnaire to collect these responses. Appendix III, The Department of the Treasury’s
Consolidated Response to DHS’s FISMA 2012 Questions for Inspectors General, provides the
Treasury’s response to the questionnaire. FISMA requires that the independent evaluation be
performed by the agency Inspector General (IG) or an independent external auditor as
determined by the IG. The Department of the Treasury Office of Inspector General (OIG)
contracted with KPMG LLP (KPMG) to conduct this independent evaluation (referred to herein
as a “performance audit”).

We conducted our performance audit in accordance with Generally Accepted Government
Auditing Standards (GAGAS) issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.

The objective for this performance audit was to determine the effectiveness of the Department of
the Treasury’s information security program and practices for the period July 1, 2011 to June 30,
2012 for its unclassified systems, including the Department of the Treasury’s compliance with
FISMA and related information security policies, procedures, standards, and guidelines. We
based our work, in part, on a sample of bureau-wide security controls and system-specific
security controls across 15-selected Department of the Treasury information systems. The scope
of our work did not include the Internal Revenue Service (IRS), as the component was audited
by the Department of the Treasury Inspector General for Tax Administration (TIGTA). The
TIGTA report will be appended to this report and the findings of that report will be incorporated




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
within Appendix III, The Department of the Treasury’s Consolidated Response to DHS’s FISMA
2012 Questions for Inspectors General. Additional details regarding the scope of our
performance audit are included in the Objective, Scope & Methodology section of this report.

Based on our audit work, we concluded that the United States Department of the Treasury’s
information security program and practices for its non-IRS bureaus’ unclassified systems were
generally consistent with the FISMA legislation, OMB information security requirements, and
related information security standards published by the National Institute of Standards and
Technology (NIST). While the information security program was generally consistent with the
FISMA legislation, the program was not fully effective as reflected in the findings identified in
the following areas:

    1. Logical account management activities were not in place or not consistently performed
        by the Bureau of Public Debt (BPD), the Alcohol and Tobacco Tax and Trade Bureau
        (TTB), Departmental Offices (DO), Office of the Comptroller of the Currency (OCC),
        and Financial Crimes Enforcement Network (FinCEN).
    2. Security incidents were not reported in a timely manner at the Bureau of Engraving and
        Printing (BEP), BPD, and FinCEN.
    3. System security plans at OCC and Financial Management Service (FMS) did not fully
        document all security controls from NIST Special Publication (SP) 800-53, Revision
        (Rev.) 3, and one System Security Plan (SSP) for FinCEN was not updated to address
        weaknesses identified in the security assessments.
    4. Audit logs were not sufficiently reviewed by FMS and DO in accordance with NIST and
        Department of the Treasury requirements.
    5. Plans of Action and Milestones (POA&Ms) were not tracked in accordance with NIST
        and Department of the Treasury requirements at DO.
    6. Vulnerability scanning and remediation was not performed in accordance with
        Department of the Treasury requirements at FMS, United States Mint (Mint), DO, BPD,
        and OCC.
    7. Contingency planning and testing controls were not fully implemented or operating as
        designed at DO and FMS.
    8. Backup controls were not in place or were not operating as designed at BPD and
        Community Development Financial Institution (CDFI) Fund.
    9. System configuration settings were not implemented properly at DO and OCC.
    10. System baselines were not documented properly at BPD, FMS, and FinCEN.
    11. Multifactor authentication was not implemented at FMS.

We have made 31 recommendations related to these control deficiencies that, if addressed by
management, will strengthen the respective bureaus, offices, and the Department of the
Treasury’s information security program. In a written response, the Treasury Chief Information
Officer (CIO) agreed with our findings and recommendations and provided corrective action
plans (see Management Response). The Department of Treasury’s planned corrective actions are
responsive to the intent of our recommendations. We tested controls for the period July 1, 2011




                                                                                          Page 2
to June 30, 2012. We caution that projecting the results of our audit to future periods is subject to
the risks that controls may become inadequate because of changes in technology or because
compliance with controls may deteriorate.

Appendix I describes the FISMA audit’s objective, scope, and methodology. Appendix II, Status
of Prior-Year Findings, summarizes the Department of the Treasury’s progress in addressing
prior-year recommendations. Appendix III provides The Department of the Treasury’s
Consolidated Response to DHS’s FISMA 2012 Questions for Inspectors General. Appendix IV,
Approach to Selection of Subset of Systems, describes how we selected systems for review.
Appendix V, Selected Security Control Classes and Families, describes the selected NIST SP
800-53, Rev. 3, security controls reviewed for each of the selected systems. Appendix VI
summarizes IT security findings identified from the Department of the Treasury’s financial
statement audit at non-IRS bureaus that impact FISMA compliance, and Appendix VII contains
a glossary of terms used in this report.

Sincerely,




November 7, 2012




                                                                                             Page 3
The Department of the Treasury FISMA Performance Audit – 2012
BACKGROUND
Federal Information Security Management Act (FISMA)

Title III of the E-Government Act of 2002 (the Act), commonly referred to as FISMA, focuses on
improving oversight of federal information security programs and facilitating progress in correcting
agency information security weaknesses. FISMA requires federal agencies to develop, document, and
implement an agency-wide information security program that provides security for the information and
information systems that support the operations and assets of the agency, including those provided or
managed by another agency, contractor, or other source. The Act assigns specific responsibilities to
agency heads and Inspectors General (IGs) in complying with requirements of FISMA. The Act is
supported by Office of Management and Budget (OMB), agency security policy, and risk-based standards
and guidelines published by National Institute of Standards and Technology (NIST) related to information
security practices.

Under FISMA, agency heads are responsible for providing information security protections
commensurate with the risk and magnitude of harm resulting from the unauthorized access, use,
disclosure, disruption, modification, or destruction of information and information systems. Agency heads
are also responsible for complying with the requirements of FISMA and related OMB policies and NIST
procedures, standards, and guidelines. FISMA directs federal agencies to report annually to the OMB
Director, Comptroller General, and selected congressional committees on the adequacy and effectiveness
of agency information security policies, procedures, and practices and compliance with FISMA. OMB has
delegated some responsibility to the Department of Homeland Security (DHS) in memorandum M-10-28,
Clarifying Cybersecurity Responsibilities and Activities of the Executive Office of the President and the
Department of Homeland Security, for the operational aspects of Federal cyber security, such as
establishing government-wide incident response and operating the tool to collect FISMA metrics. In
addition, FISMA requires agencies to have an annual independent evaluation performed of their
information security programs and practices and to report the evaluation results to OMB. FISMA states
that the independent evaluation is to be performed by the agency IG or an independent external auditor as
determined by the IG.

Federal Standards and Guidelines

OMB has directed agencies to use NIST Federal Information Processing Standards (FIPS) Publication
199, Security Categorization of Federal Information and Information Systems, to apply a security
categorization rating to an information system. This rating is assigned to an information system based on
an evaluation of its confidentiality, integrity, and availability.

OMB has further directed that agencies use NIST FIPS Publication 200, Minimum Security Requirements
for Federal Information and Information Systems, in order to apply a security controls baseline to the
information system, based on the FIPS Publication 199 categorization. FIPS Publication 200 specifies the
minimum security requirements for the information system and provides a risk-based process for
determining the minimum security controls necessary for the information system. In addition, FIPS
Publication 200 specifies 18 controls families that must be addressed when implementing security
controls commensurate with the FIPS Publication 199 security categorization of the system.

NIST Special Publication (SP) 800-53, Revision (Rev.) 3, Recommended Security Controls for Federal
Information Systems and Organizations, further defines the 18 controls families outlined in FIPS
Publication 200, by defining the minimum set of security controls for non-national security systems of all
Federal agencies. NIST SP 800-53, Rev. 3, then divides the 18 controls families into three control classes
(management, operational, and technical security controls). Management controls are the safeguards or


                                                                                                   Page 4
The Department of the Treasury FISMA Performance Audit – 2012
countermeasures, related to an information system, which focus on the management of risk and system
security. Operational controls are the safeguards and countermeasures for an information system, but are
primarily implemented and executed by individuals (as opposed to information systems). Technical
controls are also the safeguards or countermeasures for an information system, but are primarily
implemented and executed by the system through mechanisms contained in the hardware, software, or
firmware components of the system. Table 1 details the security control classes and families.

                           Table 1: Security Control Classes and Families


            Security Control Class                   Security Control Family
                                         Planning
                                         Program Management
            Management                   Risk Assessment
                                         Security Assessment and Authorization
                                         System and Services Acquisition
                                         Awareness and Training
                                         Configuration Management
                                         Contingency Planning
                                         Incident Response
            Operational                  Maintenance
                                         Media Protection
                                         Personnel Security
                                         Physical and Environmental Protection
                                         System and Information Integrity
                                         Access Control
                                         Audit and Accountability
            Technical
                                         Identification and Authentication
                                         System and Communications Protection
                                 Source: NIST Special Publication 800-53 Revision 3


Department of the Treasury Bureaus/Offices (Bureaus)

The Department of the Treasury consists of 13 operating bureaus and offices, including:

     1. Alcohol and Tobacco Tax and Trade Bureau (TTB) – Responsible for enforcing and
        administering laws covering the production, use, and distribution of alcohol and tobacco
        products. TTB also collects excise taxes for firearms and ammunition.
     2. Bureau of Engraving and Printing (BEP) – Designs and manufactures United States paper
        currency, securities, and other official certificates and awards.
     3. Bureau of the Public Debt (BPD) – Borrows the money needed to operate the Federal
        government. It administers the public debt by issuing and servicing United States Department of
        the Treasury marketable, savings, and special securities.
     4. Community Development Financial Institution (CDFI) Fund – Created to expand the
        availability of credit, investment capital, and financial services in distressed urban and rural
        communities.



                                                                                                 Page 5
The Department of the Treasury FISMA Performance Audit – 2012
     5. Departmental Offices (DO) – Primarily responsible for policy formulation. The DO, while not
         a formal bureau, is composed of divisions headed by Assistant Secretaries, some of whom
         report to Under Secretaries. These offices include domestic finance, economic policy, General
         Council, International Affairs, Legislative Affairs, Management, Public Affairs, Tax Policy, and
         Terrorism and Finance Intelligence. The Office of Cybersecurity, within the Office of
         Management, is responsible for the development of information technology (IT) Security
         Policy.
     6. Financial Crimes Enforcement Network (FinCEN) – Supports law enforcement investigative
         efforts and fosters interagency and global cooperation against domestic and international
         financial crimes. It also provides United States policy makers with strategic analyses of
         domestic and worldwide trends and patterns.
     7. Financial Management Service (FMS) – Receives and disburses all public monies, maintains
         government accounts, and prepares daily and monthly reports on the status of government
         finances.
     8. Internal Revenue Service (IRS) – Responsible for determining, assessing, and collecting
         internal revenue in the United States.
     9. Office of the Comptroller of the Currency (OCC) – Charters, regulates, and supervises
         national banks and thrift institutions to ensure a safe, sound, and competitive banking system
         that supports the citizens, communities, and economy of the United States.
     10. Office of the Inspector General (OIG) – Conducts and supervises audits and investigations of
         the Department of the Treasury programs and operations. The OIG also keeps the Secretary and
         the Congress fully and currently informed about problems, abuses, and deficiencies in the
         Department of the Treasury programs and operations.
     11. United States Mint (Mint) – Designs and manufactures domestic, bullion, and foreign coins as
         well as commemorative medals and other numismatic items. The Mint also distributes United
         States coins to the Federal Reserve banks as well as maintains physical custody and protection
         of our nation’s silver and gold assets.
     12. Special Inspector General for the Troubled Asset Relief Program (SIGTARP) – Has the
         responsibility to conduct, supervise, and coordinate audits and investigations of the purchase,
         management, and sale of assets under the Troubled Asset Relief Program (TARP). SIGTARP’s
         goal is to promote economic stability by assiduously protecting the interests of those who fund
         the TARP programs (i.e., the American taxpayers).
     13. Treasury Inspector General for Tax Administration (TIGTA) – Conducts and supervises
         audits and investigations of IRS programs and operations. The TIGTA also keeps the Secretary
         and the Congress fully and currently informed about problems, abuses, and deficiencies in IRS
         programs and operations.

The scope of our 2012 FISMA audit did not include the IRS, which was audited by TIGTA. The TIGTA
report will be appended to this report and the findings of that report will be incorporated within Appendix
III, The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2012 Questions for
Inspectors General.

Department of the Treasury Information Security Management Program

Treasury Office of the Chief Information Officer (OCIO)

The Treasury Chief Information Officer (CIO) is responsible for providing Treasury-wide leadership and
direction for all areas of information and technology management, as well as the oversight of a number of
IT programs. Among these programs is Cyber Security, which has responsibility for the implementation
and management of Treasury-wide IT security programs and practices. Through its mission, the OCIO
Cyber Security Program develops and implements IT security policies and provides policy compliance


                                                                                                    Page 6
The Department of the Treasury FISMA Performance Audit – 2012
oversight for both unclassified and classified systems managed by each of the Department of the
Treasury’s bureaus. The OCIO Cyber Security Program’s mission focuses on the following areas:

   1. Cyber Security Policy – Manages and coordinates the Departmental cyber security policy for
      sensitive (unclassified) systems throughout the Department of the Treasury, assuring these
      policies and requirements are updated to address today’s threat environment, and conducts
      program performance, progress monitoring, and analysis.
   2. Performance Monitoring and Reporting – Implements collection of Federal and Department of
      the Treasury-specific security measures and reports those to national authorities and in appropriate
      summary or dashboard form to senior management, IT managers, security officials, and Bureau
      officials. For example, this includes preparation and submission of the annual FISMA report and
      more frequent continuous monitoring information through CyberScope.
   3. Cyber Security Reviews – Conducts technical and program reviews to help strengthen the
      overall cyber security posture of the Department of the Treasury and meet their oversight
      responsibilities.
   4. Enterprise-wide Security – Works with the Bureaus’ and the Department of the Treasury’s
      Government Security Operations Center to deploy new Department of the Treasury-wide
      capabilities or integrate those already in place, as appropriate, to strengthen the overall protection
      of the Department of the Treasury. Examples include implementation of Domain Name System
      Security Extensions, an automated asset inventory, and Department of the Treasury-wide security-
      related audit findings. Includes addressing the Department of the Treasury’s strategies and plans
      to mitigate cyber security risks from configuration and other vulnerabilities.
   5. Understanding Security Risks and Opportunities from New Technologies – New information
      and security technologies present both risks (e.g., introduction of new vulnerabilities) and
      opportunities (e.g., new means to provide secure and original functionality for users). OCIO seeks
      to understand these technologies, their associated risks and opportunities, and share and use that
      information to the Department of the Treasury’s advantage. Vulnerability Analysis, Configuration
      and Planning analyzes current and emerging technologies and Cyber Critical Infrastructure
      Protection. Implements cyber-related requirements of Homeland Security Presidential Directive
      No. 7, “Critical Infrastructure Identification, Prioritization, and Protection,” focusing on the
      protection of Department of the Treasury-owned cyber assets.
   6. Treasury Computer Security Incident Response Capability (TCSIRC) – Provides incident
      reporting with external reporting entities and conducts performance monitoring and analyses of
      Computer Security Incident Response Center (CSIRC) within the Department of the Treasury.
   7. National Security Systems – Manages and coordinates the Department of the Treasury-wide
      program to address the cyber security requirements of national security systems through the
      development of policy and program or technical security performance reviews.
   8. Cyber Security Sub-Council (CSS) of the CIO Council – Operates to serve as the formal means
      for gaining bureau input and advice as new policies are developed, enterprise-wide activities are
      considered, and performance measures are developed and implemented; provides a structured
      means for information-sharing among the bureaus.

The CIO has tasked the Associate Chief Information Officer for Cyber Security (ACIOCS) with the
responsibility of managing and directing the OCIO’s Cyber Security program, as well as ensuring
compliance with statutes, regulations, policies, and guidance. The ACIOCS and the Cyber Security
Program have established Treasury Directive Publication (TD P) 85-01 Volume I, Treasury Information
Technology Security Program, as the Department of the Treasury IT security policy to provide for
information security for all information and information systems that support the mission of the
Department of the Treasury, including those operated by another Federal agency or contractor on behalf
of the Department of the Treasury. In addition, as OMB periodically releases updates/clarifications of
FISMA or as NIST releases updates to publications, the ACIOCS and the Cyber Security Program have


                                                                                                     Page 7
The Department of the Treasury FISMA Performance Audit – 2012
responsibility to interpret and release updated policy for the Department of the Treasury. The ACIOCS
and the Cyber Security Program are also responsible for promoting and coordinating a Department of the
Treasury IT security program, as well as monitoring and evaluating the status of Department of the
Treasury’s IT security posture and compliance with statutes, regulations, policies, and guidance. Lastly,
the ACIOCS has the responsibility of managing Department of the Treasury’s IT Critical Infrastructure
Protection (CIP) program for Department of the Treasury IT assets.

Bureau CIOs

Organizationally, the Department of the Treasury has established bureau-level and office (bureau) CIOs.
The CIOs are responsible for managing the IT security program for their bureau, as well as advising the
bureau head on significant issues related to the bureau IT security program. The CIOs also have the
responsibility for overseeing the development of procedures that comply with Treasury OCIO policy and
guidance and federal statutes, regulations, policy, and guidance. The bureau Chief Information Security
Officers (CISO) are tasked by their respective CIOs to serve as the central point of contact for the
bureau’s IT security program, as well as to develop and oversee the bureau’s IT security program. This
includes the development of policies, procedures, and guidance required to implement and monitor the
bureau IT security program.

Department of the Treasury – Bureau OCIO Collaboration

The Department of the Treasury OCIO has established the CIO CSS, which is co-chaired by the ACIOCS
and a bureau CIO. The CSS serves as a mechanism for obtaining bureau-level input and advises on new
policies, Department of the Treasury IT security activities, and performance measures. The CSS also
provides a means for sharing IT security-related information among bureaus. Included on the CSS are
representatives from the OCIO and bureau CIO organizations.




                                                                                                  Page 8
The Department of the Treasury FISMA Performance Audit – 2012
OVERALL AUDIT RESULTS

We concluded that the Department of the Treasury’s information security program and practices for its
non-IRS bureaus’ unclassified systems were generally consistent 1 with the FISMA legislation and related
information security policies, standards, and guidelines. However, they were not fully effective, resulting
in the identification of 11 categories of control weaknesses and 31 recommendations that the bureaus,
offices, and the Department of the Treasury should address to strengthen their information security
management programs. The Findings section of this report presents the detailed findings and associated
recommendations. In a written response to this report, the Treasury CIO agreed with our findings and
recommendations and provided corrective action plans (see Management Response). The Department of
Treasury’s planned corrective actions are responsive to the intent of our recommendations.

Additionally, we evaluated all prior-year findings from the fiscal year (FY) 2011 FISMA Performance
Audit and noted that 20 of 28 findings had been closed by management. For 3 of the 28 findings, we were
unable to test the implementation of the findings in time by our end of fieldwork date, June 30, 2012. For
these findings, we noted that they are closed but untested and should be evaluated as part of the FY 2013
independent evaluation. See Appendix II, Status of Prior-Year Findings, for additional details.

Summaries of the 11 categories of control weaknesses follow:

            1. Logical account management activities were not in place or not consistently performed
               by BPD, TTB, DO, OCC, and FinCEN.

                Logical account management activities were not in place or activities, such as disabling
                accounts of users that no longer need access and documenting of access approvals, were not
                consistently performed at BPD, TTB, DO, OCC, and FinCEN. By not establishing and
                consistently performing access management activities, there is an increased risk that
                potentially unauthorized access, disclosure, and changes could occur within the IT
                infrastructure.

            2. Security incidents were not reported in a timely manner at BEP, BPD, and FinCEN.

                There were untimely reporting of incidents at BEP, BPD, and FinCEN. These bureaus had
                United States Computer Emergency Readiness Team (US-CERT) Category (CAT) 1 security
                incidents that were reported after the timelines had lapsed. By not reporting security incidents
                in a timely manner, these bureaus increased the risk posed to their information systems while
                the incidents were unreported.

            3. System security plans at OCC and FMS did not fully document all security controls
               from NIST SP 800-53 Rev. 3, and one SSP for FinCEN was not updated to address
               weaknesses identified in the security assessments.

                OCC and FMS relied on system security plans (SSP) that did not contain all of the security
                controls required by NIST SP 800-53, Rev. 3, and FinCEN had not updated an SSP to reflect
                and address self-identified control weaknesses. NIST SP 800-53, Rev. 3, was issued in
                August 2009, and agencies were required to implement this guidance one year after issuance.
                Failing to select the proper baseline of security controls, or failing to document the results of
                a risk assessment within a system’s SSP, impacts subsequent security activities in the NIST

1
    TIGTA will provide a separate report evaluating the IRS’s implementation of the Department of the Treasury’s information
     security program.


                                                                                                                        Page 9
The Department of the Treasury FISMA Performance Audit – 2012
          Risk Management Framework. Therefore, system security controls may not appropriately or
          sufficiently protect the confidentiality, integrity, and availability of sensitive bureau
          information.

       4. Audit logs were not sufficiently reviewed by FMS and DO in accordance with NIST and
          Department of the Treasury requirements.

          FMS and DO did not fully implement NIST auditing and accountability controls as required
          by NIST and Treasury guidance. By not identifying and reviewing significant audit events,
          system owners may be unable to identify and mitigate all significant threats to the information
          system. This could cause Treasury personnel to remain unaware of security incidents that
          have already taken place, leaving the system in a compromised state for an extended period.

       5. Plans of Action and Milestones (POA&Ms) were not tracked in accordance with NIST
          and Department of the Treasury requirements at DO.

          DO did not fully implement POA&M controls as required by NIST and Treasury guidance.
          By not timely recording and updating identified security weaknesses in their respective
          systems, DO and Treasury management would not be able to exercise their oversight
          responsibilities to modify funding levels, human resources, and requested priorities in
          response to identified security weaknesses.

       6. Vulnerability scanning and remediation was not performed in accordance with
          Treasury requirements at FMS, Mint, DO, BPD, and OCC.

          FMS, Mint, DO, BPD, and OCC did not fully implement NIST vulnerability scanning and
          flaw remediation controls as required by NIST and Department of the Treasury guidance.
          Without knowledge of missing security patches, insecure configurations, or application
          vulnerabilities, Department of the Treasury bureaus could not take steps to mitigate potential
          vulnerabilities in their information systems. Additionally, lack of timely remediation of
          vulnerabilities can result in systems being compromised.

       7. Contingency planning and testing controls were not fully implemented or operating as
          designed at DO and FMS.

          DO and FMS did not fully implement contingency planning and testing controls as required
          by NIST and Department of the Treasury guidance. Disaster failover tests are paramount in
          assuring that in emergencies, systems can recover with the least amount of down time
          possible. Failure to appropriately test contingency plans could result in the unavailability of
          critical Department of the Treasury information and information systems in the event of a
          disaster.

       8. Backup controls were not in place or were not operating as designed at BPD and CDFI
          Fund.

          Backup controls were not in place at BPD and that CDFI Fund did not fully implement
          backup controls as required by NIST and Department of the Treasury guidance. A lack of
          frequent, successful backups can have a significant negative effect on Treasury information
          systems if a disaster (i.e., hard-drive failure, natural disaster, or national emergency) were to
          occur. Data that has not been stored off-site on tape or other media could be lost if a disaster
          were to occur.


                                                                                                  Page 10
The Department of the Treasury FISMA Performance Audit – 2012

       9. System configuration settings were not implemented properly at DO and OCC.

          DO and OCC lacked sufficient implemented settings as required by TD P 85-01 Volume I.
          The bureaus self-identified multiple settings that were not in place and that there was
          no one specific or one overall trend. By not adequately implementing restrictive
          configuration settings, Treasury bureaus increase the risk of malicious attacks to their
          systems.

       10. System baselines were not documented properly at BPD, FMS, and FinCEN.

          BPD, FMS, and FinCEN lacked sufficient baseline documentation as required by TD P 85-01
          Volume I. By not adequately documenting configuration baselines, Department of the
          Treasury bureaus are susceptible to risks when new security threats emerge or system
          hardware and software is changed.

       11. Multifactor authentication was not implemented at FMS.

          A selected FMS system lacked sufficient multifactor authentication as required by NIST
          guidance. Multifactor authentication provides an additional level of security for accounts to
          prevent unauthorized access within the IT infrastructure.




                                                                                               Page 11
The Department of the Treasury FISMA Performance Audit – 2012
FINDINGS

1. Logical account management activities were not in place or were not consistently
   performed by the bureaus at BPD, TTB, DO, OCC, and FinCEN

   We identified an inconsistent implementation of logical access controls at BPD, TTB, DO, OCC, and
   FinCEN. We noted the following:

       1. For the two selected BPD systems, BPD management could not provide sufficient supporting
          documentation evidencing the users’ last log-on date or time. As a result, we were unable to
          test the operating effectiveness of the controls over whether inactive users are disabled. (See
          Recommendations #1 and #2.)

       2. Account management activities were not consistently performed as required by TD P 85-01
          Volume I, Treasury Information Technology Security Program, and bureau-specific policies
          at TTB, OCC, FinCEN, and DO.
          • TTB had three active user accounts that should have had access revoked. One account, a
               test account, had last logged in on March 22, 2012 and the account was not deactivated
               after 60 days of inactivity. Another account was for an individual who had separated in
               July 2011 but still had an enabled account. Additionally, there was a separated individual
               whose account was still active 20 days after her departure. TTB management explained
               that it did not have an automated mechanism to disable inactive accounts due to a
               technical limitation; therefore, some user accounts were not properly disabled in a timely
               manner. Additionally, TTB stated that access removal for separated employees was a
               manual process by each employee’s supervisor and that human error occurred. (See
               Recommendations #3 and #4.)
          • For a selected DO system, DO management did not formally document and maintain
               access request forms for privileged user accounts. This was self-discovered during the
               systems continuous monitoring test performed in June 2012. While there was a
               documented corrective action plan in the continuous monitoring report, there was not an
               updated POA&M item during the FISMA year. (See Recommendation #5.)
          • OCC did not incorporate all general support system user accounts of Office of Thrift
              Supervision (OTS), the bureau that OCC partially took over last year, as part of its access
              review process. When OTS migrated to OCC, most of the accounts were changed from
              OTS accounts to OCC accounts. Fourteen users were not transferred over. OCC noticed
              this when they did their account review and created a POA&M to remediate it. This was a
              self-reported finding and documented within OCC’s POA&M report in the Trusted Agent
              FISMA (TAF) system and scheduled to be corrected on July 31, 2012.
          • A selected FinCEN system had a user account on the database that had unnecessary access
              permissions. We noted this was due to database accounts not being sufficiently reviewed
              for access privileges. This was a self-identified weakness as a result of FinCEN’s security
              assessment and authorization and scheduled to be corrected on January 14, 2013.

   These control deficiencies demonstrate that these bureaus did not appropriately implement policies
   for reviewing user access, disabling or deleting inappropriate user access, and following NIST’s
   concept of least privilege.

   By failing to disable the accounts of separated users or inactive users promptly, and by not
   implementing a periodic review of all user and administrator accounts for inactivity or permissions,




                                                                                                Page 12
The Department of the Treasury FISMA Performance Audit – 2012
   there is an increased risk that users could gain or retain unauthorized access and/or modify production
   data on their respective systems or the network

   We recommend that BPD management:

       1. For both selected systems, develop or acquire additional system capability that generates user
          lists with last log-on dates so that inactive users are automatically disabled in a timely
          manner.

       2. For both selected systems, in the absence of a long-term system capability solution, perform
          manual monthly reviews of all system user accounts and disable or delete accounts that no
          longer need access.

   We recommend that TTB management:

       3. Implement an automated mechanism, a script, or manual review process to ensure inactive
          accounts are disabled after 60 days of inactivity.

       4. Ensure that supervisors are aware of their responsibilities to remove the access of separated
          employees.

   We recommend that DO management:

       5. Include the corrective action plans from the selected system’s continuous monitoring report
          into a POA&M item.

   Based on the planned corrective actions for OCC and FinCEN, we are not making additional
   recommendations.

2. Security incidents were not reported in a timely manner at BEP, BPD, and FinCEN

   Department of the Treasury bureaus are required to submit all security incidents to the TCSIRC
   within specified time frames categorized by incident severity. The audit identified incidents that were
   reported later than the US-CERT and Department of the Treasury recommended guidelines at BEP,
   BPD, and FinCEN. We noted that all three bureaus reported CAT 1 security incidents later than the
   deadlines required by TD P 85-01 Volume I, which takes its guidance from US-CERT. Specifically,
   we noted the following:

       •   BEP did not report 3 of the 15 sampled security incidents to TCSIRC within the one-hour
           time period required for a CAT 1 incident. Specifically, one incident was reported 50 minutes
           late, one incident was reported 65 minutes late, and another incident was not reported until
           seven days after identification. BEP Help Desk reports incidents to the designated BEP
           Incident Coordinator, who then forwards the reported incident to the BEP CSIRC
           Management Team. This two-step process caused delays with the submission of the security
           incident to TCSIRC within BEP’s documented time frames. Additionally, not all Help Desk
           members had been fully trained to respond to security incidents and properly report them to
           the BEP CSIRC Management Team. (See Recommendations #6 and #7.)
       •   BPD did not report one out of three security incidents within the required one-hour time
           period for a CAT 1 incident (the incident took 14 hours to report). The delay was caused by
           BPD’s reliance on United Parcel Service (UPS) to verify the status of a missing package.



                                                                                                 Page 13
The Department of the Treasury FISMA Performance Audit – 2012
           BPD followed UPS’s advice and waited until the following day when the next UPS delivery
           was made to ensure that the package was truly lost. (See Recommendations #8 and #9.)
       •   FinCEN did not report 1 of the 12 incidents to TCSIRC within the required one-hour time
           period for a CAT 1. Specifically, the incident was reported 69 hours after identification.
           There was only one person responsible for FinCEN’s CSIRC reporting, and the incident
           occurred when this person was out of the office, which delayed reporting until he returned. At
           the time, there were no backup CSIRC personnel. (See Recommendation #10.)

   By not reporting security incidents in a timely manner, these bureaus increase the risk of unauthorized
   access, or denial of service attacks, posed to their information system while the incident remains
   unreported. Additionally, by not reporting incidents, the bureaus can impair the TCSIRC’s and the
   US-CERT’s ability to track, analyze, and act on aggregated incident data.

   We recommend that BEP management:

       6. Revise the current Incident Response reporting process and written procedures to have the
          Help Desk send all incidents to the CSIRC group as opposed to the BEP Incident
          Coordinator.

       7. Provide additional training to the Help Desk team members regarding BEP’s incident
          response policies and procedures to ensure they are consistently implemented. Additional
          training for Help Desk personnel should include the same curriculum used by BEP CSIRC
          management team members to allow for better understanding of the incident reporting
          process.

   We recommend that BPD management:

       8. Ensure that BPD’s CSIRC report all CAT 1 incidents to US-CERT within one hour
          regardless of any additional procedures (follow- up, confirmation, or additional feedback
          from third party) performed by CSIRC personnel.

       9. Provide additional training to the BPD’s CSIRC management team regarding BPD’s incident
          response policies and procedures to ensure that all incidents are reported in time regardless of
          reliance on third parties to confirm incident.

   We recommend that FinCEN management:

       10. Evaluate its current CSIRC capability for collecting and submitting incident responses and
           implement backup CSIRC personnel to ensure that incident response tickets are handled in a
           timely fashion.




                                                                                                 Page 14
The Department of the Treasury FISMA Performance Audit – 2012
3. System security plans at OCC and FMS did not fully document all security controls
   from NIST SP 800-53, Rev. 3, and one SSP for FinCEN was not updated to address
   weaknesses identified in the security assessments

   NIST and Department of the Treasury guidance require that Department of the Treasury SSPs remain
   up-to-date and current with the NIST Risk Management Framework and required NIST SP 800-53,
   Rev. 3, security controls. Specifically, we noted that:

   •   The two selected information systems from OCC did not include all required security controls in
       areas such as access control, audit and accountability, contingency planning, identification and
       authentication, maintenance, media protection, system and communications protection, and
       system and information integrity, as specified in NIST SP 800-53, Rev. 3. We noted that the
       conditions cited above occurred because OCC management did not perform an adequate review
       of the two selected systems’ SSPs and overlooked the lack of these controls and control
       enhancements when updating the SSPs. (See Recommendations #11 and #12.)
   •   The SSP for a selected FMS system did not reflect the current and primary source of backups for
       the application. FMS management stated that the error was due to a management oversight when
       updating the SSP. (See Recommendation #13.)
   •   FinCEN’s SSP for the selected system did not reflect the results of their latest Security
       Assessment and Authorization, which required certain controls to be updated to reflect self-
       identified weaknesses. It was noted that this was a self-reported finding and was listed as a
       POA&M with the TAF system with an estimated date of completion of January 14, 2013.

   Failing to document an up-to-date baseline of security controls may have a negative effect on
   subsequent security activities. Specifically, OCC, FinCEN, and FMS may not be able to properly
   implement, assess, authorize, and monitor the security controls for the selected systems; therefore, the
   system security controls may not be sufficient to protect the confidentiality, integrity, and availability
   of sensitive bureau information.

   We recommend that OCC management:

       11. For both selected systems, update the SSP to address and reference all the NIST SP 800-53,
           Rev. 3, security controls and control enhancements for a Moderate baseline.

       12. For both selected systems, ensure management conducts an adequate review of the SSPs to
           ensure that it includes applicable NIST SP 800-53, Rev. 3, controls.

   We recommend that FMS management:

       13. Update the selected system’s SSP to reflect the current and primary source of backups for the
           application.

   Based on the planned corrective actions for FinCEN, we are not making a recommendation.

4. Audit logs were not sufficiently reviewed by FMS and DO in accordance with NIST and
   Department of the Treasury requirements

   NIST SP 800-53, Rev. 3, and TD P 85-01 Volume I require that government information systems
   owners and security managers identify and review significant auditable events in order to protect the
   confidentiality, integrity, and availability of the information system. These audit logs need to be


                                                                                                    Page 15
The Department of the Treasury FISMA Performance Audit – 2012
   generated and reviewed by IT personnel on a regular basis if security incidents are to be discovered
   and acted upon in a timely manner and should be appropriately stored for security and historical
   purposes. We noted the following:

       •   A selected FMS system’s audit capabilities and functions did not adhere to the Fiscal Service
           Baseline Services Requirements (BLSR) and NIST SP 800-53, Rev. 3, guidance as required
           for HIGH categorized systems. Specifically, it did not have any automated capabilities or any
           supporting processes to log and monitor security-relevant events. When designing the system,
           FMS management did not adequately identify requirements and provide capabilities to log
           and monitor security-related events. In addition, management did not establish a robust
           monitoring process to support the review and follow-up of selected auditable events, and
           management did not document within their system security plan specific security-related
           events that will be monitored on an ongoing basis. (See Recommendations #14, #15, and
           #16.)
       •   A selected DO system lacked a process to review audit records. DO management self-
           identified this weakness during a continuous monitoring assessment in June 2012. While
           there was a documented corrective action plan in the continuous monitoring report, there was
           not an updated POA&M item during the FISMA year. (See Recommendation #17.)

   By not adhering to NIST guidance over audit log review policies, IT security personnel would be
   unable to identify and mitigate significant threats to the information system. Additionally, this could
   cause Department of the Treasury personnel to remain unaware of security incidents that have already
   taken place, leaving the system in a compromised state for an extended period.

   We recommend that FMS management:

       14. Enhance the selected system audit capabilities to capture security-related events as prescribed
           by the BLSR and NIST SP 800-53 guidance.

       15. Establish a clear oversight process to review the security-related events and ensure
           appropriate follow-up action is taken as prescribed by the BLSR and NIST SP 800-53.

       16. Update the selected system’s system security plan to document security-related events that
           need to be monitored as prescribed by the BLSR.

   We recommend that DO management:

       17. Include the corrective action plans from the selected system’s continuous monitoring report
           into a POA&M item.

5. POA&Ms were not tracked in accordance with NIST and Department of the Treasury
   requirements at DO

   Department of the Treasury has provided guidance on POA&M creation and tracking through TD P
   85-01 Volume I. This policy requires Department of the Treasury bureaus to maintain POA&Ms in
   order to help remedy weaknesses identified through audits, security assessments, and other risk
   management activities. POA&Ms document the responsible parties, time frames for mitigation, and
   additional necessary resources. We noted that a selected DO system had multiple identified
   weaknesses identified in the June 2012 continuous monitoring test report that were not documented in
   the system POA&M. DO bureau policy requires that POA&Ms be inputted 30 days after the



                                                                                                 Page 16
The Department of the Treasury FISMA Performance Audit – 2012
   weaknesses are initially identified. The lack of these findings being added to the POA&M was an
   oversight by DO management when updating the system POA&M. (See Recommendations #18 and
   #19.)

   By not recording identified information security weaknesses in POA&Ms, these weaknesses may not
   be addressed in a timely manner and subsequently be exploited by an attacker. Moreover, by not
   timely recording and updating identified system security vulnerabilities in their POA&M, Department
   of the Treasury bureaus’ summary-level security metrics under-report the true number of known
   security weaknesses to the Department of the Treasury OCIO. Additionally, senior Department of the
   Treasury management would be unable to exercise its oversight responsibilities to adjust funding
   levels, human resources, and requested priorities in response to identified security weaknesses.

   We recommend that DO management:

       18. Update the selected system POA&M with the findings and recommendations reported in the
           system continuous monitoring test report.

       19. Ensure the continuous monitoring test results and recommendations are captured within the
           selected system POA&M within the 30-day required period.

6. Vulnerability scanning and remediation was not performed in accordance with
   Department of the Treasury requirements at FMS, Mint, DO, BPD, and OCC

   TD P 85-01 Volume I and NIST SP 800-53, Rev. 3, require that bureaus conduct vulnerability
   scanning of their IT assets at least monthly. Additionally, high-risk weaknesses identified in this way
   are required to be remedied in a timely manner, or, if a vulnerability cannot be remedied in a timely
   manner, tracked in a POA&M until the remediation actions are complete. We noted that five bureaus
   did not implement Department of the Treasury policy adequately. Specifically, we noted the
   following:

       •   For a selected FMS system, FMS was unable to provide us with supporting documentation
           confirming that vulnerability scans were being performed over the system’s Internet Protocol
           (IP) addresses. Therefore, we could not determine if vulnerability scans had been performed,
           if any vulnerabilities were identified, and if any corresponding corrective actions or POA&M
           had been implemented (See Recommendations #20 and 21.)
       •   For a selected Mint system, the November 2011 vulnerability scan contained vulnerabilities
           with a high risk rating that were not remedied prior to the March 2012 vulnerability scans.
           The Mint POA&M report from TAF, generated in June 2012, did not reflect the open
           vulnerabilities. These vulnerabilities were not properly remedied due to the Mint’s
           management decision to remediate noncritical vulnerabilities using a risk-based approach.
           This risk-based approach did not address all noncritical vulnerabilities in a timely manner and
           deviated from the Mint’s vulnerability remediation policy, which requires noncritical patches
           to be applies on a bimonthly basis. (See Recommendation #22.)
       •   For the selected DO system, DO management identified multiple high-risk weaknesses in
           vulnerability scans and missing scans for database components during DO’s continuous
           monitoring assessment in 2012. While a documented corrective action plan was established in
           the continuous monitoring report, the weaknesses were not recorded in the POA&M during
           the FISMA year. (See Recommendation #23.)
       •   For both selected BPD systems, BPD management identified that there were insufficient
           procedures over vulnerability remediation in place. This was a self-reported finding and



                                                                                                 Page 17
The Department of the Treasury FISMA Performance Audit – 2012
           documented within BPD’s POA&M report on TAF. The POA&M item is scheduled to be
           completed on June 30, 2013.
       •   For both selected OCC systems, OCC management identified multiple high-risk weaknesses
           in vulnerability scans that were not remediated. This was a self-reported finding and
           documented within OCC’s POA&M report on TAF. The POA&M item is scheduled to be
           completed on August 15, 2012.

   Without knowledge of missing security patches, insecure configurations, or application
   vulnerabilities, Department of the Treasury bureaus might not take steps to mitigate potential
   vulnerabilities in their information systems. These vulnerabilities could lead to their systems and/or
   applications being compromised and sensitive information being released, altered, or deleted.

   We recommend that FMS management:

       20. Formally document the vulnerability scanning and flaw remediation processes for the Fiscal
           Services organization and communicate the processes to affected field personnel.

       21. Maintain a complete listing of hosts and IP addresses for the selected FMS system production
           environment and document any changes to this listing, and retain enough supporting
           documentation to confirm the accuracy of completed vulnerability scans.

   We recommend that Mint management:

       22. Follow their vulnerability remediation policy for all vulnerabilities, including older,
           noncritical patches, to ensure that vulnerabilities are not missed in the remediation process.

   We recommend that DO management:

       23. Include the corrective action plans from the selected system’s continuous monitoring report
           into a POA&M item.

   Based upon the planned correction actions for BPD and OCC, we are not making a recommendation.

7. Contingency planning and testing controls were not fully implemented or operating as
   designed at DO and FMS

   Treasury guidance requires its bureaus to protect their information systems in the event of a disaster.
   Bureaus must create plans for system recovery and test these plans. Two Treasury bureaus did not
   fully implement contingency planning (planning and testing) controls as required by TD P 85-01
   Volume I and NIST SP 800-53, Rev. 3, guidance. While these controls do not affect normal, daily
   operations, they are invaluable in quickly recovering from a disaster or service interruption.
   Specifically, we noted the following:

       •   Contingency plan documentation for a selected DO system was not updated within the
           FISMA year. Additionally, contingency plan testing was not performed for the system within
           the FISMA year. DO management self-identified these weaknesses during a continuous
           monitoring assessment in June 2012. While there was a documented corrective action plan in
           the continuous monitoring report, there was not an updated POA&M item during the FISMA
           year. (See Recommendation #24.)




                                                                                                 Page 18
The Department of the Treasury FISMA Performance Audit – 2012
       •   For one selected FMS system, FMS management identified the contingency plan test was not
           performed within the FISMA year. This was a self-reported finding and documented within
           FMS’s POA&M report on TAF, with an estimated completion date of August 30, 2012.
       •   For another selected FMS system, FMS management identified one of three disaster recovery
           exercise reconstitution test objectives was not completed during contingency plan testing.
           This was a self-reported finding and documented within FMS’s POA&M report on TAF, with
           an estimated completion date of August 30, 2012.

   Contingency plans and contingency plan testing, as required by NIST SP 800-34, are paramount in
   assuring that Department of the Treasury information systems can remain operational with the least
   amount of downtime possible in emergencies. Failure to appropriately test recovery capabilities could
   result in the unavailability of critical Department of the Treasury information and information systems
   in the event of a disaster.

   We recommend that DO management:

       24. Include the corrective action plans from the selected system’s continuous monitoring report
           into a POA&M item.

   Based on the planned corrective actions for FMS, we are not making a recommendation.

8. Backup controls were not in place or were not operating as designed at BPD and CDFI
   Fund

   We identified insufficient implementation of backup controls at BPD and CDFI Fund. Specifically,
   we noted the following:

       • BPD management could not provide sufficient supporting documentation evidencing that the
         backup jobs were run successfully. As a result, we were unable to test the operating
         effectiveness of the controls over backups. The weekly backup logs did not specify whether
         the selected backup jobs were successful or had failed. BPD stated that the system was not
         configured to include the backup status on the logs. (See Recommendation #25.)
       • Backups of CDFI Fund data for the selected system were not being performed on a regular
         basis. Upon inspection of all successful backups between December 2011 and April 2012, it
         was noted that backups of data were occurring, but the frequency ranged from two to seven
         times a month. This did not comply with the SSP, which indicated that daily incremental
         backups and a weekly full backups occur. CDFI Fund stated that TTB took over the backup
         responsibilities in May 2012, and, as a result of the upcoming transition, evidence for
         successful backups was not maintained. (See Recommendation #26.)

   Department of the Treasury guidance requires its bureaus to protect their information systems in the
   event of a disaster. Bureaus must plan for system recovery, test these plans, and store redundant data
   to assist in such a system recovery. Two Department of the Treasury bureaus did not fully implement
   backup controls as required by TD P 85-01 Volume I, and NIST SP 800-53, Rev. 3, guidance. While
   these controls do not affect normal, daily operations, they are invaluable in quickly recovering from a
   disaster or service interruption. Lack of frequent, successful backups can have a significant negative
   effect on Department of the Treasury information systems if a disaster (i.e., hard-drive failure, natural
   disaster, and national emergency) were to occur. Data can be lost and successful system restoration
   thwarted if backup are not available.




                                                                                                   Page 19
The Department of the Treasury FISMA Performance Audit – 2012
  We recommend that BPD management:

       25. Enhance the logging capability of the system’s backup process so management can determine
           whether the backups were successfully completed.

   We recommend that CDFI Fund management:

       26. Ensure that the system backups are completed successfully per the defined frequency in the
           SSP, and retain evidence of successful completion for one year.

9. System configuration settings were not implemented properly at DO and OCC

   TD P 85-01, Volume I, requires its bureaus to implement restrictive configuration settings levels and
   to detect and track unauthorized changes to the information system. This is to protect information
   integrity and confidentiality. By not adequately implementing restrictive system configuration
   settings, DO and OCC reduce their ability to protect against malicious attacks. We noted the
   following:

      •    A selected DO system lacked sufficient mechanisms to track and detect unauthorized changes.
           DO management self-identified these weaknesses during a continuous monitoring assessment
           in June 2012. While there was a documented corrective action plan in the continuous
           monitoring report, there was not an updated POA&M item during the FISMA year. (See
           Recommendation #27.)
      •    For both selected OCC systems, OCC management identified configuration settings were not
           set to the most restrictive settings possible. Both systems had multiple weaknesses identified
           in configuration settings that did not meet the require threshold for restrictive settings as stated
           by NIST. This was a self-reported finding and documented within OCC’s POA&M report on
           TAF. The POA&M item is scheduled to be completed on December 31, 2013.

   We recommend that DO management:

       27. Include the corrective action plans from the selected system’s continuous monitoring report
           into a POA&M item.

   Based upon the planned correction actions for OCC, we are not making a recommendation.

10. System baselines were not documented properly at BPD, FMS, and FinCEN

   TD P 85-01, Volume I, requires that Treasury bureaus document configuration baselines. TD P 85-
   01, Volume I, uses The Federal Enterprise Architecture Framework, Version 1.1, as guidance to
   federal bureaus on how to establish enterprise architecture over IT systems. These mechanisms are in
   place to establish security standards for information systems to protect from threats and
   vulnerabilities. By not adequately documenting and implementing system baselines, BPD, FMS, and
   FinCEN increase the risk of vulnerabilities being exposed on the system. We noted the following:

       •   Both selected BPD systems did not have baseline configurations formally documented. BPD
           management was aware of the lack of this documentation for both systems; however,
           management had planned to rely on system backups to restore system information in case of a
           disaster event. (See Recommendation #28.)




                                                                                                      Page 20
The Department of the Treasury FISMA Performance Audit – 2012
       •   A selected FMS system lacked sufficient system baseline documentation. Specifically, the
           baseline documentation did not establish operational requirements. Moreover, documentation
           of the following elements did not exist: mandatory configuration settings for the information
           system components to reflect the most restrictive mode; list of authorized and unauthorized
           programs; and mechanisms to verify configuration settings and respond to unauthorized
           changes. The selected system Configuration Management Plan did not provide a clear
           distinction between program change control and system configuration management processes
           identified in the FMS Entity-Wide IT Standards. The lack of clarity and baseline features
           within the selected system Configuration Management Plan was overlooked by FMS
           management when establishing the plan. (See Recommendations #29, #30, and #31.)
       •   KPMG confirmed that, for a selected FinCEN system, FinCEN management identified the
           baseline settings were outdated. This was a self-reported finding and documented within
           FinCEN’s POA&M report on TAF. The POA&M item is scheduled to be completed on
           January 14, 2013.

  We recommend that BPD management:

       28. For both selected systems, develop baseline configurations (application build guides) that are
           consistent with the system’s SSP and Federal Enterprise Architecture.

  We recommend that FMS management:

       29. Clarify the distinction between program change control and system configuration
           management within the FMS Entity-Wide IT Standards and the selected system
           Configuration Management Plan by documenting and considering correcting gaps in the
           current process and work flow to clearly outline work flow, tasks, and management oversight.

       30. Update the selected system Configuration Management Plan to establish operational
           requirements and document the following elements: mandatory security relevant
           configuration settings, description of the controls to address unauthorized security relevant
           changes to the configuration of the system, and a list of authorized/unauthorized changes.

       31. Document a secure baseline and mandatory configuration settings for the information system
           components in the selected system Configuration Management Plan to reflect the most
           restrictive mode in support of the security controls for the system.

   Based upon the planned correction actions for FinCEN, we are not making a recommendation.

11. Multifactor authentication was not implemented at FMS

   NIST SP 800-53, Rev. 3, guidance requires systems to implement multifactor authentication to local
   and network access to privileged and nonprivileged accounts. Multifactor authentication provides an
   additional level of security for accounts to prevent unauthorized access within the IT infrastructure.
   KPMG confirmed that, for the selected FMS system, FMS management identified it did not
   implement multifactor authentication for any level of access to the system. This was a self-reported
   finding and documented within FMS’s POA&M report on TAF. The POA&M item is scheduled to be
   completed on December 31, 2012.

   Based on FMS’s planned corrective actions, we are not making a recommendation.




                                                                                                 Page 21
The Department of the Treasury FISMA Performance Audit – 2012
MANAGEMENT RESPONSE TO THE REPORT

The following is the OCIO’s response, dated October 12, 2012, to the FY 2012 FISMA Performance
Audit Report.




                                                                                      Page 22
                                    October 12, 2012

MEMORANDUM FOR JOEL GROVER
               DEPUTY ASSISTANT INSPECTOR GENERAL
               FOR FINANCIAL MANAGEMENT AND
               INFORMATION TECHNOLOGY AUDIT

FROM:                     Robyn East /s/
                          Deputy Assistant Secretary for Information Systems
                          and Chief Information Officer (CIO)

SUBJECT:                  Management Response to Draft Audit Report – “FY 2012
                          Audit of Treasury’s Federal Information Security Management
                          Act (FISMA) Implementation for Its Unclassified Systems”

Thank you for the opportunity to comment on the draft audit report entitled, “FY 2012
Audit of Treasury’s Federal Information Security Management Act (FISMA)
Implementation for Its Unclassified Systems.” We are pleased that the report found that
our security program is generally consistent with FISMA legislation, OMB information
security requirements and related information security standards published by the
National Institute of Standards and Technology. We have carefully reviewed the draft
and agree with all findings and recommendations. Please refer to the attachment for
further details on our planned corrective actions. We appreciate your noting that some of
the findings were actually items identified by Bureaus through their security programs.

The Department remains committed to improving its security program. We have made
notable progress over the past year. For example we closed all but six of the forty-three
recommendations from last year’s FISMA audit. Also, as the Department continues to
transition to OMB’s eventual goal of “real-time” reporting capability, we have
accomplished a number of achievements, to include:

   •   Initiated, and continue to expand the Treasury Continuous Monitoring and
       Automation (CMA) Program. When fully implemented, CMA will provide a
       centralized Departmental means for the automated collection, correlation, and
       analysis of data regarding the IT security posture across Treasury.

   •   Re-aligned and updated the Department’s core cybersecurity policies to be
       consistent with the latest federal policies and guidelines to protect our information
       systems from potential adversaries and other threats.

   •   Received DHS and OMB approval for three new Trusted Internet Connections
       (TICs) at the IRS and deployed DHS Einstein security sensors at each of these
       sites. This resulted in an increase of the Department’s overall Internet traffic
       traversing an approved TIC from 4% to over 95%. Information collected via
          these sensors is used by DHS to detect and correlate potential cyber security
          threats throughout the federal government.

      •   Increased the level of compliance with the OMB policy requirement for Domain
          Name System Security Extensions (DNSSEC) from 14% in FY 2011 to 65% in
          FY 2012. This is important to reduce the ability of others to impersonate
          Treasury websites. This mandate is monitored weekly.

      •   Addressed a key OMB goal of enhancing automated security data feeds from
          bureaus to the OMB secure data site. This was raised from 15% in FY 2011 to
          over 83% in FY 2012. These automated feeds provide both OMB and DHS the
          ability to conduct continuous monitoring of asset, vulnerability and security
          configuration management across the government.

We appreciate the audit recommendations because they will help improve our security
posture. If you have any questions, please contact Edward Roback, Associate CIO for
Cyber Security, at 202-622-2593.

Attachment

cc:       Edward A. Roback
The Department of the Treasury FISMA Performance Audit – 2012

                 Management Response to the Office of the Inspector General (OIG)
                                      Recommendations


(U) OIG Finding 1: Logical account management activities were not in place or were not
consistently performed by the bureaus at BPD, TTB, DO, OCC and FinCEN

(U) OIG Recommendation 1: For Bureau of the Public Debt (BPD), we recommend that management:
For both selected systems, develop or acquire additional system capability that generates user lists with
last log-on dates so that inactive are automatically disabled in a timely manner.

        (U) Treasury Response: Treasury agrees with the finding and recommendation. BPD will
        develop or acquire additional system capability that generates user lists with last logon dates so
        that inactive users are automatically disabled in a timely manner. Target completion: June 30,
        2013

        (U) Responsible Official: Bureau of Fiscal Service (BFS), Acting Chief Information Security
        Officer (CISO)

(U) OIG Recommendation 2: For BPD, we recommend that management: For both selected systems,
in the absence of a long-term system capability solution, perform manual monthly reviews of all system
user accounts and disable or delete accounts that no longer need access.

        (U) Treasury Response: Treasury agrees with the finding and recommendation. In the absence
        of a long term system capability solution, BPD will perform manual monthly reviews of all user
        accounts for both selected systems, and disable or delete accounts that no longer need access.
        Target completion: June 30, 2013

        (U) Responsible Official: BFS, Acting CISO

(U) OIG Recommendation 3: For Alcohol and Tobacco Tax Bureau (TTB), we recommend that
management: Implement an automated mechanism, a script, or manual review process to ensure inactive
accounts are disabled after 60 days of inactivity.

        (U) Treasury Response: Treasury agrees with the finding and recommendation. All three noted
        accounts have been deleted. Based on the findings and recommendations, TTB has already
        implemented a mechanism to examine and disable inactive accounts. An automated script has
        been deployed that examines Active Directory accounts and checks various attributes to
        determine if any of the accounts have been inactive for over 60 days and the password has not
        been changed in 90 days. If the script finds an account that meets this criterion, the script
        disables the user account and creates a log fine for system Administration review and action.
        Completed: August 6, 2012

        (U) Responsible Official: TTB, Assistant Chief Information Officer (ACIO) for Information
        Technology (IT) Security, Chief Information Security Office/Information System Security
        Officer (CISO/ISSO)

(U) OIG Recommendation 4: For TTB, we recommend that management: Ensure that supervisors are
aware of their responsibilities to remove the access of separated employees.



                                                                                                    Page 25
The Department of the Treasury FISMA Performance Audit – 2012
        (U) Treasury Response: Treasury agrees with the finding and recommendation. TTB has sent
        out written communications to all supervisors stressing the need to follow the Automated
        Information System (AIS) Security Program Procedures and to submit timely e7200 user removal
        requests. Completed: August 20, 2012

        (U) Responsible Official: TTB, ACIO for IT CISO/ISSO

(U) OIG Recommendation 5: For Departmental Offices (DO), we recommend that management:
Include the corrective action plans from the selected system’s continuous monitoring report into a
POA&M [Plan of Action and Milestones] item.

        (U) Treasury Response: The corrective action plans from the selected DO system continuous
        monitoring report has been created in Trusted Agent FISMA as a POA&M item.
        Completed: August 15, 2012

        (U) Responsible Official: DO, ISSO for the appropriate system.

(U) OIG: Based on the planned corrective actions for OCC [Office of the Comptroller of the Currency]
and FinCEN [Financial Crimes Enforcement Network], we are not making additional recommendations.


(U) OIG Finding 2: Security incidents were not reported in a timely manner at BEP, BPD, and
FinCEN

(U) OIG Recommendation 6: For Bureau of Engraving and Printing (BEP), we recommend that
management: Revise the current Incident Response reporting process and written procedures to have the
helpdesk send all incidents to the CSIRC [Computer Security Incident Response Center] group as
opposed to the BEP Incident Coordinator.

        (U) Treasury Response: Treasury agrees with the finding and recommendation. BEP will work
        with Treasury to evaluate and modify as necessary its incident response reporting process and
        procedures to meet the objective of the recommendation. Additionally, Treasury will review its
        Department-wide incident response reporting policy, and, if appropriate, coordinate with other
        agencies with Federal-wide policy setting authority on the lack of identifiable utility of the "one-
        hour rule" for reporting of fully encrypted devices." Target completion: February 1, 2013

        (U) Responsible Official: BEP CIO, BEP CISO, and Treasury CISO

(U) OIG Recommendation 7: For BEP, we recommend that management: Provide additional training
to the Help Desk team members regarding BEP’s incident response policies and procedures to ensure they
are consistently implemented. Additional training for Help Desk personnel should include the same
curriculum used by BEP CSIRC management team members to allow for better understanding of the
incident reporting process.

        (U) Treasury Response: Treasury agrees with the finding and recommendation. BEP will
        ensure that all its incident response team members (i.e., Help Desk) receive training
        commensurate with their duties and responsibilities. Target completion: January 31, 2013

        (U) Responsible Official: BEP, CIO and BEP CISO




                                                                                                    Page 26
The Department of the Treasury FISMA Performance Audit – 2012
(U) OIG Recommendation 8: For BPD, we recommend that management: Ensure that BPD’s CSIRC
report all CAT 1 incidents to US-CERT [United State Computer Emergency Readiness Team] within the
one (1) hour regardless of any additional procedures (follow up, confirmation or additional feedback from
third party) performed by CSIRC personnel.

        (U) Treasury Response: Treasury agrees with the finding and recommendation. Procedures
        defining CAT I reporting responsibilities are defined in Public Debt’s CSIRC Manual.
        Completed: October 3, 2012

        (U) Responsible Official: BFS Acting CISO

(U) OIG Recommendation 9: For BPD, we recommend that management: Provide additional training
to the BPD’s CSIRC management team regarding BPD’s incident response policies and procedures to
ensure that all incidents are reported in time regardless of reliance on third parties to confirm incident.

        (U) Treasury Response: Treasury agrees with the finding and recommendation. BPD has
        clarified any perceived ambiguity that existed with regard to reporting CAT I incidents with all
        applicable employees. Completed: October 3, 2012

        (U) Responsible Official: BFS, Acting CISO

(U) OIG Recommendation 10: For FinCEN, we recommend that management: Evaluate its current
CSIRC capability for collecting and submitting incident responses and implement back-up CSIRC
personnel to ensure that incident response tickets are handled in a timely fashion.

        (U) Treasury Response: Treasury agrees with the finding and recommendation. FinCEN’s will
        incorporate an active acknowledgement process via FinCEN CSIRC upon receipt of a security
        incident and will assign a backup point of contact to ensure that incidents are handled timely.
        Target completion: December 31, 2012.

        (U) Responsible Official: FINCEN, CISO


(U) OIG Finding 3: System security plans at OCC and FMS did not fully document all security
controls from NIST SP 800-53, Rev. 3, and one SSP [system security plans] for FinCEN was not
updated to address weaknesses identified in the security assessments

(U) OIG Recommendation 11: For OCC, we recommend that management: For both selected systems,
update the SSP to address and reference all the NIST SP 800-53, Revision 3 security controls and control
enhancements for a Moderate baseline.

        (U) Treasury Response: Treasury agrees with the finding and recommendation. OCC has
        completed updates to the SSPs reviewed by the auditors, verifying that both reference all NIST
        800-53, Revision 3 security controls and control enhancements for a Moderate baseline system.
        Completed: August 23, 2012

        (U) Responsible Official: OCC, CISO/Chief Privacy Officer (CPO)

(U) OIG Recommendation 12: For OCC, we recommend that management: For both selected systems,
ensure management conducts an adequate review of the SSPs [System Security Plan] to ensure that it



                                                                                                    Page 27
The Department of the Treasury FISMA Performance Audit – 2012
includes applicable [National Institute of Standards and Technology Special Publication] NIST SP 800-
53, Revision 3 controls.

        (U) Treasury Response: Treasury agrees with the finding and recommendation. OCC is
        currently in the process of refining its Security Assessment and Authorization (SA&A) document
        review process to ensure adequate reviews are performed. Target completion: December 16,
        2012

        (U) Responsible Official: OCC, CISO/CPO

(U) OIG Recommendation 13: For Financial Management Service (FMS), we recommend that
management: Update the selected system’s SSP to reflect the current and primary source of backups for
the application.

        (U) Treasury Response: Treasury agrees with the finding and recommendation. FMS will
        update the SSP to reflect the current and primary source of backups for the application. Target
        completion:
        June 30, 2013

        (U) Responsible Official: BFS, Acting CISO

(U) OIG: Based on the planned corrective actions for FinCEN, we are not making a recommendation.


(U) OIG Finding 4: Audit logs were not sufficiently reviewed by FMS and DO in accordance with
NIST and Department of the Treasury requirements

(U) OIG Recommendation 14: For FMS, we recommend that management: Enhance the selected
system audit capabilities to capture security-related events as prescribed by the [Baseline Services
Requirements] BLSR and NIST SP 800-53 guidance.

        (U) Treasury Response: Treasury agrees with the finding and recommendation. FMS will
        implement the UNIX baseline on the SPS boxes to include auditing capabilities. Target
        completion: May 31, 2013

        (U) Responsible Official: BFS, Acting CISO

(U) OIG Recommendation 15: For FMS, we recommend that management: Establish a clear oversight
process to review the security-related events and ensure appropriate follow-up action is taken as
prescribed by the BLSR and NIST SP 800-53.

        (U) Treasury Response: Treasury agrees with the finding and recommendation. FMS will
        establish a clear oversight process to review the security-related events and ensure appropriate
        follow-up action is taken. Target completion: May 31, 2013

        (U) Responsible Official: BFS, Acting CISO

(U) OIG Recommendation 16: For FMS, we recommend that management: Update the selected
system’s system security plan to document security-related events that need to be monitored as prescribed
by the BLSR.



                                                                                                   Page 28
The Department of the Treasury FISMA Performance Audit – 2012
       (U) Treasury Response: Treasury agrees with the finding and recommendation. FMS will
       update the selected system’s security plan to document security-related events that need to be
       monitored. Target completion: June 15, 2013

       (U) Responsible Official: BFS, Acting CISO

(U) OIG Recommendation 17: For DO, we recommend that management: Include the corrective action
plans from the selected system’s continuous monitoring report into a POA&M item.

       (U) Treasury Response: Treasury agrees with the finding and recommendation. The corrective
       action plans from the selected DO system continuous monitoring report has been created in
       Trusted Agent FISMA as a POA&M item. Completed: August 15, 2012

       (U) Responsible Official: DO, ISSO for the selected system


(U) OIG Finding 5: Plans of Action and Milestones (POA&Ms) were not tracked in accordance
with NIST and Department of the Treasury requirements at DO

(U) OIG Recommendation 18: For DO, we recommend that management: Update the selected system
POA&M with the findings and recommendations reported in the system continuous monitoring test
report.

       (U) Treasury Response: Treasury agrees with the finding and recommendation. Departmental
       Offices respective ISSOs has updated the selected system POA&M in Trusted Agent FISMA
       with the findings and recommendations reported in the system continuous monitoring test report.
       Completed: August 15, 2012

       (U) Responsible Official: DO, ISSO for the selected system

(U) OIG Recommendation 19: For DO, we recommend that management: Ensure the continuous
monitoring test results and recommendations are captured within the selected system POA&M within the
30-day required period.

       (U) Treasury Response: Treasury agrees with the finding and recommendation. Departmental
       Offices respective ISSOs has updated the selected system POA&M in Trusted Agent FISMA
       with the findings and recommendations reported in the system continuous monitoring test report.
       Completed: August 15, 2012

       (U) Responsible Official: DO, ISSO for the selected system


(U) OIG Finding 6: Vulnerability scanning and remediation was not performed in accordance with
Department of the Treasury requirements at FMS, Mint, DO, BPD, and OCC

(U) OIG Recommendation 20: For FMS, we recommend that management: Formally document the
vulnerability scanning and flaw remediation processes for the Fiscal Services organization and
communicate the processes to affected field-personnel.




                                                                                                 Page 29
The Department of the Treasury FISMA Performance Audit – 2012
        (U) Treasury Response: Treasury agrees with the finding and recommendation. FMS will
        develop and implement an enterprise procedure for vulnerability scanning & remediation. Target
        completion:
        June 30, 2013

        (U) Responsible Official: BFS, Acting CISO

(U) OIG Recommendation 21: For FMS, we recommend that management: Maintain a complete
listing of hosts and IP addresses for the selected FMS system production environment and document any
changes to this listing, and retain enough supporting documentation to confirm the accuracy of completed
vulnerability scans.

        (U) Treasury Response: Treasury agrees with the finding and recommendation. FMS will
        ensure that all infrastructure Configuration Items (as defined by Service Asset and Configuration
        Management Standard) include their FISMA system association as a required element of their
        CMDB entry. Target completion: May 1, 2013

        (U) Responsible Official: BFS, Acting CISO

(U) OIG Recommendation 22: For Mint, we recommend that management: Follow their vulnerability
remediation policy for all vulnerabilities, including older, noncritical patches, to ensure that
vulnerabilities are not missed in the remediation process.

        (U) Treasury Response: Treasury agrees with the finding and recommendation. Mint will
        institute a new patch remediation procedure that gives patch criticality, instance count, and patch
        publish date equal weight in the remediation tracking process. This will ensure that all patches
        are addressed in a timely manner regardless of the instance count in the environment. Target
        completion: November 30, 2012

        (U) Responsible Official: Mint, CISO

(U) OIG Recommendation 23: For DO, we recommend that management: Include the corrective action
plans from the selected system’s continuous monitoring report into a POA&M item.

        (U) Treasury Response: Treasury agrees with the finding and recommendation. The corrective
        action plans from the selected DO system continuous monitoring report has been created in
        Trusted Agent FISMA as a POA&M item. Completed: August 15, 2012

        (U) Responsible Official: DO, ISSO for the selected system

(U) OIG: Based upon the planned correction actions for BPD and OCC, we are not making a
recommendation.


(U) OIG Finding 7: Contingency planning & testing controls were not fully implemented or
operating as designed at DO and FMS

(U) OIG Recommendation 24: For DO, we recommend that management: Include the corrective action
plans from the selected system’s continuous monitoring report into a POA&M item.




                                                                                                    Page 30
The Department of the Treasury FISMA Performance Audit – 2012
       (U) Treasury Response: Treasury agrees with the finding and recommendation. The corrective
       action plans from the selected DO system continuous monitoring report has been created in
       Trusted Agent FISMA as a POA&M item. Completed: August 15, 2012

       (U) Responsible Official: DO, ISSO for the selected system

(U) OIG: Based on the planned corrective actions for FMS, we are not making a recommendation.

(U) OIG Finding 8: Backup controls were not in place or were not operating as designed at BPD
and CDFI Fund

(U) OIG Recommendation 25: For BPD, we recommend that management: Enhance the logging
capability of the system’s backup process so management can determine whether the backups were
successfully completed.

       (U) Treasury Response: Treasury agrees with the finding and recommendation. BPD will
       provide detailed logs of selected system’s backups and a legend of the current backup logs, which
       show the volume sets being backed up. Target completion: April 30, 2013

       (U) Responsible Official: BFS, Acting CISO

(U) OIG Recommendation 26: For Community Development Financial Institution (CDFI) Fund, we
recommend that management: Ensure that the system backups are completed successfully per the defined
frequency in the SSP, and retain evidence of successful completion for one year.

       (U) Treasury Response: Treasury agrees with the finding and recommendation. The CDFI
       Fund will ensure that backups are performed successfully per the defined frequency in the SSP,
       and that TTB retains evidence of successful completion for one year. Target completion:
       October 31, 2012

       (U) Responsible Official: CDFI, CIO


(U) OIG Finding 9: System configuration settings were not implemented properly at DO and OCC

(U) OIG Recommendation 27: For DO, we recommend that management: Include the corrective action
plans from the selected system’s continuous monitoring report into a POA&M item.

       (U) Treasury Response: Treasury agrees with the finding and recommendation. The corrective
       action plans from the selected DO system continuous monitoring report has been created in
       Trusted Agent FISMA as a POA&M item. Completed: August 15, 2012

       (U) Responsible Official: DO, ISSO for the selected system

(U) OIG: Based upon the planned correction actions for OCC, we are not making a recommendation.


(U) OIG Finding 10: System baselines were not documented properly at BPD, FMS, and FinCEN




                                                                                                Page 31
The Department of the Treasury FISMA Performance Audit – 2012
(U) OIG Recommendation 28: For BPD, we recommend that management: For both selected systems,
develop baseline configurations (applications build guides) that are consistent with the system’s SSP and
Federal Enterprise Architecture.

        (U) Treasury Response: Treasury agrees with the finding and recommendation. BPD will
        leverage existing Configuration Management data to ensure all Configuration Items (CIs)
        necessary to deliver the system are identified. This will include: infrastructure, applications, and
        supporting services; ensure relationships and dependencies among the identified CIs are
        documented within the Configuration Management Data Base (CMDB); ensure build guides
        ("baselines") exist, where appropriate, for all identified CIs; and, ensure a system-level build
        guide exists, including CI build guides by reference as appropriate. Target completion: June 30,
        2013

        (U) Responsible Official: BFS, Acting CISO

(U) OIG Recommendation 29: For FMS, we recommend that management: Clarify the distinction
between program change control and system configuration management within the FMS Entity-Wide IT
Standards and the selected system Configuration Management Plan by documenting and considering
correcting gaps in the current process and work flow to clearly outline work flow, tasks, and management
oversight.

        (U) Treasury Response: Treasury agrees with the finding and recommendation. Due to the
        fiscal service consolidation, FMS Entity-Wide IT Standards are now obsolete. However, the
        Fiscal Service will review documentation defining work flow for change control and
        configuration management, and, if deemed necessary, revise documentation to further clarify
        workflow, tasks, and management oversight for these two processes. Target completion: March
        31, 2013

        (U) Responsible Official: BFS, Acting CISO

(U) OIG Recommendation 30: For FMS, we recommend that management: Update the selected system
Configuration Management Plan to establish operational requirements and document the following
elements: mandatory security relevant configuration settings, description of the controls to address
unauthorized security relevant changes to the configuration of the system, and a list of
authorized/unauthorized changes.

        (U) Treasury Response: Treasury agrees with the finding and recommendation. FMS will
        review documentation defining work flow for change control and configuration management,
        and, if deemed necessary, revise documentation to further clarify workflow, tasks, and
        management oversight for these two processes. Target completion: March 31, 2013

        (U) Responsible Official: BFS, Acting CISO

(U) OIG Recommendation 31: For FMS, we recommend that management: Document a secure
baseline and mandatory configuration settings for the information system components in the selected
system Configuration Management Plan to reflect the most restrictive mode in support of the security
controls for the system.

        (U) Treasury Response: Treasury agrees with the finding and recommendation. FMS will
        review documentation defining work flow for change control and configuration management,



                                                                                                     Page 32
The Department of the Treasury FISMA Performance Audit – 2012
       and, if deemed necessary, revise documentation to further clarify workflow, tasks, and
       management oversight for these two processes. Target completion: March 31, 2013

       (U) Responsible Official: BFS, Acting CISO

(U) OIG: Based upon the planned correction actions for FinCEN, we are not making a recommendation.


(U) OIG Finding 11: Multifactor authentication was not implemented at FMS

(U) OIG: Based on FMS’ planned corrective actions, we are not making a recommendation.




                                                                                                Page 33
Objective, Scope, and Methodology                                                               Appendix I
APPENDIX I – OBJECTIVE, SCOPE, AND METHODOLOGY

The objective for this performance audit was to determine the effectiveness of the Department of the
Treasury’s information security programs and practices for the period July 1, 2011 to June 30, 2012 for its
unclassified systems, including and to determine whether non-Internal Revenue Service (IRS) Treasury
bureaus had implemented:

       •   An information security program, consisting of policies, procedures, and security controls
           consistent with the Federal Information Security Management Act (FISMA) legislation.
       •   The security controls catalog contained in National Institute of Standards and Technology (NIST)
           Special Publication (SP) 800-53, Revision (Rev.) 3, Recommended Security Controls for Federal
           Information Systems and Organizations.

We conducted this performance audit in accordance with generally accepted government auditing
standards (GAGAS).Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective.

To accomplish our objectives, we evaluated security controls in accordance with applicable legislation,
Presidential directives, Department of Homeland Security (DHS) FY 2012 Inspector General Federal
Information Security Management Act Reporting Metrics, dated March 6, 2012, and NIST standards and
guidelines as outlined in the Criteria section. We reviewed the Department of the Treasury information
security program from both the Department-level perspective for Department of the Treasury program-
level controls and the Bureau-level implementation perspective. We considered each area above to reach
an overall conclusion regarding Department of the Treasury’s information security program and practices.

We took a phased approach to satisfy the audit’s objective as listed below:

       PHASE A: Assessment of Department-Level Compliance

       To gain an enterprise-level understanding, we assessed management, policies, and guidance for the
       overall Treasury-wide information security program per requirements defined in FISMA and DHS
       Federal Information Security Memorandum (FISM) 12-02, FY 2012 Reporting Instructions for the
       Federal Information Security Management Act and Agency Privacy Management; NIST SP 800-53,
       Rev. 3; as well as Department of the Treasury guidelines developed in response to FISMA. This
       included program controls applicable to information security governance, certification and
       accreditation, security configuration management (CM), incident response and reporting, security
       training, plan of action and milestones (POA&M), remote access, account and identity management,
       continuous monitoring, contingency planning, and contractor systems.

       PHASE B: Assessment of Bureau-Level Compliance

       To gain a bureau-level understanding, we assessed the implementation of the guidance for the 122
       bureau and office wide information security programs according to requirements defined in FISMA
       and DHS FISM 12-02, NIST SP 800-53, Rev. 3, as well as Department of the Treasury guidelines
       developed in response to FISMA. This included program controls applicable to information security
       governance, certification and accreditation (C&A), security configuration management, incident
       response and reporting, security training, POA&M, remote access, account and identity management,
       continuous monitoring, contingency planning, and contractor systems.

2
    TIGTA assessed IRS’s bureau-level compliance.


                                                                                                   Page 34
Objective, Scope, and Methodology                                                                               Appendix I

    PHASE C: Assessment of the Implementation of Select Security Controls from the NIST SP
    800-53 Rev. 3

    To gain an understanding of how effectively the bureaus implemented information security controls at
    the system level, we assessed the implementation of a selection of security controls from the NIST SP
    800-53, Rev. 3, for a subset of Department of the Treasury information systems (see Appendix V).

    Our scope included evaluating the information security practices and policies established by the
    Treasury Office of the Chief Information Officer (OCIO). In addition, we evaluated the information
    security practices, policies, and procedures in use across 12 bureaus of the Treasury, excluding the
    IRS.

We also tested a subset of 15 information systems from a total population of 118 non-IRS major
applications and general support systems as of April 3, 2012. 3 We tested the 15 information systems to
determine whether bureaus were effective in implementing the Department of the Treasury’s security
program and meeting the Federal Information Processing Standards (FIPS) 200 minimum-security
standards to protect information and information systems. Appendix IV, Approach to Selection of Subset
of Systems, provides additional details regarding our system selection. The subset of systems
encompassed systems managed and operated by 10 of 13 Treasury bureaus, excluding IRS, Treasury
Inspector General for Tax Administration (TIGTA), and Office of Inspector General (OIG). 4

Our criteria for selecting security controls within each system were based on the following:

    •    Controls that were shared across a number of information systems, such as common controls,
    •    Controls that were likely to change over time (i.e., volatility) and require human intervention, and
    •    Controls that were identified in prior audits as requiring management’s attention.

Other Considerations

In performing our control evaluations, we interviewed key Treasury OCIO personnel who had significant
information security responsibilities, as well as personnel across the non-IRS bureaus. We also evaluated
the Department of the Treasury’s and bureaus’ policies, procedures, and guidelines. Lastly, we evaluated
selected security-related documents and records, including C&A packages, configuration assessment
results, and training records.

We performed our fieldwork at the Department of the Treasury’s headquarters offices in Washington,
D.C., and bureau locations in Washington, D.C.; Hyattsville, Maryland; Vienna, Virginia; and
Parkersburg, West Virginia, during the period of April 12, 2012 through July 31, 2012. During our
performance audit, we met with Department of the Treasury management to discuss our preliminary
conclusions.

Criteria
We focused our FISMA performance audit approach on federal information security guidance developed
by NIST and Office of Management and Budget (OMB). NIST Special Publications provide guidelines
3
   A subset of information systems refers to our approach of stratifying the population of non-IRS Department of the Treasury
  information system and selecting an information system from each Department of the Treasury bureau, excluding IRS, TIGTA,
  and OIG, rather than selecting a random sample of information systems that might exclude a Treasury bureau.
4
   Our rotational system selection strategy precludes selecting systems reviewed within the past two years. In FY 2011, TIGTA
  was selected, and the OIG was selected in FY 2010. Therefore, each of those bureau’s systems were exempt from being
  reviewed in FY 2012.


                                                                                                                   Page 35
Objective, Scope, and Methodology                                                                                     Appendix I
that are considered essential to the development and implementation of agencies’ security programs. 5 The
following is a listing of the criteria used in the performance of the fiscal year (FY) 2012 FISMA
performance audit:

•     OMB Circular A-130, Management of Federal Information Resources

•     NIST FIPS Publication 199, Standards for Security Categorization of Federal Information and
      Information Systems

•     NIST FIPS Publication 200, Minimum Security Requirements for Federal Information and
      Information Systems

•     NIST Special Publications:
      o 800-16, Information Technology Security Training Requirements: A Role- and Performance-
         Based Model
      o 800-18, Rev. 1, Guide for Developing Security Plans for Federal Information Systems
      o 800-30, Risk Management Guide for Information Technology Systems
      o 800-34, Rev. 1, Contingency Planning Guide for Federal Information Systems
      o 800-37, Rev. 1, Guide for Applying the Risk Management Framework to Federal Information
         Systems: A Security Life Cycle Approach
      o 800-39, Managing Risk from Information Systems: An Organizational, Mission and
         Information System View
      o 800-53, Rev. 3, Recommended Security Controls for Federal Information Systems and
         Organizations
      o 800-53A, Rev. 1, Guide for Assessing the Security Controls in Federal Information Systems and
         Organizations, Building Effective Security Assessment Plans
      o 800-60, Rev. 1, Guide for Mapping Types of Information and Information Systems to Security
         Categories
      o 800-61, Rev. 1, Computer Security Incident Handling Guide
      o 800-70, Rev. 2, National Checklist Program for IT Products: Guidelines for Checklist Users and
         Developers

•     OMB Memoranda:
      o 04-04, E-Authentication Guidance for Federal Agencies
      o 04-25, FY 2004 Reporting Instructions for the Federal Information Security Management Act
      o 07-11, Implementation of Commonly Accepted Security Configurations for Windows Operating
        Systems
      o 07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable
        Information
      o 07-18, Ensuring New Acquisitions Include Common Security Configurations
      o 08-22, Guidance on the Federal Desktop Core Configuration (FDCC)

•     United States Department of Homeland Security:


5
    Note (per FY 2012 Inspector General Federal Information Security Management Act Reporting Metrics): While agencies are
    required to follow NIST standards and guidance in accordance with OMB policy, there is flexibility within NIST’s guidance
    documents in how agencies apply the guidance. However, NIST Special Publication 800-53 is mandatory because FIPS 200
    specifically requires it. Unless specified by additional implementing policy by OMB, guidance documents published by NIST
    generally allow agencies latitude in their application. Consequently, the application of NIST guidance by agencies can result in
    different security solutions that are equally acceptable and compliant with the guidance.


                                                                                                                          Page 36
Objective, Scope, and Methodology                                                       Appendix I
    o   FISM 12-02, FY 2012 Reporting Instructions for the Federal Information Security Management
        Act and Agency Privacy Management

•   Treasury Guidance:
    o TD P 85-01, Volume I, Treasury Information Technology Security Program




                                                                                          Page 37
Status of Prior-year Findings                                                                                                                      Appendix II
APPENDIX II – STATUS OF PRIOR-YEAR FINDINGS

For the following prior year findings, we have evaluated the information systems to determine whether the recommendations have been
implemented and the finding is closed. We inquired of Treasury personnel and inspected evidence to determine the status of the findings. If
recommendations were determined to be implemented, we closed the findings. If recommendations were determined to be only partially
implemented or not implemented at all, we determined the finding to be open. For 3 of the 28 findings, we were unable to test the implementation
of the findings in time by our end of fieldwork date, June 30, 2012. For these findings, we noted that they are closed but untested and should be
evaluated as part of the FY 2013 independent evaluation.


        Finding #                       Prior-Year Condition                        Recommendation(s)                                  Status
Finding #1 – Office of     OCC did not have documented approvals to         We recommend that OCC                     Implemented/Closed.
Comptroller of Currency    grant all new bank examiners access to a         management document the process for
(OCC)                      certain business application. OCC network        granting access to the newly hired        OCC updated policies and procedures to
                           administrators explained that a former OCC       bank examiners, including the             cover process for granting access to newly
Logical account            official gave verbal approval for all new bank   associated user roles and required        hired bank examiners.
management activities were examiners to access this business application    management approvals.
not fully documented or    an unknown-number of years ago. Thus,
consistently performed     sampled new users for the OCC system lacked
                           evidence of management approval for the
                           level of access granted to the system.

Finding #1 – Office of     OTS management did not establish a process       We recommend that OCC, in its             Implemented/Closed.
Thrift Supervision (OTS)   to review system administrators and              capacity managing prior OTS
                           application service accounts for continued       systems:                                  OCC decommissioned the OTS system.
Logical account            appropriateness for a sampled OTS
management activities were application. Additionally, OTS did not           1   Add the review of system
not fully documented or    document in the System Security Plan (SSP)           administrator and application
consistently performed     or other application configuration document          service accounts for the sampled
                           the required application service accounts for        system to the review of external
                           the application to function properly, thus           user accounts.
                           limiting OTS’s ability to identify unnecessary   2   Document the purpose and use of
                           service accounts.                                    application service accounts in the
                                                                                SSP or other publication.

Finding #1 – Treasury     TIGTA did not fully document account              Based on TIGTA’s planned corrective Open.
Inspector General for Tax management activities (e.g., review               actions, we are not making a
Administration (TIGTA) frequency, inactivity limits, use of shared          recommendation.                     TIGTA has not finished completing its
                          accounts) in their SSPs. TIGTA management                                             corrective action.


                                                                                                                                                       Page 38
Status of Prior-year Findings                                                                                                                  Appendix II

        Finding #                       Prior-Year Condition                       Recommendation(s)                                Status
Logical account              was unaware of the lack of documentation
management activities were   until a 2010 security assessment was
not fully documented or      conducted. In response to the security
consistently performed       assessment, TIGTA established four
                             corrective actions in the system’s     POA&M
                             with scheduled completion dates of October
                             2011, April 2012, July 2012, and December
                             2012. These security weaknesses continued to
                             exist at the time of fiscal year (FY) 2011
                             FISMA audit.

Finding #1 –               For a sampled DO system, new users were       We recommend that DO management:          Implemented/Closed.
Departmental Offices       granted access without formal authorization,
(DO)                       and DO did not review existing users’ access 1 Perform an annual review of end          DO has created policies and procedures
                           for appropriateness concerning user              user accounts that addresses           over account approval and performs
Logical account            privileges. DO officials did not have an         appropriateness of user access         annual review of user accounts to
management activities were effective process for authorizing new users      rights. As stated in the DO SSP,       determine access appropriateness.
not fully documented or    and were unaware that a periodic review of       the Information System Security
consistently performed     user access for continued appropriateness was    Officers (ISSOs) and/or the
                           required.                                        system administrators of each
                                                                            minor application should perform
                                                                            this review.
                                                                         2 Develop and implement a formal
                                                                            account approval process. A
                                                                            formal approval form should exist
                                                                            for all system users, including
                                                                            contractors. These forms should
                                                                            be properly tracked and stored to
                                                                            ensure that documentation is not
                                                                            lost or deleted.

Finding #1– Financial      For a sampled FMS payment management            We recommend that FMS                   Partially Implemented/Open.
Management Service         system, 12 user accounts out of 2,950           management:
(FMS)                      inappropriately remained active following 90                                            We were informed that
                           days of inactivity. Additionally, 920 user      1 Continue to monitor the               Recommendation 1 of the FY 2011
Logical account            accounts out of 2,950 did not have a last login    automated solution to disable user   finding has been addressed. However, we
management activities were date recorded, suggesting these accounts may       accounts after 90 days of            noted that 268 active user accounts have
not fully documented or    never have been used by the account owner.         inactivity in order to confirm the   not logged in greater than 90 days since


                                                                                                                                                   Page 39
Status of Prior-year Findings                                                                                                                            Appendix II

        Finding #                         Prior-Year Condition                            Recommendation(s)                                  Status
consistently performed        We noted a similar finding in a FY 2010                 automated solution is working in the list was generated (March 20, 2012 or
                              financial statement audit for the sampled               all cases.                          earlier).
                              system, but FMS’s corrective actions to        2        Perform a manual monthly review
                              implement a fully automated solution to                 of all user accounts, and disable
                              disable inactive accounts were not fully                or delete (as appropriate) accounts
                              effective. FMS attributed the noted conditions          that have not logged into the
                              to human error during the transition to an              system within the prior 90 days
                              automated solution. Prior to and after the              until the manual, monthly review
                              transition to a fully automated solution, FMS           demonstrates that the automated
                              did not monitor if the automated solution was           solution is working for three
                              working as intended.                                    consecutive months.

Finding #2 – Community        The CDFI Fund did not report its single             We recommend that the CDFI Fund          Implemented/Closed.
Development Financial         security incident to Treasury Computer              management:
Institution (CDFI) Fund       Security Incident Response Capability                                                        CDFI has shifted the responsibility of their
                              (TCSIRC) within the required one-hour time          1   Provide additional incident          incident response program to the Alcohol
Security incidents were not   period for a Category 1 incident. Several               response training to increase        and Tobacco Tax and Trade Bureau
reported timely               factors contributed to the late reporting. First,       awareness of the CDFI Fund’s         (TTB), which is now responsible for
                              the incident occurred outside of normal                 policies and procedures.             reporting incidents to TCSIRC.
                              working hours. Second, the incident was             2   Remind all CDFI Fund staff of
                              reported in a monthly report, 36 days late. The         their responsibility to timely
                              delay in reporting was caused by CDFI                   report security incidents,
                              Fund’s officials incorrectly categorizing the           including events such as the loss
                              incident. A CDFI Fund official also attributed          of mobile devices with one hour,
                              the untimely reporting to the infrequent nature         to the CDFI Fund’s IT team.
                              of security incidents and the staff’s                   Such reminders could be
                              unfamiliarity with required reporting time              incorporated into employee’s
                              frames for Category 1 incidents.                        annual security awareness training
                                                                                      or be included in periodic
                                                                                      reminders to employees to protect
                                                                                      sensitive information and report
                                                                                      the loss of mobile devices to the
                                                                                      CDFI Fund’s IT team.
                                                                                  3   Provide the CDFI Fund
                                                                                      employees the capability to report
                                                                                      security incidents to the IT team
                                                                                      outside of normal working hours
                                                                                      by establishing a shared incident


                                                                                                                                                             Page 40
Status of Prior-year Findings                                                                                                                           Appendix II

        Finding #                        Prior-Year Condition                          Recommendation(s)                                     Status
                                                                                   response e-mail account and/or
                                                                                   phone number for reporting
                                                                                   purposes.

Finding #2 – FMS              FMS employees did not immediately report         We recommend that FMS                      Closed/Untested.
                              10 of 10 confirmed security incidents to         management:
Security incidents were not   FMS’s help desk as required by FMS policy.                                                  We noted that FMS corrected the design
reported timely               Additionally, FMS’s information security         1   Revise the current incident            of the Incident Response processes but did
                              group did not report seven of these confirmed        reporting process and associated       not complete all corrective actions until
                              security incidents to TCSIRC within the              written procedures to ensure           June 2012 and was unable to test the
                              required one-hour time period for Category 1         timely reporting. This could           effectiveness. The finding will be tested as
                              incidents (three security incidents were             include the FMS incident               part of the FY 2013 FISMA evaluation.
                              reported in one day, two were reported in two        response management notifying
                              days, and the remaining three were reported in       TCSIRC with suspected or
                              three days). Rather than report all suspected        confirmed security events without
                              and confirmed incidents, FMS failed to notify        the need for further FMS
                              TCSIRC until sufficient evidence was                 Executive management approvals.
                              gathered and approved by FMS executives as       2   Provide additional training to
                              required by FMS policies and procedures.             FMS security personnel regarding
                              Contributing to the untimely reporting was a         FMS’s revised incident response
                              lack of after-hours coverage by the incident         policies and procedures to ensure
                              response personnel. Additionally, we                 these policies and procedures are
                              attributed the untimely reporting by FMS             consistently implemented.
                              employees to a lack of sufficient awareness      3   Consider, if feasible, a Distributed
                              and training.                                        Incident Response Team or a
                                                                                   Partially Outsourced Team to
                                                                                   achieve 24x7x365 coverage, per
                                                                                   the NIST SP 800-61, Computer
                                                                                   Security Incident Handling Guide.
                                                                                   Such a strategy could involve
                                                                                   sharing TSIRC resources with
                                                                                   other Treasury bureaus.
                                                                               4   Improve FMS employee
                                                                                   awareness to report both
                                                                                   confirmed and suspected security
                                                                                   incidents to the FMS Service
                                                                                   Desk. FMS could create
                                                                                   awareness through periodic


                                                                                                                                                             Page 41
Status of Prior-year Findings                                                                                                                        Appendix II

        Finding #                        Prior-Year Condition                          Recommendation(s)                                 Status
                                                                                   reminders via e-mail, posting
                                                                                   security posters in common
                                                                                   employee areas, and through
                                                                                   increased emphasis in annual
                                                                                   security and awareness training.

Finding #2 – United States Mint did not report one of the 15 sampled           We recommend that Mint                   Implemented/Closed.
Mint (Mint)                 security incidents to TCSIRC within the            management:
                            required one-hour time period for a Category                                                Mint has implemented a backup
Security incidents were not 1 incident (the incident took 25 hours to          1   Have all tickets sent to the CSIRC   mechanism, which requires the reporter to
reported timely             report). The delay in reporting was caused by          group mailbox as opposed to          contact the incident response team by
                            the assigning of a ticket to a Mint Computer           individual members to ensure that    phone, leave a message, and also send an
                            Security Incident Response Capability                  tickets are tracked properly.        e-mail to the incident response group e-
                            (CSIRC) employee who was not in the office         2   Ensure a backup CSIRC member         mail account.
                            when the incident was reported. When the               in place during the absence and/or
                            Mint CSIRC employee returned to work, the              unavailability of the primary
                            required time frame to report the security             individual. The backup CSIRC
                            incident had passed.                                   member should be notified if the
                                                                                   primary individual has not
                                                                                   acknowledged the ticket within a
                                                                                   designated time period.

Finding #2 – TIGTA            TIGTA did not report one of the 15 security      We recommend that TIGTA                  Implemented/Closed.
                              incidents to TCSIRC within the required one-     management:
Security incidents were not   day time period for a Category 3 incident (the                                            TIGTA has updated its incident response
reported timely               incident took five days to report). The          1   Assign an additional individual as   policies and procedures to provide
                              untimely reporting of the security incident          a backup resource to the TIGTA       additional guidance over how to properly
                              was caused by reduced staffing over a holiday        CSIRC for periods of reduced         handle security incidents. Additionally,
                              period. Upon return, the employee failed to          staffing.                            TIGTA has entered into a contract
                              take action within the required reporting time   2   Provide the TIGTA CSIRC the          agreement with an external vendor to
                              frame for Category 3 incidents.                      ability to receive and address       provide additional coverage over incident
                                                                                   security incidents outside of        response outside normal working hours.
                                                                                   normal working hours by
                                                                                   establishing a shared incident
                                                                                   response e-mail account and/or
                                                                                   phone number for reporting
                                                                                   purposes. Additionally, consider
                                                                                   participating in a shared Incident


                                                                                                                                                         Page 42
Status of Prior-year Findings                                                                                                                       Appendix II

        Finding #                      Prior-Year Condition                         Recommendation(s)                                   Status
                                                                                Response team with another
                                                                                Treasury bureau to provide
                                                                                increased capabilities outside of
                                                                                normal working hours.
                                                                            3   Provide the TIGTA CSIRC
                                                                                additional incident response
                                                                                training to ensure they are aware
                                                                                of TIGTA’s policies and
                                                                                procedures, including their
                                                                                responsibility to timely report
                                                                                security incidents.

Finding #3 – DO             NIST and Treasury guidance require that         We recommend that DO management          Partially Implemented/Open.
                            Treasury SSPs remain up-to-date and current     instruct the vendor to update the SSPs
SSPs did not fully adopt    with the NIST Risk Management Framework         to include NIST SP 800-53, Rev. 3,       While DO updated the system security
NIST recommended            and required NIST SP 800-53 security            security controls and associated         plan to reflect NIST SP 800-53, Rev. 3,
security controls from NIST controls. We noted that one sampled             control enhancements.                    for some controls, not all controls in the
Special Publication (SP)    information system from DO utilized outdated                                             system security plan reflected NIST SP
800-53, Rev. 3              NIST guidance (Rev. 2). Specifically, the                                                800-53, Rev. 3, guidance.
                            SSPs did not include all required security
                            controls as specified in NIST SP 800-53, Rev.
                            3, Recommend Security Controls for Federal
                            Information Systems and Organizations, dated
                            August 2009.

                            We noted that the conditions, cited above for
                            DO had various factors including the bureau
                            and vendor’s misunderstanding of contract
                            requirements to maintain compliance with all
                            NIST standards.

Finding #3 – Mint           NIST and Treasury guidance require that         We recommend that Mint                   Implemented/Closed.
                            Treasury SSPs remain up-to-date and current     management:
SSPs did not fully adopt    with the NIST Risk Management Framework                                                 Mint updated the system security plans to
NIST recommended            and required NIST SP 800-53 security            1   Update their Information Security reflect NIST SP 800-53, Rev. 3, controls.
security controls from NIST controls. We noted that one sampled                 Program’s policies and
SP 800-53, Rev. 3           information system from Mint utilized               procedures to require that all SSPs
                            outdated NIST guidance (Rev. 2).                    are updated to include the latest


                                                                                                                                                        Page 43
Status of Prior-year Findings                                                                                                                         Appendix II

         Finding #                      Prior-Year Condition                          Recommendation(s)                                     Status
                            Specifically, the SSPs did not include all            NIST SP 800-53 controls and
                            required security controls as specified in            control enhancements one year
                            NIST SP 800-53, Rev. 3, Recommend                     after issued.
                            Security Controls for Federal Information         2    Ensure that all existing SSPs are
                            Systems and Organizations, dated August               800-53, Rev. 3 compliant.
                            2009.

                            We noted that the conditions, cited above for
                            Mint had various factors including Mint
                            management had an informal policy to only
                            update SSPs during reaccreditation; therefore,
                            the sampled SSPs had not been updated since
                            the next reaccreditation cycle had not begun.

Finding #3 – FMS            During the audit period, FMS revised their        We recommend that FMS                 Open.
                            SSP template and associated checklist to          management ensure that System
SSPs did not fully adopt    incorporate NIST SP 800-53, Rev. 3, controls.     Owners and ISSOs review and update FMS did not fully implement NIST 800-
NIST recommended            However, the sampled system’s SSP utilized        SSPs by using the FMS-approved SSP 53, Rev. 3, controls for the SSP.
security controls from NIST older Rev 2 controls and FMS’s quality            template and baseline security
SP 800-53, Rev. 3           control process did not reject this sampled       requirements, which incorporate NIST
                            SSP.                                              SP 800-53, Rev. 3, security controls.

Finding #4 – FMS            For a sampled application, FMS did not            We recommend that FMS                      Closed/Untested.
                            document their weekly review of failed login      management:
Insufficient audit log      events during the FISMA audit period. While                                                  We were informed that all
reviews                     FMS took actions to address a similar issue in    1   Identify and document significant      recommendations of the FY 2011 finding
                            a prior-year financial statement audit by             audit events that warrant review       have been addressed. However, We noted
                            developing audit log review procedures for            and further investigation.             that additional significant audit events
                            failed login attempts, the limited scope of       2   Update the SSP in order to reflect     were identified and three new reports were
                            FMS’s corrective actions did not include a            the results of the risk analysis and   created (High Dollar Payee Settlement
                            risk analysis necessary to identify significant       clearly assign ownership and           Report, Payee Settlement with Name
                            audit events worthy of review and subsequent          responsibility for implementing        Change Report, and 700-Weekly Frontier
                            investigations, as suggested by NIST SP 800-          the agreed upon audit log review       Security Audit Report). These reports
                            53 security control AU-2, Auditable Events.           procedures.                            were available in May 2012, making these
                            The audit log review and SSP did not address      3   Ensure that sufficient resources       reports not reviewable from July 1, 2011
                            broader user account activities such as the           are available to implement audit       until May 2012. The finding will be tested
                            creation of new accounts with administrative          log review procedures.                 as part of the FY 2013 FISMA evaluation.
                            capabilities or changes in user account


                                                                                                                                                          Page 44
Status of Prior-year Findings                                                                                                                       Appendix II

        Finding #                       Prior-Year Condition                         Recommendation(s)                                    Status
                             permissions. In addition, the proposed audit
                             log review procedures did not include
                             monitoring changes to specific information
                             system components such as the database,
                             sensitive files, or production source code.
                             Finally, the implemented audit log procedures
                             did not address potentially suspicious or
                             unusual transactions that could be performed
                             in the sampled payment management system.

Finding #5 – Bureau of      BPD’s media sanitization process did not         We recommend that BPD                     Implemented/Closed.
Public Debt (BPD)           ensure a clear chain of custody and full         management:
                            accounting of the media throughout the entire                                              BPD developed Standard Operation
Improper media sanitization media sanitization process. We observed four     1   Implement its BLSRs and               Procedure2.2.85 OIT Excess and Media
schedule                    unsecured cardboard boxes, containing over           associated procedures on              Sanitation Tracking (hard drives, mobile
                            150 hard drives waiting to be sanitized,             maintaining a clear chain of          media) to prepare and track media that has
                            adjacent to the cubicle of the IT specialist         custody, properly securing media      been degaussed.
                            responsible for media sanitization. These            when stored, and reconciliation of
                            boxes of hard drives were not stored in a            media received and sent for
                            secured container or secured room that               destruction.
                            restricted access to only individuals involved   2   Train BPD IT specialists on the
                            in the media sanitization process.                   BPD media sanitization policies
                                                                                 and procedures in order to protect
                                                                                 the confidentiality of the bureau’s
                                                                                 sensitive information.

Finding #6 – FMS           FMS did not record and update security          We recommend that FMS                       Closed/Untested.
                           vulnerabilities in a timely manner for three    management:
POA&Ms were not tracked sampled systems. For the sampled systems,                                                      We noted that FMS corrected the design
and remediated in          we noted that FMS did not review and revise 1 Perform a comprehensive study of              of the POA&M process but did not
accordance with NIST and expected completion dates for corrective             FMS’s POA&M management                   complete all corrective actions until the
Department of the Treasury actions, record known high-risk                    practices to resolve ongoing             end of the FISMA Year. We also noted
requirements               vulnerabilities that FMS could not close in 60     auditor-identified POA&M                 specific system POA&M issues that stem
                           days, or correctly report the completion status    challenges. Based on the outcome         from the corrective actions were not being
                           on outstanding POA&M items. In both the FY         of this study, FMS should                completed until later in the year. The
                           2009 and FY 2010 FISMA audits at FMS, we           implement corrective actions             finding will be tested as part of the FY
                           noted similar POA&M weaknesses for                 designed to ensure complete,             2013 FISMA evaluation.
                           different information systems. FMS took            accurate and timely reporting of


                                                                                                                                                        Page 45
Status of Prior-year Findings                                                                                                          Appendix II

        Finding #                      Prior-Year Condition                       Recommendation(s)                          Status
                            corrective actions to resolve the immediate       POA&M items.
                            instances of noncompliance; however, FMS      2   Strengthen FMS’s existing
                            did not resolve bureau wide challenges to         policies and procedures regarding
                            accurately and sufficiently report all system     POA&Ms based on the outcome
                            security weaknesses in POA&Ms. A lack of          of FMS’s study. The revised FMS
                            System Owner and ISSO accountability, as          policies and procedures should
                            indicated in their Appointment Letter, and        define roles, responsibilities, and
                            communication issues between ISSO and             expected communication
                            FMS’s information security group contributed      frequency among key participants
                            to the conditions described above.                and decision makers.
                                                                          3   Promote increased involvement
                                                                              by FMS executives and
                                                                              Authorizing Officials in the
                                                                              POA&M management process.
                                                                              Such actions could include
                                                                              establishing performance metrics
                                                                              and associated incentives and/or
                                                                              disincentives for FMS
                                                                              management personnel to
                                                                              accurately report and resolve
                                                                              noted security weaknesses in their
                                                                              portfolio of information systems.
                                                                          4   Promote personal accountability
                                                                              for executing information security
                                                                              responsibilities, such as those
                                                                              listed in the ISSO and System
                                                                              Owner Appointment Letters, by
                                                                              incorporating those
                                                                              responsibilities and expected
                                                                              outcomes in the employees’
                                                                              Annual Performance Plan.

Finding #6 – OTS           At OTS, we observed that OTS system            We have no recommendation for OTS Implemented/Closed.
                           administrators were aware of a high-risk       management to improve the POA&M
POA&Ms were not tracked security vulnerability in one of the sampled      process as OTS ceased operations on The OTS system was decommissioned.
and remediated in          information systems for over a 30-day period   July 21, 2011 due to the Dodd-Frank
accordance with NIST and and did not record this weakness in the          Wall Street Reform and Consumer
Department of the Treasury system’s POA&M. Regarding the untimely         Protection Act.


                                                                                                                                           Page 46
Status of Prior-year Findings                                                                                                                        Appendix II

        Finding #                        Prior-Year Condition                          Recommendation(s)                                 Status
requirements                 update of the POA&M at OTS, management
                             indicated that other operational priorities,
                             associated with the transition of bank
                             supervisory responsibilities to the Office of
                             the Comptroller of the Currency, were a
                             higher priority.

Finding #7 – CDFI Fund       The CDFI Fund did not ensure that its service     We recommend that the CDFI Fund          Implemented/Closed.
                             provider, TTB, conducted monthly                  management:
Vulnerability scanning and   vulnerability scans of its Web server as                                                CDFI modified its Interconnection
remediation was not          required by Treasury and the CDFI Fund’s IT       1   Revise the Interconnection        Security Agreement with TTB to clearly
performed in accordance      security policy. Although the CDFI Fund               Security Agreement with TTB to assign vulnerability scanning roles and
with Department of the       outsourced the hosting of its infrastructure to       define clear roles and            responsibilities.
Treasury requirements        TTB, the CDFI Fund did not require TTB to             responsibilities for providing
                             conduct monthly vulnerability scans of the            services and implementing
                             CDFI Fund Web server in their                         associated security controls such
                             Interconnection Security Agreement.                   as vulnerability scanning.
                                                                               2   Enhance the continuous
                                                                                   monitoring strategy for
                                                                                   outsourced information systems to
                                                                                   ensure that NIST and Treasury
                                                                                   required security controls are
                                                                                   implemented and operating
                                                                                   effectively. As part of the
                                                                                   strategy, share the results with
                                                                                   appropriate CDFI Fund System
                                                                                   Owners and IT management.

Finding #7 – DO              A DO system’s vulnerability scan report from      We recommend that DO management          Implemented/Closed.
                             October 2010 contained multiple high-risk         direct personnel charged with
Vulnerability scanning and   vulnerabilities that were not remediated 30       remediating vulnerabilities to track     DO has directed personnel to follow
remediation was not          days after discovery as required by DO’s IT       open, unresolved vulnerabilities in      bureau-level policies and procedures over
performed in accordance      Security policy. For the sampled information      system POA&Ms when the                   inputting open vulnerabilities to
with Department of the       system, DO’s vendor deemed certain devices        anticipated remediation will exceed 30   POA&Ms. DO personnel have updated
Treasury requirements        to not be essential to the successful operation   days.                                    POA&Ms to include open vulnerabilities.
                             of the information system, and therefore did                                               Additionally, DO has updated its
                             not patch those devices.                                                                   vulnerability scan process to include all
                                                                                                                        system devices to identify all flaws.


                                                                                                                                                         Page 47
Status of Prior-year Findings                                                                                                                           Appendix II

         Finding #                        Prior-Year Condition                           Recommendation(s)                                   Status
Finding #7 – OTS              OTS did not consistently scan its application      We are not making a recommendation Implemented/Closed.
                              servers on a monthly basis as required by          to OTS Management as this finding
Vulnerability scanning and    NIST and Department of the Treasury                relates to process gaps in the OTS    The OTS system was decommissioned.
remediation was not           requirements and OTS Continuous                    vulnerability scanning procedures and
performed in accordance       Monitoring procedures. OTS personnel               OTS ceased operations on July 21,
with Department of the        verbally outlined to a risk-based set of           2011 due to the Dodd-Frank Wall
Treasury requirements         scanning frequencies that was not documented       Street Reform and Consumer
                              and not verifiable at the system level. Further,   Protection Act.
                              we noted that OTS management was aware of
                              these flaws and indicated that it lacked the
                              resources to scan more frequently

Finding #8 – DO             Daily incremental and weekly fully backups           We recommend that DO management: Implemented/Closed.
                            of DO data to tape for one sampled DO
Contingency planning and    system was not performed by DO Operations            1   Adhere to the defined frequency        DO has updated backup process to
testing and backup controls as defined by the DO SSP and the DO                      of backup jobs as stated by the        perform frequent backups on a daily and
were not fully implemented Information Technology Security Handbook.                 DO SSP. Incremental backups to         weekly basis and test backups on a
or operating as designed    Both the DO SSP and DO Information                       tape should be performed on a          monthly basis. Additionally, DO has
                            Technology Security Handbook require                     daily basis while full backups         increased the backup storage capacity.
                            incremental daily backups and full weekly                should be performed on a weekly
                            backups. DO Operations only performed                    basis.
                            successful incremental backups to tapes three        2   Determine whether an upgraded
                            to four times a month beginning in January               version of DO’s backup solution
                            2011. The infrequency of backups was due to              or a different backup tool will
                            an insufficient backup system, whose server              remediate unexpected server
                            had to be continually restarted (i.e., rebooted).        shutdowns and restarts.
                            Prior to January 2011, DO did not retain the         3   Perform a monthly test of
                            data or records from backups. This was due to            physical tapes to verify their
                            a lack of sufficient storage on tapes.                   reliability and integrity as defined
                            Additionally, backups were not tested to                 within the DO SSP. If the tapes
                            determine if they were reliable and complete.            fail, replace the tapes as needed.
                            Finally, for another sampled DO system, DO           4   Increase backup storage capacity
                            lacked a backup process for configuration                to ensure that archived data is not
                            files residing in firewalls, intrusion prevention        overwritten prematurely and data
                            systems and Transport Support Devices (e.g.,             retention standards are observed.
                            routers, switches, etc.). We observed that DO
                            management was unaware of this issue. Once
                            informed of this significant security


                                                                                                                                                            Page 48
Status of Prior-year Findings                                                                                                                         Appendix II

        Finding #                        Prior-Year Condition                          Recommendation(s)                                  Status
                             weakness, DO management created a
                             POA&M item to track the issue to closure.

Finding #8 – FMS            FMS did not complete a failover, and               We recommend that FMS                     Open.
                            contingency plan test for two Critical             management expedite the planned
Contingency planning and    Infrastructure Protection (CIP) payment            disaster recovery testing at the          FMS did not perform failover testing
testing and backup controls management systems residing at FMS in              alternate recovery site to confirm that   during the FISMA testing period for the
were not fully implemented accordance with FMS security standards and          (a) FMS can resume mission critical       two systems.
or operating as designed    NIST SP 800-53 Rev. 3 requirements. During         functions within the stated two-hour
                            the nine-month period from October 1, 2010         recovery window and (b) the
                            through June 30, 2011, these two CIP systems       applications can operate successfully
                            processed 911 million payments totaling            and communicate with other essential
                            $1.93 trillion . These two systems process         applications and third parties.
                            approximately all Social Security
                            Administration payments, Medicare and
                            Medicaid payments, IRS tax refunds, Veteran
                            Affairs payments, and other United States
                            government vendor payments. However, these
                            two systems had only undergone a tabletop
                            disaster recovery test during FY 2010 and
                            FY 2011 and had not completed a full disaster
                            recovery test at the recovery site in the prior
                            two years. Per FMS and NIST SP 800-34
                            requirements, disaster recovery simulation
                            exercises, such as tabletop exercises, are
                            sufficient for “Moderate” systems but not
                            “High” impact systems. FMS categorized
                            these CIP systems as having a “High” FIPS
                            199 impact rating with a two-hour recovery
                            time objective. This designation requires FMS
                            to perform a failover, recovery and
                            reconstitution (including communications
                            with applications and third parties) of critical
                            systems at an alternate site on an annual basis.
                            FMS delayed failover contingency plan tests
                            in FY 2011 and FY 2010 due to operational
                            priorities to relocate and consolidate data
                            centers.


                                                                                                                                                          Page 49
Status of Prior-year Findings                                                                                                                 Appendix II

        Finding #                      Prior-Year Condition                        Recommendation(s)                              Status


Finding #8 – TTB            Backups were not consistently successful or    We recommend that TTB                Implemented/Closed.
                            completed on a scheduled basis at TTB. For     management develop and implement
Contingency planning and    the sampled TTB system, 69 (42 percent) of     policies and procedures to detect    TTB has closed this prior-year finding
testing and backup controls the 164 sampled scheduled jobs were            backup failures and remediate        since they now conduct their own system
were not fully implemented unsuccessful. Additionally, daily backups did   unsuccessful backups.                backups, rather than outsource the
or operating as designed    not occur on 39 (11 percent) of 365 days.                                           responsibility. We tested the effectiveness
                            TTB system backups were performed by a                                              of this control as part of the 2012 FISMA
                            service provider and TTB management did                                             audit by inspecting evidence of the
                            not have policies and procedures in place to                                        successful completion of backups.
                            detect the backup failures or require their
                            service provider to notify TTB when
                            scheduled backups were not performed or
                            backup jobs failed.

Finding #8 – TIGTA          The selected TIGTA system lacked sufficient Based on TIGTA’s planned corrective Open.
                            documentation regarding the system’s         actions, we are not making a
Contingency planning and    contingency plan and contingency plan        recommendation.                    TIGTA has not finished completing its
testing and backup controls testing. Specifically, the documentation did                                    corrective action.
were not fully implemented not include certain key software used. TIGTA
or operating as designed    management identified these weaknesses
                            during a 2010 security assessment and
                            established two POA&M items with
                            scheduled completion dates of January 2012
                            and June 2012.

Finding #9 – OTS            OTS utilized an unsupported operating system   Following the notification and          Implemented/Closed.
                            whose vendor ceased releasing new security     discussion of the vulnerability with
Outdated and unsupported    patches to resolve new security exploits and   OTS IT personnel, OTS moved the         The OTS system was decommissioned.
software was utilized       software flaws. Although the application       application server to a virtual machine
                            server resided behind the OTS firewall, the    running a supported operating system.
                            application server was vulnerable to new       OTS also provided evidence that all
                            security exploits and viruses due to an        required security patches were
                            outdated operating system.                     installed. We are not making a
                                                                           recommendation to OTS management
                                                                           as they took corrective actions to
                                                                           resolve the noted vulnerability.




                                                                                                                                                  Page 50
Status of Prior-year Findings                                                                                                                   Appendix II

        Finding #                     Prior-Year Condition                           Recommendation(s)                               Status
Finding #10 – TIGTA       TIGTA was aware of the requirement to          Based on TIGTA’s planned corrective Open.
                          comply with NIST SP 800-37, Rev 1, Guide       actions, we are not making a
Risk management program   for Applying the Risk Management               recommendation.                     TIGTA has not finished completing its
was not consistent with   Framework to Federal Information Systems,                                          corrective action.
NIST SP 800-37, Rev. 1    by February 2011, but had not updated the
                          risk management program at the time of the
                          FY 2011 FISMA audit. As NIST SP 800-37
                          Rev 1 was issued in February 2010, OMB
                          requires federal agencies to adopt this NIST
                          guidance within one year of issuance. We did
                          not determine a cause as the weakness was
                          self-reported. TIGTA created a POA&M item
                          to address identified gaps and developed
                          corrective actions to become compliant, with
                          a completion date of August 2014. An
                          insufficient risk management program can
                          lead to ineffective risk-based decision-making
                          and untimely implementation of system-level
                          controls.

Finding #11 – Financial   FinCEN was unable to provide completed             We recommend that the FinCEN          Implemented/Closed.
Crimes Enforcement        personnel separation forms for 18 of 25            management:
Network (FinCEN)          separated employees and contractors sampled                                               FinCEN revised documentation to require
                          as evidence that it completed its exit clearance   1   Provide training on the            forms to be stored on a central shared
Improper personnel        procedures. For 14 of the 18 individuals               requirements of FinCEN’s           drive. Share drive is only accessible to
termination procedures    missing a separation form, additional                  Personnel Separations Process      authorized personnel.
                          evidence, substantiating that these individuals        Directive regarding employee
                          returned all government issued property, was           separation to all parties involved
                          inconclusive. FinCEN indicated that these              in the exit process.
                          forms were likely lost or misplaced as the         2   Maintain the employee exit forms
                          employee and contractor separation process             in accordance with Treasury
                          was manual and involved a paper, rather than           records management
                          electronic, form. Nevertheless, FinCEN                 requirements.
                          asserted the separation process was followed
                          for all departing employees, regardless of the
                          missing forms.

Finding #12 – DO          A sampled DO system did not implement              Based on DO’s planned corrective      Implemented/Closed.


                                                                                                                                                    Page 51
Status of Prior-year Findings                                                                                                             Appendix II

        Finding #                    Prior-Year Condition                        Recommendation(s)                             Status
                          FDCC configurations for its desktops or        actions, we are not making a
Improper system           obtain a waiver to implement a different       recommendation.                      DO enforced baselines for the system
configuration programs    standard. DO management self-reported this                                          through Group Policy Objects.
                          weakness and created a POA&M for it.                                                Additionally, DO has maintained an
                                                                                                              approved Federal Desktop Core
                                                                                                              Configuration deviation memo.

Finding #12 – TIGTA       The sampled TIGTA system lacked formal         Based on TIGTA’s planned corrective Open.
                          documentation in certain areas of              actions, we are not making a
Improper system           configuration management. TIGTA                recommendation.                     TIGTA has not finished completing its
configuration programs    management identified this weakness in a                                           corrective action.
                          2010 security assessment and created
                          POA&M remediation actions to address the
                          weaknesses identified with a completion date
                          of May 2012.




                                                                                                                                              Page 52
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2012 Questions for Inspectors General                                  Appendix III

APPENDIX III – THE DEPARTMENT OF THE TREASURY’S CONSOLIDATED RESPONSE TO DHS’s FISMA 2012
QUESTIONS FOR INSPECTORS GENERAL

The information included in Appendix III represents the Department of the Treasury’s consolidated responses to Department of Homeland
Security’s (DHS) FISMA 2012 questions for Inspectors General. KPMG prepared responses to DHS questions based on an assessment of 15
information systems across 13 Treasury components, excluding the IRS, OIG and TIGTA. TIGTA performed audit procedures over the IRS
information systems and provided their answers to the Treasury OIG and KPMG for consolidation. These answers are included within the table
below. The information provided by TIGTA has not been subjected to KPMG audit procedures and, accordingly, we express no opinion on it.

1: Continuous Monitoring
Status of Continuous Monitoring         1.1. Has the Organization established an enterprise-wide continuous monitoring program that assesses the security
Program [check one: Yes or No]          state of information systems that is consistent with FISMA requirements, OMB policy, and applicable NIST
                                  Yes   guidelines? If yes, besides the improvement opportunities that may have been identified by the OIG, does the
                                        program include the following attributes:
                                  Yes        1.1.1. Documented policies and procedures for continuous monitoring (NIST 800-53: CA-7).
                                  Yes        1.1.2. Documented strategy and plans for continuous monitoring (NIST 800-37 Rev 1, Appendix G).
                                             1.1.3. Ongoing assessments of security controls (system-specific, hybrid, and common) that have been
                                  Yes
                                             performed based on the approved continuous monitoring plans (NIST 800-53, NIST 800-53A).
                                             1.1.4. Provides authorizing officials and other key system officials with security status reports covering
                                  Yes        updates to security plans and security assessment reports, as well as POA&M additions and updates with the
                                             frequency defined in the strategy and/or plans (NIST 800-53, NIST 800-53A).
                                        1.2. Please provide any additional information on the effectiveness of the Organization’s Continuous Monitoring
                                        Management Program that was not noted in the questions above.

                                        Comments – Treasury OIG: FMS did not have sufficient audit logging capability for a selected system. DO did
                                        not perform audit log reviews for a selected system. FMS did not perform audit log reviews for a selected system.
                                        (See Finding #4)

2: Configuration Management
Status of Configuration                 2.1 Has the Organization established a security configuration management program that is consistent with FISMA
Management Program [check one:    Yes       requirements, OMB policy, and applicable NIST guidelines? If yes, besides the improvement opportunities
Yes or No]                                  that may have been identified by the OIG, does the program include the following attributes:
                                  Yes       2.1.1. Documented policies and procedures for configuration management.
                                            2.1.2. Standard baseline configurations.

                                  No        Comments – Treasury OIG: BPD did not document baseline configurations for two selected systems. FMS
                                            did not document all required aspects of baseline configuration for a selected system. TIGTA did not identify
                                            standard baseline configurations. (See Finding #10 and Prior-Year Finding #12)



                                                                                                                                                  Page 53
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2012 Questions for Inspectors General                               Appendix III

                                          2.1.3. Assessing for compliance with baseline configurations

                                          Comments – Treasury OIG: FinCEN baseline configurations for a selected system did not meet compliance
                                 No       requirements (See Finding #10)

                                          Comments – TIGTA: The IRS is still in the process of implementing tools compliant with the Security
                                          Content Automation Protocol to perform security configuration assessments for Windows and UNIX systems.
                                          2.1.4. Process for timely, as specified in Organization policy or standards, remediation of scan result
                                Yes
                                          deviations.
                                          2.1.5. For Windows-based components, FDCC/USCGB secure configuration settings fully implemented, and
                                          any deviations from FDCC/USCGB baseline settings fully documented.

                                 No       Comments – Treasury OIG: OCC did not implement restrictive settings for two selected systems (See
                                          Finding #9)

                                          Comments – TIGTA: The IRS has not yet fully documented Windows 7 FDCC/USGCB deviations.
                                          2.1.6. Documented proposed or actual changes to the hardware and software configurations

                                          Comments – Treasury OIG: DO did not track and detect unauthorized changes to a selected system (See
                                          Finding #9)
                                 No
                                          Comments – TIGTA: The IRS had not yet fully implemented configuration and change management controls
                                          to ensure that proposed or actual changes to hardware and software configurations are documented. During
                                          FY 2012, the Enterprise Services organization was in the process of implementing the Enterprise
                                          Configuration Management System to provide an enterprise solution for configuration and change
                                          management.
                                          2.1.7. Process for the timely and secure installation of software patches.

                                 No       Comments – TIGTA: During the FY 2012 FISMA evaluation period, a TIGTA audit to evaluate the IRS’s
                                          enterprise-wide patch management process identified that critical patches continue to be missing or are
                                          installed in an untimely manner on IRS computers.
                                          2.1.8. Software assessing (scanning) capabilities are fully implemented (NIST 800-53: RA-5, SI-2).

                                          Comments – Treasury OIG: FMS was unable to provide evidence that scanning was being performed for
                                          two selected systems. (See Finding #6 and Financial Statement Finding #3).
                                 No
                                          Comments – TIGTA: The IRS’s software assessing (scanning) capabilities are not yet fully implemented.
                                          The IRS Cybersecurity organization is still in the process of coordinating with information system owners to
                                          implement vulnerability scanning enterprise-wide. For vulnerability scans the IRS did conduct, analyses of



                                                                                                                                               Page 54
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2012 Questions for Inspectors General                                 Appendix III

                                           2.1.3. Assessing for compliance with baseline configurations

                                           Comments – Treasury OIG: FinCEN baseline configurations for a selected system did not meet compliance
                                 No        requirements (See Finding #10)

                                           Comments – TIGTA: The IRS is still in the process of implementing tools compliant with the Security
                                           Content Automation Protocol to perform security configuration assessments for Windows and UNIX systems.
                                           the scans were not being performed by the system owners. In addition, the IRS has not yet deployed an
                                           automated mechanism to detect the presence of unauthorized software on IRS information systems.
                                           2.1.9. Configuration-related vulnerabilities, including scan findings, have been remediated in a timely manner,
                                           as specified in Organization policy or standards (NIST 800-53: CM-4, CM-6, RA-5, SI-2).

                                           Comments – Treasury OIG: Mint, OCC, BPD, and DO did not remediate vulnerabilities in a timely manner
                                           (See Finding #6)
                                 No
                                           Comments – TIGTA: In June 2012, the TIGTA reported that monthly scanning results were not consistently
                                           being used to correct improper settings on Windows servers in a timely manner, but rather, security
                                           vulnerabilities of high, medium, and low risk levels were repeatedly reported on Windows Policy Checker
                                           reports for two or three consecutive months.
                                           2.1.10. Patch management process is fully developed, as specified in Organization policy or standards (NIST
                                           800-53: CM-3, SI-2).

                                 No         Comments – TIGTA: Due to the lack of enterprise-level oversight and leadership, the IRS has not yet
                                            implemented key elements of its patch management policies and procedures that are needed to ensure all IRS
                                            systems are patched timely and operating securely. The IRS’s current monitoring processes are not sufficient
                                            to ensure that vulnerabilities resulting from unpatched systems are successfully and timely remediated.
                                       2.2. Please provide any additional information on the effectiveness of the Organization’s Configuration
                                       Management Program that was not noted in the questions above.

                                       Comments – Treasury OIG: FMS did not have a management-approved list of all privileged programs that reside
                                       on the mainframe. Federal Financing Bank (FFB) had discrepancies in the cash receipt amounts included in the
                                       cash receipt report. (See Financial Statement Finding #2 and Financial Statement Finding #7)

                                       Comments – TIGTA: The IRS should ensure that data collected by its various tools and organizations will be
                                       efficiently utilized and that the IRS is not developing duplicative configuration management processes or products.
                                       For example, our discussions with the IRS Cybersecurity and Enterprise Services organizations revealed that an
                                       approach for integrating the configuration management data collected by both organizations has not yet been
                                       formulated.




                                                                                                                                                 Page 55
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2012 Questions for Inspectors General                                  Appendix III

3: Identity and Access Management
Status of Identity and Access          3.1 Has the Organization established an identity and access management program that is consistent with FISMA
Management Program [check one:             requirements, OMB policy, and applicable NIST guidelines and identifies users and network devices? If yes,
                                 Yes
Yes or No]                                 besides the improvement opportunities that have been identified by the OIG, does the program include the
                                           following attributes:
                                           3.1.1. Documented policies and procedures for account and identity management (NIST 800-53: AC-1)
                                 No
                                           Comments – Treasury OIG: TIGTA did not formally document account management activities for a selected
                                           system (See Prior-Year Finding #1)
                                           3.1.2. Identifies all users, including federal employees, contractors, and others who access Organization
                                 Yes
                                           systems.
                                           3.1.3. Identifies when special access requirements (e.g., multi-factor authentication) are necessary.
                                 No        Comments – Treasury OIG: FMS did not fully implement multifactor authentication as required by NIST
                                           and Treasury guidance (See Finding #11).
                                           3.1.4. If multi-factor authentication is in use, it is linked to the Organization's PIV program.

                                 No        Comments – TIGTA: The IRS has not deployed multifactor authentication via the use of an HSPD-12 PIV
                                           card for all users for network and local access to nonprivileged or privileged accounts as required by Federal
                                           mandate.
                                           3.1.5. Organization has adequately planned for implementation of PIV for logical access in accordance with
                                           Treasury policies (HSPD 12, FIPS 201, OMB M-05-24, OMB M-07-06, OMB M-08-01, OMB M-11-11).
                                 No
                                           Comments – TIGTA: The IRS has experienced significant delays in deploying PIV cards for logical access,
                                           which reveals the IRS’s inadequate planning efforts.
                                           3.1.6. Ensures that the users are granted access based on needs and separation of duties principles.

                                           Comments – Treasury OIG: FinCEN had a user account with access permissions that were not longer
                                           necessary. FMS did not document separation of duties principles (See Finding #1 and Financial Statement
                                 No
                                           Finding #1)

                                           Comments – TIGTA: Two of the three general support systems in our sample of 10 IRS systems did not have
                                           the controls in place to ensure users are granted access based on needs or to enforce separation of duties.




                                                                                                                                                  Page 56
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2012 Questions for Inspectors General                                   Appendix III


                                           3.1.7. Identifies devices that are attached to the network and distinguishes these devices from users (for
                                           example: IP, phones, faxes, printers, are examples of devices attached to the network that are distinguishable
                                           from desktops, laptops, or servers that uses accounts).
                                 No
                                           Comments – TIGTA: The IRS informed us that Business DNA will be its enterprise asset discovery tool for
                                           identifying devices on its network. Business DNA network scans can identify devices with internet protocol
                                           addresses that are attached to the network and distinguish these devices from users. However, the full
                                           implementation of the Business DNA tool is not expected to be completed until September 2012.
                                           3.1.8. Identifies all User and Non-User Accounts (refers to user accounts that are on a system. Examples of
                                           non-user accounts are accounts such as an IP that is set up for printing. Data user accounts are created to pull
                                           generic information from a database or a guest/anonymous account for generic login purposes that are not
                                 No        associated with a single user or a specific group of users).

                                           Comments – TIGTA: No information was provided to determine how the IRS identifies all user and nonuser
                                           accounts.
                                           3.1.9. Ensures that accounts are terminated or deactivated once access is no longer required.

                                           Comments – Treasury OIG: TTB did not properly terminate accounts as required by NIST and Treasury
                                           guidance. FMS did not properly terminate inactive accounts. (See Finding #1 and Prior-Year Finding #1)
                                 No
                                           Comments – TIGTA: Three systems in our sample of 10 IRS systems (two general support systems and one
                                           application) did not have controls in place to ensure accounts are terminated or deactivated once access is no
                                           longer needed.
                                           3.1.10. Identifies and controls use of shared accounts.

                                            Comments – TIGTA: One of the general support systems in our sample of 10 IRS systems was not
                                 No         adequately identifying and controlling use of shared accounts. Also, in June 2012, the TIGTA reported that
                                            administrative accounts on Windows servers were not being properly safeguarded in accordance with IRS
                                            policy. Consequently, individual accountability was lost as to by whom and for what purposes these full-
                                            privileged accounts were being accessed.
                                       3.2. Please provide any additional information on the effectiveness of the Organization’s Identity and Access
                                       Management that was not noted in the questions above.

                                       Comments – Treasury OIG: OCC did not incorporate all user accounts into periodic access review. FinCEN did
                                       not review access permissions on a annual basis. DO did not formally document all access request forms. BPD was
                                       unable to provide evidence of user last log on for testing of inactive users (See Finding #1)




                                                                                                                                                   Page 57
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2012 Questions for Inspectors General                                   Appendix III

4: Incident Response and Reporting
Status of Incident Response and         4.1 Has the Organization established an incident response and reporting program that is consistent with FISMA
Reporting Program [check one:     Yes       requirements, OMB policy, and applicable NIST guidelines? If yes, besides the improvement opportunities
Yes or No]                                  that may have been identified by the OIG, does the program include the following attributes:
                                            4.1.1. Documented policies and procedures for detecting, responding, and reporting to incidents (NIST 800-
                                  Yes
                                            53: IR-1).
                                  Yes       4.1.2. Comprehensive analysis, validation, and documentation of incidents.
                                            4.1.3. When applicable, reports to US-CERT within established time frames (NIST 800-53, 800-61, and OMB
                                            M-07-16, M-06-19).
                                  No
                                             Comments – Treasury OIG: BEP, BPD, and FinCEN did not report incidents within required time frames.
                                             FMS did not report incidents within required time frames (See Finding #2 and Prior-Year Finding #2)
                                  Yes        4.1.4. When applicable, reports to law enforcement within established time frames (SP 800-86).
                                             4.1.5. Responds to and resolves incidents in a timely manner, as specified in Organization policy or standards,
                                  Yes
                                             to minimize further damage (NIST 800-53, 800-61, and OMB M-07-16, M-06-19).
                                  Yes        4.1.6. Is capable of tracking and managing risks in a virtual/cloud environment, if applicable.
                                  Yes        4.1.7. Is capable of correlating incidents.
                                             4.1.8. There is sufficient incident monitoring and detection coverage in accordance with government policy
                                  Yes
                                             (NIST 800-53, 800-61, and OMB M-07-16, M-06-19).
                                        4.2. Please provide any additional information on the effectiveness of the Organization’s Incident Response and
                                        Reporting Program that was not noted in the questions above.

5: Risk Management
Status of Risk Management               5.1 Has the Organization established a risk management program that is consistent with FISMA requirements,
Program [check one: Yes or No]    Yes       OMB policy, and applicable NIST guidelines? If yes, besides the improvement opportunities that may have
                                            been identified by the OIG, does the program include the following attributes:
                                            5.1.1. Documented and centrally accessible policies and procedures for risk management, including
                                  Yes
                                            descriptions of the roles and responsibilities of participants in this process.
                                            5.1.2. Addresses risk from an organization perspective with the development of a comprehensive governance
                                            structure and organization-wide risk management strategy as described in NIST 800-37, Revision 1.
                                  No
                                            Comments – Treasury OIG: TIGTA did not update risk management program with NIST 800-37 guidance
                                            (See Prior-Year Finding #10)
                                            5.1.3. Addresses risk from a mission and business process perspective and is guided by the risk decisions at
                                            the organizational perspective, as described in NIST 800-37, Revision 1.
                                  No
                                            Comments – Treasury OIG: TIGTA did not update risk management program with NIST 800-37 guidance
                                            (See Prior-Year Finding #10)
                                            5.1.4. Addresses risk from an information system perspective and is guided by the risk decisions at the
                                  Yes
                                            organizational perspective and the mission and business perspective, as described in NIST 800-37, Revision 1.


                                                                                                                                                    Page 58
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2012 Questions for Inspectors General                                      Appendix III

                                 Yes       5.1.5. Categorizes information systems in accordance with government policies.
                                 Yes       5.1.6. Selects an appropriately tailored set of baseline security controls.
                                           5.1.7. Implements the tailored set of baseline security controls and describes how the controls are employed
                                           within the information system and its environment of operation.
                                 No
                                           Comments – Treasury OIG: OCC, FMS, and DO did not adequately document the implementation of
                                           controls as required by NIST and Treasury guidance. (See Finding #3 and Prior-Year Finding #3)
                                           5.1.8. Assesses the security controls using appropriate assessment procedures to determine the extent to which
                                 Yes       the controls are implemented correctly, operating as intended, and producing the desired outcome with respect
                                           to meeting the security requirements for the system.
                                           5.1.9. Authorizes information system operation based on a determination of the risk to organizational
                                 Yes       operations and assets, individuals, other organizations, and the Nation resulting from the operation of the
                                           information system and the decision that this risk is acceptable.
                                           5.1.10. Ensures information security controls are monitored on an ongoing basis including assessing control
                                           effectiveness, documenting changes to the system or its environment of operation, conducting security impact
                                           analyses of the associated changes, and reporting the security state of the system to designated organizational
                                 No        officials.

                                            Comments – Treasury OIG: FinCEN did not update documentation with results from security assessment
                                            (See Finding #3)
                                            5.1.11. Information system-specific risks (tactical), mission/business-specific risks and organizational-level
                                 Yes
                                            (strategic) risks are communicated to appropriate levels of the organization.
                                 Yes        5.1.12. Senior Officials are briefed on threat activity on a regular basis by appropriate personnel. (e.g., CISO).
                                            5.1.13. Prescribes the active involvement of information system owners and common control providers, chief
                                 Yes        information officers, senior information security officers, authorizing officials, and other roles as applicable in
                                            the ongoing management of information system-related security risks.
                                            5.1.14. Security authorization package contains system security plan, security assessment report, and POA&M
                                 Yes
                                            in accordance with government policies (SP 800-18, SP 800-37).
                                            5.1.15. Security authorization package contains Accreditation boundaries for Organization information
                                 Yes
                                            systems defined in accordance with government policies.
                                       5.2. Please provide any additional information on the effectiveness of the Organization’s Risk Management
                                       Program that was not noted in the questions above.

6: Security Training
Status of Security Training            6.1 Has the Organization established a security training program that is consistent with FISMA requirements,
Program [check one: Yes or No]   Yes       OMB policy, and applicable NIST guidelines? If yes, besides the improvement opportunities that may have
                                           been identified by the OIG, does the program include the following attributes:
                                 Yes       6.1.1. Documented policies and procedures for security awareness training (NIST 800-54: AT-1).
                                           6.1.2. Documented policies and procedures for specialized training for users with significant information
                                 Yes
                                           security responsibilities.



                                                                                                                                                      Page 59
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2012 Questions for Inspectors General                                    Appendix III


                                           6.1.3. Security training content based on the organization and roles, as specified in Organization policy or
                                 Yes
                                           standards.
                                           6.1.4. Identification and tracking of the status of security awareness training for all personnel (including
                                 Yes       employees, contractors, and other Organization users) with access privileges that require security awareness
                                           training.
                                           6.1.5. Identification and tracking of the status of specialized training for all personnel (including employees,
                                           contractors, and other Organization users) with significant information security responsibilities that require
                                           specialized training.
                                 No
                                            Comments – TIGTA: The IRS has not fully implemented identification and tracking of the status of
                                            specialized role-based training for contractors.
                                            6.1.6. Training material for security awareness training contains appropriate content for the Organization (SP
                                 Yes
                                            800-50, SP 800-53).
                                       6.2. Please provide any additional information on the effectiveness of the Organization’s Incident Response and
                                       Reporting Program that was not noted in the questions above.

7: POA&M
Status of POA&M Program [check         7.1 Has the Organization established a POA&M program that is consistent with FISMA requirements, OMB
one: Yes or No]                            policy, and applicable NIST guidelines and tracks and monitors known information security weaknesses? If
                                 Yes
                                           yes, besides the improvement opportunities that may have been identified by the OIG, does the program
                                           include the following attributes:
                                           7.1.1. Documented policies and procedures for managing all known IT security weaknesses discovered during
                                 Yes
                                           security control assessments and requiring remediation.
                                           7.1.2. Tracks, prioritizes, and remediates weaknesses.
                                 No
                                           Comments – Treasury OIG: FMS did not transfer POA&Ms to BPD (See Financial Statement Finding #4)
                                 Yes       7.1.3. Ensures remediation plans are effective for correcting weaknesses.
                                 Yes       7.1.4. Establishes and adheres to milestone remediation dates.
                                 Yes       7.1.5. Ensures resources are provided for correcting weaknesses.
                                           7.1.6. POA&Ms include security weaknesses discovered during assessments of security controls and requiring
                                           remediation (Do not need to include security weakness due to a Risk Based Decision to not implement a
                                           security control) (OMB M-04-25).
                                 No
                                           Comments – Treasury OIG: DO did not create POA&Ms for security weaknesses discovered during security
                                           assessment. FMS did not record POA&Ms for non-remediated vulnerabilities (See Finding #5 and Prior-Year
                                           Finding #6)
                                           7.1.7. Costs associated with remediating weaknesses are identified (NIST SP 800-53, Rev. 3, Control PM-3
                                 Yes
                                           and OMB M-04-25).


                                                                                                                                                     Page 60
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2012 Questions for Inspectors General                                   Appendix III

                                            7.1.8. Programs officials and contractors report progress on remediation to CIO on a regular basis, at least
                                 Yes        quarterly, and the CIO centrally tracks, maintains, and independently reviews/validates the POA&M activities
                                            at least quarterly (NIST SP 800-53, Rev. 3, Control CA-5 and OMB M-04-25).
                                       7.2. Please provide any additional information on the effectiveness of the Organization’s POA&M Program that
                                       was not noted in the questions above.

8: Remote Access Management
Status of Remote Access                8.1 Has the Organization established a remote access program that is consistent with FISMA requirements, OMB
Management Program [check one:   Yes        policy, and applicable NIST guidelines? If yes, besides the improvement opportunities that may have been
Yes or No]                                  identified by the OIG, does the program include the following attributes:
                                            8.1.1. Documented policies and procedures for authorizing, monitoring, and controlling all methods of remote
                                 Yes
                                            access (NIST 800-53: AC-1, AC-17).
                                 Yes        8.1.2. Protects against unauthorized connections or subversion of authorized connections.
                                 Yes        8.1.3. Users are uniquely identified and authenticated for all access (NIST 800-46, Section 4.2, Section 5.1).
                                 Yes        8.1.4. Telecommuting policy is fully developed (NIST 800-46, Section 5.1).
                                 Yes        8.1.5. If applicable, multifactor authentication is required for remote access (NIST 800-46, Section 2.2, 3.3).
                                            8.1.6. Authentication mechanisms meet NIST Special Publication 800-63 guidance on remote electronic
                                 Yes
                                            authentication, including strength mechanisms.
                                 Yes        8.1.7. Defines and implements encryption requirements for information transmitted across public networks.
                                            8.1.8. Remote access sessions, in accordance to OMB M-07-16, are timed-out after a maximum of 30 minutes
                                 Yes
                                            of inactivity after which reauthentication is required.
                                            8.1.9. Lost or stolen devices are disabled and appropriately reported (NIST 800-46, Section 4.3, US-CERT
                                 Yes
                                            Incident Reporting Guideline).
                                            8.1.10. Remote access rules of behavior are adequate in accordance with government policies (NIST 800-53:
                                 Yes
                                            PL-4).
                                            8.1.11. Remote access user agreements are adequate in accordance with government policies (NIST 800-46,
                                 Yes
                                            Section 5.1, NIST 800-53, PS-6).
                                       8.2. Please provide any additional information on the effectiveness of the Organization’s Remote Access
                                       Management that was not noted in the questions above.

9: Contingency Planning
Status of Contingency Planning         9.1 Has the Organization established an enterprise-wide business continuity/disaster recovery program that is
Program [check one: Yes or No]             consistent with FISMA requirements, OMB policy, and applicable NIST guidelines? If yes, besides the
                                 Yes
                                           improvement opportunities that may have been identified by the OIG, does the program include the following
                                           attributes:
                                           9.1.1. Documented business continuity and disaster recovery policy providing the authority and guidance
                                 Yes
                                           necessary to reduce the impact of a disruptive event or disaster (NIST 800-53: CP-1).
                                 Yes       9.1.2. The agency has performed an overall Business Impact Analysis (NIST SP 800-34).




                                                                                                                                                   Page 61
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2012 Questions for Inspectors General                                    Appendix III

                                           9.1.3. Development and documentation of division, component, and IT infrastructure recovery strategies, plans
                                           and procedures (NIST SP 800-34).
                                 No        Comments – Treasury OIG: DO did not update the contingency plan for a selected system within the
                                           FISMA year. TIGTA did not have a new operating system integrated into its contingency plan. (See Finding
                                           #7 and Prior-Year Finding #8)
                                           9.1.4. Testing of system specific contingency plans.
                                 No        Comments – Treasury OIG: FMS and DO did not perform contingency plan testing for selected systems
                                           (See Finding #7 and Prior-Year Finding #8)
                                           9.1.5. The documented business continuity and disaster recovery plans are ready for implementation (FCD1,
                                Yes
                                           NIST SP 800-34).
                                           9.1.6. Development of training, testing, and exercises (TT&E) approaches (FCD1, NIST SP 800-34, NIST
                                Yes
                                           800-53).
                                           9.1.7. Performance of regular ongoing testing or exercising of business continuity/disaster recovery plans to
                                           determine effectiveness and to maintain current plans.
                                No
                                           Comments – Treasury OIG: FMS and DO did not perform contingency plan testing for selected systems
                                           (See Finding #7 and Prior-Year Finding #8)
                                           9.1.8. After-action report that addresses issues identified during contingency/disaster recovery exercises
                                           (FCD1, NIST SP 800-34).
                                 No
                                           Comments – Treasury OIG: FMS and DO did not perform contingency plan testing for selected systems
                                           (See Finding #7 and Prior-Year Finding #8)
                                Yes        9.1.9. Systems that have alternate processing sites (FCD1, NIST SP 800-34, NIST SP 800-53).
                                           9.1.10. Alternate processing sites are subject to the same risks as primary sites (FCD1, NIST SP 800-34, NIST
                                Yes
                                           SP 800-53).
                                           9.1.11. Backups of information that are performed in a timely manner (FCD1, NIST SP 800-34, NIST SP 800-
                                           53).
                                 No
                                            Comments – Treasury OIG: CDFI did not perform consistent backup for a selected system. BPD was unable
                                            to provide evidence of backup being performed for a selected system. FMS did not perform testing of backups
                                            for a financial system (See Finding #8 and Financial Statement Finding #5)
                                 No         9.1.12. Contingency planning that considers supply chain threats.
                                       9.2. Please provide any additional information on the effectiveness of the Organization’s Contingency Planning
                                       that was not noted in the questions above.

10: Contractor Systems
Status of Contractor Systems           10.1 Has the Organization established a program to oversee systems operated on its behalf by contractors or other
[check one: Yes or No]                      entities, including Organization systems and services residing in the cloud external to the Organization? If yes,
                                Yes
                                            besides the improvement opportunities that may have been identified by the OIG, does the program includes
                                            the following attributes:



                                                                                                                                                    Page 62
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2012 Questions for Inspectors General                                       Appendix III

                                                10.1.1. Documented policies and procedures for information security oversight of systems operated on the
                                      Yes       Organization's behalf by contractors or other entities, including Organization systems and services residing in
                                                public cloud.
                                                10.1.2. The Organization obtains sufficient assurance that security controls of such systems and services are
                                                effectively implemented and comply with federal and Organization guidelines.
                                      No
                                                Comments – Treasury OIG: FMS did not obtain assurance that IT security controls are in place for service
                                                providers over select financial systems (See Financial Statement Finding #6)
                                                10.1.3. A complete inventory of systems operated on the Organization's behalf by contractors or other entities,
                                      Yes
                                                including Organization systems and services residing in public cloud.
                                                10.1.4. The inventory identifies interfaces between these systems and Organization-operated systems (NIST
                                      Yes
                                                800-53: PM-5).
                                                10.1.5. The Organization requires appropriate agreements (e.g., Memorandum of Understanding,
                                      Yes       Interconnection Security Agreements, contracts, etc.) for interfaces between these systems and those that it
                                                owns and operates.
                                      Yes       10.1.6. The inventory of contractor systems is updated at least annually.
                                                10.1.7. Systems that are owned or operated by contractors or entities, including Organization systems and
                                      Yes       services residing in public cloud, are compliant with FISMA requirements, OMB policy, and applicable NIST
                                                guidelines.
                                            10.2. Please provide any additional information on the effectiveness of the Organization’s Contractor Systems that
                                            was not noted in the questions above.

11: Security Capital Planning
Status of Security Capital Planning         11.1 Has the Organization established a security capital planning and investment program for information security?
[check one: Yes or No]                Yes        If yes, besides the improvement opportunities that may have been identified by the OIG, does the program
                                                 include the following attributes:
                                                 11. 1.1. Documented policies and procedures to address information security in the capital planning and
                                      Yes
                                                 investment control process.
                                      Yes        11.1.2. Includes information security requirements as part of the capital planning and investment process.
                                                 11.1.3. Establishes a discrete line item for information security in organizational programming and
                                      Yes
                                                 documentation (NIST 800-53: SA-2).
                                                 11.1.4. Employs a business case/Exhibit 300/Exhibit 53 to record the information security resources required
                                      Yes
                                                 (NIST 800-53: PM-3).
                                      Yes        11.1.5. Ensures that information security resources are available for expenditure as planned.
                                            11.2. Please provide any additional information on the effectiveness of the Organization’s Security Capital
                                            Planning that was not noted in the questions above.




                                                                                                                                                       Page 63
Approach to Selection of Subset of Systems                                                   Appendix IV

APPENDIX IV – APPROACH TO SELECTION OF SUBSET OF SYSTEMS

In fiscal year (FY) 2012, a risk-based approach was employed to determine the subset of United States
Department of the Treasury (Treasury) information systems for the FISMA Audit. The universe for this
subset only included major business applications and general support systems with a security
classification of “moderate” or “high.” We used the system inventory contained within the Trusted Agent
FISMA system (TAF) as the population for this subset.

Based on historical trends in the Treasury systems inventory and past reviews, we used a subset size of 25
from the total population of Treasury major applications and general support systems with a security
classification of “Moderate” or “High.” Based on their lower risk, we elected not to incorporate any
systems with a FIPS 199 System Impact Level of “Low” into the population of applications to be
selected. We then applied the weighting of IRS systems to non-IRS bureau systems to the total subset size
in order to determine the IRS and non-IRS bureau subset sizes.

To select the subset, we stratified the full population of Treasury major applications and general support
systems by bureau and by FIPS 199 system impact level. We used a risk-based approach to select systems
out of each stratum. We considered the following factors to select system:

   •   Total number of systems per bureau.
   •   Systems at smaller bureaus not historically included in FISMA audits or evaluations.
   •   Number of systems at each bureau with a FIPS system impact level of “High.”
   •   Location of the system.
   •   Whether the system is going to be decommissioned prior to December 31, 2012.
   •   Whether the system was identified in a previous FISMA audits or evaluations within the past two
       years.

Lastly, the total number of financial systems selected in the subset would not exceed the percentage of
systems they represent in the Treasury inventory of information systems. We defined financial systems as
those information systems that have been designated as “Financial” or “Mixed Financial” systems in the
Treasury’s TAF System.

Based on our analysis of the Treasury inventory of information systems as of April 3, 2012, we noted a
total of 191 major applications and general support systems with a security classification of moderate or
high are contained within the Treasury-wide inventory. The following table provides our analysis of the
composition of the Treasury’s inventory of major applications and general support systems.

                      Total            IRS Financial IRS Non-            Non-IRS           Non-IRS
                                       Systems       Financial           Financial         Non-
                                                     Systems             Systems           Financial
                                                                                           Systems
Major
                           134                2               47                36               49
Applications
General Support
                              57              0               24                4                29
Systems
Total                      191                2               71                40               78




                                                                                                  Page 64
Approach to Selection of Subset of Systems                                                                      Appendix IV

From the analysis above, it was determined that IRS systems make up 39% of the total population of
Major Applications and General Support systems and Non-IRS systems make up 61%. When the IRS to
Non-IRS weighting is applied to subset size of 25 from the total population, the resulting sizes for the IRS
and Non-IRS subsets are 10 and 15, respectively.

We determined that Major Applications account for 72% of the population of the Non-IRS population and
General Support Systems account for 28%. We further determined that systems designated as “Financial”
and “Mixed Financial” in TAF account for 34% of all Non-IRS Major Applications and General Support
Systems. Lastly, we determined that 29% of the Non-IRS Major Applications and General Support
Systems are assigned a FIPS 199 System Impact Level of “High,” while 71% are assigned a FIPS 199
System Impact Level of “Moderate.”

     Total Selected                                                                              15
     Total Major Applications                                                                    11
     Total General Support Systems                                                                4
     Total Systems with a FIPS 199 System Impact Level of “High”                                  4
     Total Systems with a FIPS 199 System Impact Level of “Moderate”                             11
     Total Systems with a FIPS 199 System Impact Level of “Low”                                   0
     Total Systems Designated as Financial                                                        5

We further stratified the number of information systems by each bureau to determine the total percentage
of information systems at each Non-IRS bureau, based on the total population of all Non-IRS information
systems. We used this information as a baseline to determine the total number of systems to select at each
bureau or office:

         Bureau              Total Systems             Percentage of            Total Number of
                                                       Total Non-IRS            Non-IRS Systems
                                                        Population                to be Select
     BEP                              7                      6%                         1
     BPD                             14                     12%                         2
     CDFI Fund                        3                      3%                  1 (See Note 1)
     DO                              24                     20%                         3
     FinCEN                           7                      6%                         1
     FMS                             35                     29%                         3
     Mint                            10                      8%                         1
     OCC                              7                      6%                  2 (See Note 2)
     OTS                              1                      1%                  0 (See Note 2)
     OIG                              5                      4%                  0 (See Note 3)
     TIGTA                            2                      2%                  0 (See Note 3)
     TTB                              3                      3%                  1 (See Note 1)
     Total                          118                    100%                        15
        (Note 1: Using this methodology initially did not yield a system being selected at these agencies.
        However, using our risk-based methodology, we elected to select one system for each of these agencies
        and decrease the number of systems for FMS.)
        (Note 2: OCC incorporated two of the OTS Systems into their GSS and the rest of the OTS systems are
        scheduled to be retired. We elected to sample two systems for OCC and none of the retiring systems.)
        (Note 3: Per instructions from the OIG, we will not sample any systems from OIG or TIGTA, because
        their systems had been selected in the past two years.)



                                                                                                                   Page 65
Selected Security Control Classes and Families                                                Appendix V

APPENDIX V – SELECTED SECURITY CONTROL CLASSES AND FAMILIES

Federal Information Security Management Act (FISMA) directs the National Institute of Standards and
Technology (NIST) to develop and issue standards, guidelines, and other publications to assist federal
agencies in defining minimum security requirements for non-national security systems used by agencies.
NIST has developed such standards and guidelines as part of its implementation of FISMA. We based its
security evaluation on the security controls defined within NIST Special Publication (SP) 800-53, Rev. 3,
Recommended Security Control for the Federal Information Systems and Organizations. NIST
publications define a framework for protecting the confidentiality, integrity, and availability of federal
information and information systems consisting of three general classes of controls (i.e., management,
operational, and technical).

Tables on the following pages delineate the specific security controls we performed in accordance with
NIST SP 800-53. We selected specific test procedures that were applicable to the computing
environment; therefore, not all available security controls within each control family were performed.

Management Controls

Management security controls for information systems focus on the management of risk and the
management of information system security.

We assessed the following management control areas:

    •   Security Assessments and Authorizations (CA)
    •   Planning (PL)
    •   Risk Assessment (RA)

Security Assessments and Authorization:

The organization develops, disseminates, and periodically reviews/updates (i) formal, documented,
security assessment and authorization policies that address purpose, scope, roles, responsibilities,
management commitment, coordination among organizational entities, and compliance and (ii) formal,
documented procedures to facilitate the implementation of the security assessment and authorization
policies and associated assessment and authorization controls.

                        Security Controls     Title
                        CA-2                  Security Assessments
                        CA-5                  Plan of Action and Milestone
                        CA-6                  Security Authorization
                        CA-7                  Continuous Monitoring

Planning:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
security planning policy that addresses purpose, scope, roles, responsibilities, management commitment,
coordination among organizational entities, and compliance and (ii) formal, documented procedures to
facilitate the implementation of the security planning policy and associated security planning controls.

                        Procedure            Title
                        PL-2                 System Security Plan


                                                                                                  Page 66
Selected Security Control Classes and Families                                              Appendix V


Risk Assessment:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented risk
assessment policy that addresses the purpose, scope, roles, responsibilities, management commitment,
coordination among organizational entities, and compliance and (ii) formal, documented procedures to
facilitate the implementation of the risk assessment policy and associated risk assessment controls.

                        Procedure              Title
                        RA-2                   Security Categorization
                        RA-3                   Risk Assessment
                        RA-5                   Vulnerability Scanning

Operational Controls

The operational controls address security methods that focus primarily on mechanisms that people
implement and execute (as opposed to systems).

We assessed the following Operational control areas:

   •   Configuration Management (CM)
   •   Contingency Planning (CP)
   •   System and Information Integrity (SI)

Configuration Management:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
configuration management policy that addresses the purpose, scope, roles, responsibilities, management
commitment, coordination among The organization develops, disseminates, and periodically
reviews/updates (i) a formal, documented, contingency planning policy that addresses the purpose, scope,
roles, responsibilities, management commitment, coordination among organizational entities, and
compliance and (ii) formal, documented procedures to facilitate the implementation of the configuration
management policy and associated configuration management controls.

                        Procedure              Title
                        CM-2                   Baseline Configuration
                        CM-6                   Configuration Settings

Contingency Planning:

                        Procedure              Title
                        CP-2                   Contingency Plan
                        CP-4                   Contingency Plan Testing and
                                               Exercises
                        CP-9                   Information System Backup




                                                                                                Page 67
Selected Security Control Classes and Families                                                 Appendix V

System and Information Integrity:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
system and information integrity policy that addresses purpose, scope, roles, responsibilities, management
commitment, coordination among organizational entities, and compliance and (ii) formal, documented
procedures to facilitate the implementation of system and information integrity policy and associated
system and information integrity controls.

                         Procedure            Title
                         SI-2                 Flaw Remediation

Technical Controls

Technical security controls for information systems focus on information systems that primarily control
the implementation and execution of the information system through mechanisms contained in the
hardware, software, or firmware of the system.

We assessed the following Technical control areas:

    •   Access Control (AC)
    •   Audit and Accountability (AU)
    •   Identification and Authentication (IA)

Access Control:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
access control policy that addresses the purpose, scope, roles, responsibilities, management commitment,
coordination among organizational entities, and compliance and (ii) formal, documented procedures to
facilitate the implementation of the access control policy and associated access controls.

                         Procedure            Title
                         AC-2                 Account Management
                         AC-6                 Least Privilege

Audit and Accountability:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
audit and accountability policy that addresses the purpose, scope, roles, responsibilities, management
commitment, coordination among organizational entities, and compliance and (ii) formal, documented
procedures to facilitate the implementation of the audit and accountability policy and associated audit and
accountability controls.

                         Procedure            Title
                         AU-2                 Auditable Events
                         AU-6                 Audit Review

Identification and Authentication:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
identification and authentication policy that addresses the purpose, scope, roles, responsibilities,


                                                                                                  Page 68
Selected Security Control Classes and Families                                                Appendix V

management commitment, coordination among organizational entities, and compliance and (ii) formal,
documented procedures to facilitate the implementation of the identification and authentication policy and
associated identification and authentication controls.

                        Procedure             Title
                        IA-2                  User Identification and
                                              Authentication
                        IA-4                  Identifier Management




                                                                                                  Page 69
Summary of Other IT Findings from Treasury Financial Statement Audits                                                                            Appendix VI

APPENDIX VI – SUMMARY OF OTHER IT FINDINGS FROM TREASURY FINANCIAL STATEMENT AUDITS
Department of the Treasury management will provide responses to the security weakness noted below in a separate report as part of the financial
statement audit.


    Finding      NIST 800-53                     Condition                                                   Recommendation
    Number      Control Family
1               Access Control    For the UNIX Mid-Tier environments           We recommend that FMS management:
                                  that host significant financial systems,
                                  FMS and BPD management have not              1.   Develop a segregation of duties (SOD) matrix that complies with the IT
                                  identified incompatible duties for                security standards from FMS and NIST for sensitive users across the
                                  sensitive users as required by the FMS            UNIX Mid-Tier environments and use this matrix when assigning access
                                  Entity-Wide IT Security Standards                 to groups or creating new groups through the change control process.
                                  Manual; therefore, we could not
                                  determine if policies were implemented       2.   Analyze existing groups on the UNIX Mid-Tier environments and
                                  to segregate these duties. Sensitive users        document the following:
                                  include system administrators, database               a. Description, purpose, and approval of each existing UNIX Mid-
                                  administrators (DBA), developers,                         Tier group;
                                  change management support, and                        b. Privileges and actions that each group can perform;
                                  computer operations personnel.                        c. Job functions and sensitive roles assigned to each group; and
                                                                                        d. Process to approve, log, and monitor of groups.

                                                                               3.   Remove any inappropriate access that does not comply with SOD matrix.

2               Configuration     (Repeat Condition) FMS did not have a        We recommend that FMS management:
                Management        management-approved list of all
                                  privileged programs that reside on the       1.   Develop a complete authoritative information system inventory of all
                                  mainframe. Additionally, FMS did not              management-approved privileged programs, and confirm that existing
                                  implement an automatic tool to alert              privileged programs are safe and required for successful operation of the
                                  management when new privileged                    mainframe.
                                  programs were added to the mainframe
                                  to determine if the addition was             2.   Develop and implement formal change control procedures to monitor
                                  approved, appropriate, and safe.                  privileged programs to confirm that they were safe, approved by
                                                                                    management, and had not been altered without management’s approval.
                                  FMS closed this prior year finding in FY
                                  2012, however, our testing determined        3.   Implement an automated mechanism to track the inventory of existing
                                  the finding had not been resolved and             programs and notify appropriate officials when new privileged programs
                                  had to be reissued. We repeated the               are added or existing privileged programs are modified.



                                                                                                                                                      Page 70
Summary of Other IT Findings from Treasury Financial Statement Audits                                                                          Appendix VI

    Finding     NIST 800-53                     Condition                                                   Recommendation
    Number     Control Family
                                 following recommendations made in our
                                 FY 2011 report.

3              Risk Assessment   The FMS Entity-wide IT Standards             We recommend that FMS management:
                                 prescribes that it is management’s
                                 responsibility to monitor the                1.   Formally document the vulnerability scanning processes for the Fiscal
                                 effectiveness of its security program over        Service organization and communicate the processes to affected field
                                 the system environment, which includes            personnel.
                                 the UNIX Mid-Tier platform maintained
                                 at the BPD; however, we noted a lack of      2.   Maintain a complete listing of hosts and IP addresses for production
                                 evidence supporting FMS’s                         environment and document any changes to this listing, and retain enough
                                 responsibility of threat management.              supporting documentation to confirm the accuracy of completed
                                 Moreover, FMS did not document the                vulnerability scans.
                                 effectiveness of their monitoring
                                 program by not being able to confirm         3.   Strengthen the threat management process to require the sharing of
                                 whether:                                          information obtained from the vulnerability scanning process and security
                                                                                   control assessments with designated personnel through the organization to
                                 1. The actual Internet Protocol (IP)              help eliminate similar vulnerabilities in other information systems (i.e.,
                                    addresses in production at the time            systemic weaknesses).
                                    of the vulnerability scans that were
                                    run from October 1, 2011 to June 30,
                                    2012 were valid;
                                 2. Any vulnerabilities were identified;
                                    and
                                 3. Any corresponding corrective
                                    actions had been implemented.

4              Security          FMS needs to improve its enforcement         We recommend that FMS management:
               Assessment and    over coordinating with BPD for the
               Authorization     orderly transfer of POA&M items              1.   Strengthen its enforcement over the transfer of POA&M items across the
                                 relating to UNIX Mid-Tier platform-               organizations to ensure timely remediation of weaknesses.
                                 specific weaknesses affecting FMS
                                 applications, per the FMS Transferring       2.   Enhance the FMS Transferring POA&M Items Standard to require the
                                 POA&M Items Standard. We noted that               orderly transfer of POA&Ms items across the organizations within
                                 several platform-specific weakness that           specified time frames.
                                 were initially tracked in the POA&Ms



                                                                                                                                                    Page 71
Summary of Other IT Findings from Treasury Financial Statement Audits                                                                         Appendix VI

    Finding     NIST 800-53                    Condition                                                  Recommendation
    Number     Control Family
                                for FMS applications were not
                                transferred in a timely manner to BPD
                                for inclusion in the UNIX Mid-Tier
                                POA&M, thereby not enabling the
                                monitoring controls necessary to ensure
                                prompt remediation.

5              Contingency      For a financial system application that     We recommend that FMS management:
               Planning         resides on the mid-tier Unix
                                environment, FMS management was             1. Update existing application and Mid-Tier UNIX backup procedures and
                                unable to define formally who was              system security plans to clarify roles and responsibilities with regards to
                                responsible for the backup testing             the semi-annual testing of the financial system application backups to
                                process. FMS management staff                  comply with the Fiscal Services BLSR, Treasury Directive Publication
                                informed us that BPD performs backup           85-01, and NIST SP 800-53.
                                test procedures for the FMS application.
                                Alternatively, BPD support personnel        2. Communicate the updates to the financial system application and Mid-
                                informed us that BPD does not perform          Tier UNIX backup procedures and SSPs to the financial system
                                backup tests unless FMS management             application management staff and BPD support personnel.
                                instructs BPD to do so. We determined
                                that backup tests were not performed        3. Test backups for the financial system application production servers semi-
                                consistently by either BPD or FMS              annually as prescribed the Fiscal Services BLSR and the Treasury
                                management on a semi-annual basis as           Directive Publication 85-01.
                                required by the Fiscal Service Baseline
                                Security Requirements (BLSR) and the
                                Treasury Directive Publication 85-01. In
                                addition, FMS or BPD could only
                                provide to us supporting documentation
                                evidencing backup testing of the
                                application server. No evidence was
                                available to demonstrate backup testing
                                of the database and web servers.

6              Contractor       FMS does not monitor IT security            We recommend that FMS management:
               Systems          control compliance of its service
                                providers and has not addressed the risks   1.   Document the following in the FMS system SSPs: (a) the inherited IT
                                or implemented compensating controls.            security controls that are being performed by the service providers and (b)



                                                                                                                                                   Page 72
Summary of Other IT Findings from Treasury Financial Statement Audits                                                                          Appendix VI

    Finding     NIST 800-53                    Condition                                                   Recommendation
    Number     Control Family
                                                                                 the FMS’s monitoring controls to determine that these controls are
                                Specifically, we noted that FMS has not          operating effectively.
                                implemented a process to obtain
                                assurance that inherited IT security        2.   Develop an enforcement process to obtain assurance that the IT security
                                controls at the service providers are            controls inherited by the service providers are operating effectively.
                                operating effectively, as prescribed by
                                NIST SP 800-53, Rev. 3. We noted that
                                system security plans (SSPs) or
                                additional FMS procedures do not
                                formally establish the security roles and
                                responsibilities between FMS and its
                                service providers for inherited controls
                                and how FMS should monitor the
                                operating effectiveness of these service
                                providers’ controls.

7              Configuration    While performing audit test work over       We recommend that Federal Financing Bank (FFB) management strengthen
               Management       borrowings as of June 30, 2012, we          change control procedures for the system and related report modifications.
                                noted discrepancies in the cash receipt     These procedures should conform to existing standards and include the
                                amounts included in the cash receipt        following:
                                report. This was determined to be due to
                                a change request to modify the cash         1.   Implement policy and procedures to provide adequate supervision, by
                                receipts report.                                 FFB IT staff, when contracting group develops requirements, testing,
                                                                                 acceptance, and subsequent implementation initiatives prior to moving
                                Specifically, we determined that while           into production.
                                FFB management tests and approves
                                change requests prior to implementing       2.   Strengthen change request form to include all requirements, scope of
                                system changes, their change                     change request including time period of change, life cycle of
                                management procedures were not                   implementation and end user testing to ensure all change requests are
                                comprehensive enough to ensure proper            properly tested.
                                testing occurs prior to and subsequent to
                                development and production. Due to the      3.   Ensure the that the proper level and sufficiency of testing are appropriate
                                lack of regression testing, management           to specific change requirements; that change requests are appropriately
                                was unable to detect the effect of the           evaluated, authorized, and monitored to ensure that they achieve the
                                system change in production.                     users’ requirements and do not negatively impact existing processing.
                                Additionally, an FFB IT Staff member



                                                                                                                                                    Page 73
Summary of Other IT Findings from Treasury Financial Statement Audits                         Appendix VI

  Finding       NIST 800-53                    Condition                     Recommendation
  Number       Control Family
                                was not assigned to review in detail the
                                change requests of development or
                                production projects, created by the
                                contracting firm, prior to the accountants
                                performing their tests and approval of the
                                changes.




                                                                                                 Page 74
Glossary of Terms                                                            Appendix VII

APPENDIX VII – GLOSSARY OF TERMS

       Acronym                                         Definition
AC                  Access Control
ACIOCS              Associate Chief Information Officer for Cyber Security
AU                  Audit and Accountability
BEP                 Bureau of Engraving and Printing
BLSR                Fiscal Service Baseline Services Requirements
BPD                 Bureau of the Public Debt
CA                  Security Assessment and Authorization
CAT                 Category
C&A                 Certification and Accreditation
CDFI                Community Development Financial Institution
CIO                 Chief Information Officer
CIP                 Critical Infrastructure Protection
CISO                Chief Information Security Officer
CM                  Configuration Management
CP                  Contingency Planning
CSIRC               Computer Security Incident Response Center
CSS                 Cyber Security Sub-Council
DHS                 Department of Homeland Security
DO                  Departmental Offices
FDCC                Federal Desktop Core Configuration
FFB                 Federal Financing Bank
FinCEN              Financial Crimes Enforcement Network
FIPS                Federal Information Processing Standards
FISM                Federal Information Security Memorandum
FISMA               Federal Information Security Management Act
FMS                 Financial Management Service
FY                  Fiscal Year
GAGAS               Generally Accepted Government Auditing Standards
IA                  Identification and Authentication
IG                  Inspector General
IP                  Internet Protocol
IRS                 Internal Revenue Service
ISSO                Information System Security Officer
IT                  Information Technology
KPMG                KPMG LLP
Mint                United States Mint
NIST                National Institute of Standards and Technology
OCC                 Office of the Comptroller of the Currency



                                                                                 Page 75
Glossary of Terms                                                                Appendix VII

      Acronym                                        Definition
OCIO                Office of the Chief Information Officer
OIG                 Office of Inspector General
OMB                 Office of Management and Budget
OTS                 Office of Thrift Supervision
PL                  Planning
POA&M               Plan of Action and Milestones
RA                  Risk Assessment
Rev.                Revision
SI                  System and Information Integrity
SIGTARP             Special Inspector General for the Troubled Asset Relief Program
SP                  Special Publication
SSP                 System Security Plan
TAF                 Trusted Agent FISMA
TARP                Troubled Asset Relief Program
TCSIRC              Treasury Computer Security Incident Response Capability
TD P                Treasury Directive Publication
TIGTA               Treasury Inspector General for Tax Administration
TTB                 Alcohol and Tobacco Tax and Trade Bureau
US-CERT             United States Computer Emergency Readiness Team




                                                                                      Page 76
           ATTACHMENT 2

   Treasury Inspector General for Tax
Administration–Federal Information Security
  Management Act Report for Fiscal Year
    2012, (Audit No. 2012-20-114),
           September 28, 2012
    THIS PAGE INTENTIONALLY LEFT BLANK
 
TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Treasury Inspector General for Tax
                Administration – Federal Information Security
                Management Act Report for Fiscal Year 2012



                                      September 28, 2012

                              Reference Number: 2012-20-114




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                  HIGHLIGHTS


TREASURY INSPECTOR GENERAL FOR                        eight program areas met the level of
TAX ADMINISTRATION – FEDERAL                          performance specified by the Department of
INFORMATION SECURITY                                  Homeland Security’s Fiscal Year 2012 Inspector
MANAGEMENT ACT REPORT FOR                             General FISMA Reporting Metrics:
FISCAL YEAR 2012                                             Continuous monitoring management.
                                                             Incident response and reporting.
Highlights                                                   Risk management.
Report issued on September 28, 2012                          Plan of action and milestones.

Highlights of Report Number: 2012-20-114 to                  Remote access management.
the Department of the Treasury, Office of the                Contingency planning.
Inspector General, Assistant Inspector General
for Audit.                                                   Contractor systems.
IMPACT ON TAXPAYERS                                          Security capital planning.
The IRS collects and maintains a significant          However, TIGTA determined that the following
amount of personal and financial information on       program areas did not meet the level of
each taxpayer. The IRS also relies extensively        performance specified by the Department of
on computerized systems to support its                Homeland Security’s Fiscal Year 2012 Inspector
responsibilities in collecting taxes, processing      General FISMA Reporting Metrics as a result of
tax returns, and enforcing the Federal tax laws.      specific program attributes that were missing or
As custodians of taxpayer information, the IRS        other conditions identified that reduced program
has an obligation to protect the confidentiality of   effectiveness:
this sensitive information against unauthorized
access or loss. Otherwise, taxpayers could be                Configuration management.
exposed to invasion of privacy and financial loss            Identity and access management.
or damage from identity theft or other financial
crimes.                                                      Security training.

WHY TIGTA DID THE AUDIT                               WHAT TIGTA RECOMMENDED
The Federal Information Security Management           TIGTA does not include recommendations as
Act (FISMA) was enacted to strengthen the             part of its annual FISMA evaluation and reports
security of information and systems within            only on the level of performance achieved by the
Federal agencies. As part of this legislation, the    IRS using the guidelines issued by the
Offices of Inspectors General are required to         Department of Homeland Security for the
perform an annual independent evaluation of           applicable FISMA evaluation period.
each Federal agency’s information security
programs and practices. This report reflects
TIGTA’s independent evaluation of the status of
the IRS’s information security program for Fiscal
Year 2012.
WHAT TIGTA FOUND
Based on our Fiscal Year 2012 FISMA
evaluation, TIGTA found that the IRS’s
information security program was generally
compliant with the FISMA requirements.
Specifically, TIGTA determined that the following
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 September 28, 2012


 MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL FOR AUDIT
                OFFICE OF THE INSPECTOR GENERAL
                DEPARTMENT OF THE TREASURY


 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Treasury Inspector General for Tax Administration – Federal
                                 Information Security Management Act Report for Fiscal Year 2012
                                 (Audit # 201220001)

 This report presents the results of the Treasury Inspector General for Tax Administration’s
 Federal Information Security Management Act1 evaluation for Fiscal Year 2012. The Act
 requires the Offices of Inspectors General to perform an annual independent evaluation of each
 Federal agency’s information security program and practices. This report reflects our
 independent evaluation of the Internal Revenue Service’s (IRS) information security program
 and practices for the period under review.
 The report was forwarded to the Treasury Inspector General for consolidation into a report issued
 to the Department of the Treasury Chief Information Officer. Copies of this report are also being
 sent to the IRS managers affected by the report results.
 Please contact me at (202) 622-6510 if you have questions or Alan R. Duncan, Assistant
 Inspector General for Audit (Security and Information Technology Services), at (202) 622-5894.




 1
     Title III of the E-Government Act of 2002, Pub. L. No. 107-374, 116 Stat. 2899.
                      Treasury Inspector General for Tax Administration – Federal
                   Information Security Management Act Report for Fiscal Year 2012




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 2
          The Internal Revenue Service’s Information Security Program
          Generally Complies With the Federal Information Security
          Management Act, but Improvements Are Needed ....................................... Page 2

Appendices
          Appendix I – Fiscal Year 2012 Reporting Metrics ....................................... Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 30
          Appendix III – Report Distribution List ....................................................... Page 31
          Appendix IV – Treasury Inspector General for Tax Administration
          Information Technology Security-Related Reports Issued During the
          Fiscal Year 2012 Evaluation Period ............................................................. Page 32
          Appendix V – Glossary of Terms ................................................................. Page 33
             Treasury Inspector General for Tax Administration – Federal
          Information Security Management Act Report for Fiscal Year 2012




                            Abbreviations

AP                   Administrative Priority
Base                 Baseline Question
CIO                  Chief Information Officer
CISO                 Chief Information Security Officer
CM                   Continuous Monitoring
CMWG                 Continuous Monitoring Working Group
DAA                  Designated Accrediting Authority
DHS                  Department of Homeland Security
DMZ                  Demilitarized Zone
ECMS                 Enterprise Configuration Management System
FCD1                 Federal Continuity Directive 1
FDCC                 Federal Desktop Core Configuration
FISMA                Federal Information Security Management Act
FY                   Fiscal Year
GAO                  Government Accountability Office
GSS                  General Support System
HSPD-12              Homeland Security Presidential Directive-12
IP                   Internet Protocol
IRS                  Internal Revenue Service
IT                   Information Technology
KFM                  Key FISMA Metric
MOU                  Memorandum of Understanding
             Treasury Inspector General for Tax Administration – Federal
          Information Security Management Act Report for Fiscal Year 2012



NIST                 National Institute of Standards and Technology
OIG                  Office of the Inspector General
OMB                  Office of Management and Budget
PIV                  Personal Identity Verification
POA&M                Plan of Action and Milestones
SCAP                 Security Content Automation Protocol
SP                   Special Publication
TIGTA                Treasury Inspector General for Tax Administration
US-CERT              United States Computer Emergency Response Team
USG                  U.S. Government
USGCB                United States Government Configuration Baseline
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012




                                           Background

The Internal Revenue Service (IRS) collects and maintains a significant amount of personal and
financial information on each taxpayer. The IRS also relies extensively on computerized
systems to support its responsibilities in collecting taxes, processing tax returns, and enforcing
Federal tax laws. As custodians of taxpayer information, the IRS has an obligation to protect the
confidentiality of this sensitive information against unauthorized access or loss. Otherwise,
taxpayers could be exposed to invasion of privacy and financial loss or damage from identity
theft or other financial crimes.
The Federal Information Security Management Act (FISMA) of 20021 was enacted to strengthen
the security of information and systems within Federal agencies. Under the FISMA, agency
heads are responsible for providing information security protections commensurate with the risk
and magnitude of harm resulting from the unauthorized access, use, disclosure, disruption,
modification, or destruction of information and information systems. Agency heads are also
responsible for complying with the requirements of the FISMA, related Office of Management
and Budget (OMB) policies, and National Institute of Standards and Technology (NIST)
procedures, standards, and guidelines.
As part of this legislation, each Federal Government agency is required to report annually to the
OMB on the adequacy and effectiveness of its information security program and practices and
compliance with the FISMA. In addition, the FISMA requires the agencies to have an annual
independent evaluation of their information security programs and practices performed by the
agency Inspector General or an independent external auditor as determined by the Inspector
General.2 The OMB uses the information from the agencies and independent evaluations in its
FISMA oversight capacity to assess agency-specific and Federal Government-wide security
performance, develop its annual security report to Congress, and assist in improving and
maintaining adequate agency security performance.
We based our evaluation of the IRS on the Department of Homeland Security’s (DHS) Fiscal
Year (FY) 2012 Inspector General FISMA Reporting Metrics issued on March 6, 2012. These
reporting metrics specified the security program areas for the Inspectors General to evaluate and
listed specific attributes that each security program area should include, as shown in Appendix I.
Major contributors to this report are listed in Appendix II.




1
 Title III of the E-Government Act of 2002, Pub. L. No. 107-374, 116 Stat. 2899.
2
 The FISMA evaluation period for the Department of the Treasury is July 1, 2011, through June 30, 2012. All
subsequent references to 2012 refer to the FISMA evaluation period.
                                                                                                        Page 1
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012




                                Results of Review

The Internal Revenue Service’s Information Security Program
Generally Complies With the Federal Information Security
Management Act, but Improvements Are Needed
The DHS FY 2012 Inspector General FISMA Reporting Metrics specified 11 information
security program areas and a total of 96 attributes within the 11 areas for the Inspectors General
to evaluate and determine whether agencies had established and maintained an information
security program that was generally consistent with the NIST and OMB’s FISMA requirements.
The 11 information security program areas are as follows:
      Continuous monitoring management.
      Configuration management.
      Identity and access management.
      Incident response and reporting.
      Risk management.
      Security training.
      Plan of action and milestones.
      Remote access management.
      Contingency planning.
      Contractor systems.
      Security capital planning.
To complete our FISMA evaluation, we reviewed a representative sample of 10 major IRS
information systems. For each system in the sample, we assessed the quality of the security
assessment and authorization process, the annual testing of controls for continuous monitoring,
the testing of information technology contingency plans, and the quality of the plan of action and
milestones process. In addition, we evaluated the IRS’s processes over configuration
management, identity and access management, incident response and reporting, security training,
remote access management, contractor systems, and security capital planning. During the
FY 2012 FISMA evaluation period, we also completed nine audits, as shown in Appendix IV,
which evaluated various aspects of information security at the IRS. We considered the results of
these audits in our evaluation, as well as results from ongoing audits for which draft reports were
issued to the IRS by August 10, 2012.

                                                                                            Page 2
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012



Based on our FY 2012 FISMA evaluation, we determined that the IRS’s information security
program was compliant with the FISMA requirements and met the level of performance for eight
of the 11 program areas as specified by the DHS’s FY 2012 Inspector General FISMA Reporting
Metrics. However, we also noted that improvements were needed in the remaining three
program areas. We determined that these three program areas did not meet the level of
performance specified by the DHS’s FY 2012 Inspector General FISMA Reporting Metrics as a
result of specific program attributes that were missing or other conditions that we identified
which reduced program effectiveness. The three areas needing improvement are as follows:
      Configuration management.
      Identity and access management.
      Security training.

Configuration Management
Configuration management comprises a collection of activities focused on establishing and
maintaining the integrity of products and systems through control of the processes for
initializing, changing, and monitoring the configurations of those products and systems.
Security-focused configuration management is the management and control of secure
configurations for an information system to enable security and facilitate the management of
risk. Effective configuration management of information systems requires the integration of the
management of secure configurations into the organizational configuration management process
or processes.
In order to secure both software and hardware, agencies must develop and implement standard
configuration baselines that prevent or minimize exploitable system vulnerabilities. The OMB
requires all Windows 7, XP, and Vista workstations to conform to the U.S. Government
Configuration Baseline. Furthermore, the NIST has created a repository of secure baselines for a
wide variety of operating systems and devices. Agencies must also develop and implement
sufficient patch management processes, which is a component of configuration management.
Any significant delays in patching software with critical vulnerabilities provide ample
opportunity for persistent attackers to gain control over the vulnerable computers and get access
to the sensitive data they may contain.
The IRS has not fully implemented the following seven configuration management attributes
specified by the DHS metrics:
    2.1.3. Assessing for compliance with baseline configurations.
    2.1.5. For Windows-based components, Federal Desktop Core Configuration (FDCC)/U.S.
           Government Configuration Baseline (USGCB) secure configuration settings fully
           implemented and any deviations from FDCC/USGCB baseline settings fully
           documented.

                                                                                          Page 3
                    Treasury Inspector General for Tax Administration – Federal
                 Information Security Management Act Report for Fiscal Year 2012



     2.1.6. Documented proposed or actual changes to hardware and software configurations.
     2.1.7. Process for timely and secure installation of software patches.
     2.1.8. Software assessing (scanning) capabilities are fully implemented.
     2.1.9. Configuration-related vulnerabilities, including scan findings, have been remediated
            in a timely manner, as specified in organization policy or standards.
    2.1.10. Patch management process is fully developed, as specified in organization policy or
            standards.
2.1.3. Assessing for compliance with baseline configurations.
The IRS is still in the process of implementing tools compliant with the Security Content
Automation Protocol (SCAP)3 to perform security configuration assessments for Windows and
UNIX systems. Agencies are required to use SCAP-validated tools, as specified by the NIST, to
continuously monitor the security configurations of their information technology assets as part of
compliance with the FISMA.
In April 2008, the IRS formally kicked off an initiative to implement the Security Compliance
Posture Monitoring and Reporting tool, an enterprise tool that would utilize the NIST-defined
protocol. When in production, the Security Compliance Posture Monitoring and Reporting tool
would provide the IRS with the ability to monitor, measure, and manage FISMA security
compliance of its Windows and UNIX servers enterprise-wide. Also, it would allow the IRS to
retire the Windows and UNIX policy checker programs, which are not SCAP-compliant.
However, the IRS has not yet rolled out the Security Compliance Posture Monitoring and
Reporting tool.
Also, in September 2011, the Treasury Inspector General for Tax Administration (TIGTA)
reported4 that automated security configuration scans of IRS mainframe databases were not
conducted. The Internal Revenue Manual required monthly automated security configuration
scans of all operating and database systems. However, the mainframe policy checker does not
test configuration compliance for databases that reside on mainframes. The IRS agreed to
implement automated security configuration scanning on mainframe databases by
March 1, 2013.


3
  The SCAP is a suite of specifications that standardize the format and nomenclature by which security software
products communicate software flaw and security configuration information. SCAP is designed to organize,
express, and measure security-related information in standardized ways, as well as related reference data, such as
identifiers for post-compilation software flaws and security configuration issues. SCAP can be used to maintain the
security of enterprise systems, such as automatically verifying the installation of patches, checking system security
configuration settings, and examining systems for signs of compromise.
4
  TIGTA Ref. No. 2011-20-099, The Mainframe Databases Reviewed Met Security Requirements; However,
Automated Security Scans Were Not Performed (Sept. 2011).
                                                                                                             Page 4
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012



The IRS has deployed a SCAP-compliant tool (called the SCAP Compliance Checker) for
monitoring Federal Desktop Core Configuration compliance on workstations. However, since
February 2010, the IRS has been in the process of implementing additional tools for monitoring
workstation compliance, called the Treasury Enhanced Security Initiative. The IRS believes the
Treasury Enhanced Security Initiative is needed because of the features it has that the SCAP
Compliance Checker does not have, including its ability to:
      Discover all assets on the IRS network.
      Identify rogue computers.
      Monitor administrative access privileges.
      Identify noncompliant security configurations for specific workstations.
      Prioritize highest risk systems for timely remediation.
      Automate remediation of some misconfigurations.
However, the Treasury Enhanced Security Initiative has experienced several delays due to the
need for infrastructure upgrades and additional server resources, the IRS placing higher priorities
on development of other systems, and filing season moratoriums.
2.1.5. For Windows-based components, FDCC/USGCB secure configuration settings fully
implemented and any deviations from FDCC/USGCB baseline settings fully documented.
The IRS has not yet fully documented Windows 7 FDCC/USGCB deviations. The User and
Network Services organization indicated that it is currently working with stakeholders to identify
and document all Windows 7 settings that do not comply with the Internal Revenue Manual or
USGCB.
2.1.6. Documented proposed or actual changes to hardware and software configurations.
The IRS had not yet fully implemented configuration and change management controls to ensure
that proposed or actual changes to hardware and software configurations are documented.
During FY 2012, the Enterprise Services organization was in the process of implementing the
Enterprise Configuration Management System (ECMS) to provide an enterprise solution for
configuration and change management. The goal of the ECMS is to provide the IRS the
capability to automate the configuration management process, enhance and improve the current
change management process, provide a platform for the consolidation of change boards, provide
a detailed change analysis capability, and support the adoption of robust configuration
management and validation.
The ECMS briefing from the Enterprise Services Configuration and Change Management office
cites a number of issues with IRS configuration and change management processes, including:


                                                                                            Page 5
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



       A number of organizational change management processes are in place, without a clear
        understanding on how they link back to the “umbrella” configuration and change
        management standards.
            o Duplicative steps exist in many of the change management processes.
            o Inconsistent integration/coordination exists across processes.
       There is limited enforcement of configuration and change management standards to date.
       Multiple configuration control boards are in place, without a clear definition of what the
        hand-offs are between them.
       Configuration items do not always have an owner.
       No clear process hand-offs are defined between configuration management, change
        management, release management, and other service management processes.
       Organizations do not always have a clear understanding of Configuration and Change
        Management office staff roles.
       Many organizations do not have a clear understanding of what configuration and change
        management are and what steps they should be following to perform the related
        processes.
       Configuration and change management standards applied to organizationally owned tools
        are sometimes “lost in translation.”
       The level of effort required across varied tools and procedures involved in performing
        configuration management activities is not clear, making it difficult to assign resources. 
In July 2012, the Enterprise Services organization deployed the initial release of the ECMS. The
ECMS includes a configuration item discovery tool, called the Discovery and Dependency
Mapping Advanced tool, for the purpose of establishing a central repository of configuration
items for which changes to configuration settings will need to be managed. The Enterprise
Services organization plans for the full implementation of the ECMS to occur in FY 2014.
2.1.7. Process for timely and secure installation of software patches.
During the FY 2012 FISMA evaluation period, the TIGTA concluded fieldwork on an audit to
evaluate the IRS’s enterprise-wide patch management process.5 The TIGTA identified that
critical patches continue to be missing or are installed in an untimely manner. The IRS’s own
patch monitoring reports continue to report unpatched or untimely patched computers. For
example, an IRS-wide patch monitoring report for Windows servers, called the Associate Chief

5
 TIGTA, Ref. No. 2012-20-012, An Enterprise Approach Is Needed to Address the Security Risk of Unpatched
Computers (Sep. 2012).
                                                                                                     Page 6
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



Information Officer Monthly Critical Patch Report, showed the IRS’s overall patch compliance
rate for critical patches averaged 88 percent in March 2012, ranging from a low of 63 percent to
a high of 88 percent for the six-month period of October 2011 to March 2012. The March 2012
report showed that 7,329 potential vulnerabilities remain on IRS servers because 23 critical
patches had not been installed on servers that need them; some of these patches had been
released as far back as April 2011. These vulnerabilities could potentially be exploited to gain
unauthorized access to information, disrupt operations, or launch attacks against other systems.
In addition, the IRS informed us that patching is still manual for the majority of its UNIX
operating systems and is not in accordance with patch frequencies required by the Internal
Revenue Manual. The Enterprise Operations organization is currently testing a process for
automating patching on its UNIX servers.
IRS patch management policy did not provide clear expectations for when patches must be
installed. In addition, the IRS has no mechanism to enforce timely patching or to hold system
owners accountable for ensuring that their systems are timely patched or that they formally
accept the risk of not patching systems timely. By not installing security patches in a timely
fashion, the IRS increases the risk that known vulnerabilities in its systems may be exploited.
In March 2012, the Government Accountability Office (GAO) also reported6 that the IRS did not
always apply critical patches or ensure versions of its operating system were still supported by
the vendor.
2.1.8. Software assessing (scanning) capabilities are fully implemented.
The IRS’s software assessing (scanning) capabilities are not yet fully implemented. The IRS
Organizational Common Controls Security Plan, Version 1, dated June 28, 2012, stated that the
required vulnerability scanning control was not in place at the IRS organizational level and that
the IRS Cybersecurity organization is still in the process of coordinating with information system
owners to implement vulnerability scanning enterprise-wide. It also stated that, for vulnerability
scans the IRS did conduct, analysis of the scans were not being performed by the system owners.
In addition, it stated that the IRS has not yet deployed an automated mechanism to detect the
presence of unauthorized software on IRS information systems.
In June 2012, the TIGTA reported7 that the IRS had not implemented or enforced
enterprise-wide procedures for monitoring and remediating weaknesses reported by nCircle
scans. These scans help to identify what details about the information system are discoverable
by adversaries and provide an associated risk level/score. During FY 2012, the IRS
Cybersecurity organization was in the process of developing enterprise-wide standard operating


6
  GAO, GAO-12-393, IRS Needs to Further Enhance Internal Control Over Financial Reporting and Taxpayer
Data (Mar. 2012).
7
  TIGTA, Ref. No. 2012-20-063, Enterprise-Level Oversight Is Needed to Ensure Adherence to Windows Server
Security Policies (June 2012).
                                                                                                     Page 7
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



procedures for reviewing and analyzing the results of vulnerability scans and educating system
owners on how to prioritize and resolve the identified weaknesses.
In September 2011, the TIGTA reported8 that four individuals had installed and used personal
unauthorized wireless devices on their laptops to connect to the IRS network. The TIGTA
recommended that the IRS implement automated nationwide network scans for unauthorized
wireless activity, devices, and software and improve processes to handle incidents of
noncompliance with IRS security policy so that when unauthorized wireless activity is identified,
subsequent investigations and disciplinary actions are effective. The IRS plans to complete the
corrective action by September 28, 2012.
Additionally, our review of 10 sample systems’ System Security Plans revealed that vulnerability
scans were not being conducted in accordance with the IRS’s defined frequency and process for
the three General Support System’s (GSS) in our sample.
2.1.9. Configuration-related vulnerabilities, including scan findings, have been remediated
in a timely manner, as specified in organization policy or standards.
In June 2012, the TIGTA reported9 that monthly scanning results were not consistently being
used to correct improper settings on Windows servers in a timely manner; rather, security
vulnerabilities of high, medium, and low risk levels were repeatedly reported on Windows Policy
Checker reports for two or three consecutive months. During FY 2012, the Cybersecurity
organization issued standard operating procedures for the monitoring and remediation of
weaknesses reported by the Windows server configuration scans to all IRS staff administering
Windows servers. The document stated that the Cybersecurity organization staff will work with
the system administrators, application owners, and project offices to maintain a 100-percent
compliance level on all Windows servers across all IRS organizations.
2.1.10. Patch management process is fully developed, as specified in organization policy or
standards.
During the FY 2012 FISMA evaluation period, the TIGTA concluded fieldwork on an audit to
evaluate the IRS’s enterprise-wide patch management process.10 The TIGTA identified that,
although IRS policy requires the IRS to establish an enterprise-level group with responsibility for
patch management, no enterprise-level group exists. Due to the lack of enterprise-level oversight
and leadership, the IRS has not yet implemented key elements of its patch management policies
and procedures that are needed to ensure all IRS systems are patched timely and operating


8
  TIGTA, Ref. No. 2011-20-101, Security Controls Over Wireless Technology Were Generally in Place; However,
Further Actions Can Improve Security (Sept. 2011).
9
  TIGTA, Ref. No. 2012-20-063, Enterprise-Level Oversight Is Needed to Ensure Adherence to Windows Server
Security Policies (June 2012).
10
   TIGTA, Ref. No. 2012-20-012, An Enterprise Approach Is Needed to Address the Security Risk of Unpatched
Computers (Sep. 2012).
                                                                                                     Page 8
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012



securely. Specifically, the IRS has not:
      Completed the implementation of an accurate and complete inventory of its information
       technology assets, which is critical for ensuring that patches are identified and applied
       timely for all types of operating systems and software used within its environment.
      Implemented patch policy and monitoring processes to ensure patches are applied timely
       enterprise-wide.
      Implemented controls to ensure that unsupported operating systems are not putting the
       IRS at risk.
IRS processes to monitor the installation of required patches need improvement. The IRS’s
current monitoring processes are not sufficient to ensure that vulnerabilities resulting from
unpatched systems are successfully and timely remediated. The IRS depends on the various IRS
organizations that manage their own computers to frequently self-report patching data from their
organization-level patch monitoring reports. This effort is labor intensive and results in
incomplete and unverified patch data. For example, in March 2012, the IRS Information
Technology organization reported that it had not received percentage data for 14 consecutive
months from non-Information Technology managed Windows workstations needing critical
patches, which it needed to track patch metrics in its Information Technology Internal
Dashboard. Further, the IRS had not established patch performance metrics in terms of setting
compliance rate goals and measuring them on a monthly basis to ensure IRS organizations are
complying with security patch policy.
2.2. Please provide any additional information on the effectiveness of the organization’s
configuration management program that was not noted in the questions above.
To achieve FISMA-compliant configuration management, the IRS is in the process of
implementing a number of tools to automate tasks, that when done manually, are extremely
time-consuming and error-prone. However, we are concerned the IRS is not ensuring that it is
avoiding tool redundancy and, therefore, excess cost or that it will be making the most efficient
use of the data collections.
Tools or initiatives that the IRS already implemented or are in progress to improve its security
posture include Business DNA (asset discovery), nCircle (vulnerability scanning), Security
Compliance Posture Monitoring and Reporting (server configuration management), Treasury
Enhanced Security Initiative (workstation configuration management), Altiris (Windows server
patching), Guardium (database scanning), Knowledge Incident/Problem Service Asset
Management (asset inventory), CiscoWorks (network management), Tivoli (older asset
management tool), and a central repository for warehousing and integrating the collected data.
The Cybersecurity organization has prepared an Information Technology Security Controls
Tools Strategy for planning how all of this data will be organized and combined to provide
near-real-time enterprise security intelligence for decision making.

                                                                                            Page 9
                    Treasury Inspector General for Tax Administration – Federal
                 Information Security Management Act Report for Fiscal Year 2012



As mentioned above, the Enterprise Services organization is also implementing a configuration
and change management tool, called the ECMS. This solution is comprised of a number of
commercial off-the-shelf products that include a configuration item discovery tool (the
Discovery and Dependency Mapping Advanced tool), a central repository of configuration items
and related components, change management analysis, and other tools for monitoring and
maintaining configuration compliance. The Enterprise Services organization stated that until the
ECMS is implemented, the IRS will continue to lack the capability to effectively implement
configuration and change management.
We believe the IRS should ensure that data collected by its various tools and organizations will
be efficiently utilized and that the IRS is not developing duplicative configuration management
processes or products. For example, our discussions with the Cybersecurity and Enterprise
Services organizations revealed that an approach for integrating the configuration management
data collected by both organizations has not yet been formulated.

Identity and Access Management
Proper identity and access management ensures that users and devices are properly authorized to
access information or information systems. Users and devices must be authenticated to ensure
that they are who they identify themselves to be. In most systems, a user name and password
serve as the primary means of authentication, while the system enforces authorized access rules
established by the system administrator. To ensure that only authorized users and devices have
access to a system, policy and procedures must be in place for the creation, distribution,
maintenance, and eventual termination of accounts. The use of Personal Identity Verification
(PIV) cards by all agencies, required by Homeland Security Presidential Directive-12
(HSPD-12),11 is a major component of a secure, Government-wide account and identity
management system.
The IRS has not fully implemented the following seven identity and access management
attributes specified by the DHS metrics:
     3.1.4. If multifactor authentication is in use, it is linked to the organization’s PIV program,
            where appropriate.
     3.1.5. Organization has adequately planned for implementation of PIV for logical access in
            accordance with government policies.



11
  On August 27, 2004, President Bush signed HSPD-12, Policy for a Common Identification Standard for Federal
Employees and Contractors. This directive established a new standard for issuing and maintaining identification
badges for Federal employees and contractors entering Government facilities and accessing computer systems. The
intent was to improve security, increase Government efficiency, reduce identity fraud, and protect personal privacy.
Agencies are required to use PIV badges (also referred to as SmartID cards) to access computer systems (logical
access).
                                                                                                           Page 10
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



     3.1.6. Ensures that the users are granted access based on needs and separation of duties
            principles.
     3.1.7. Identifies devices with Internet Protocol addresses that are attached to the network
            and distinguishes these devices from users.
     3.1.8. Identifies all user and nonuser accounts (refers to user accounts that are on a system.)
     3.1.9. Ensures that accounts are terminated or deactivated once access is no longer required.
     3.1.10. Identifies and controls use of shared accounts.
3.1.4. If multifactor authentication is in use, it is linked to the organization’s PIV program,
where appropriate.
During the FY 2012 FISMA evaluation period, the TIGTA concluded fieldwork on an audit to
evaluate the implementation and security of the IRS’s two-factor authentication for logical
(system) access.12 The IRS has not deployed multifactor authentication via the use of an
HSPD-12 PIV card for all users for network and local access to nonprivileged or privileged
accounts as required by Federal mandate. Therefore, the IRS’s multifactor authentication is not
yet linked to its PIV program.
3.1.5. Organization has adequately planned for implementation of PIV for logical access in
accordance with Government policies.
The IRS has experienced significant delays in deploying PIV cards for logical access, which
reveals the IRS’s inadequate planning efforts. The Federal Government mandated that agencies
implement PIV cards to access computer systems in August 2004. The IRS originally planned to
complete the deployment by September 2011. The deployment is now planned to be completed
by July 2013, but various issues threaten further delays, including:
        The inability of the IRS to require its employees to use their PIV cards for logical access
         to the network because it did not negotiate mandatory use of the cards with the National
         Treasury Employees Union.
        Resolving PIV card deployment for system administrators, who currently require separate
         identities to perform administrator services on computer systems.
        The large number (1,888) of IRS applications that are not yet PIV card-enabled and the
         lack of resources to change these existing applications.




12
  TIGTA, Ref. No. 2012-20-115, Using SmartID Cards to Access Computer Systems Is Taking Longer Than
Expected (Sept. 2012).
                                                                                                 Page 11
                    Treasury Inspector General for Tax Administration – Federal
                 Information Security Management Act Report for Fiscal Year 2012



3.1.6. Ensures that the users are granted access based on needs and separation of duties
principles.
Two of the three GSSs in our sample did not have the controls in place to ensure users are
granted access based on needs or to enforce separation of duties. Applications residing on GSSs
often rely on the GSS to implement these controls; therefore, the applications residing on these
GSSs would also inherit these weaknesses.
The most recent security control assessment for one of the two GSSs that did not have these
controls in place stated that accounts are not managed, enforced, separated, or deployed with
least privilege in accordance with IRS policy requirements for all GSS components. Also, the
most recent security control assessment for the other GSS found controls for granting access
based on needs and for separation of duties were not implemented. For example, the operating
system administrator could perform database administrator functions.
In addition, the GAO reported in March 201213 that IRS authorization controls were not always
functioning as intended and access authorization policies were not effectively implemented. For
example, systems used to process tax and financial information did not fully prevent access by
unauthorized users or excessive levels of access for authorized users. In addition, the IRS’s
compliance checks revealed unauthorized access to another system. During its monthly
compliance check in August 2011, the IRS identified 16 users who had been granted access to
the procurement system without receiving approval from the IRS’s authorization system. Also,
the data in a shared work area used to support accounting operations were fully accessible by
network administration staff although they did not need such access.
3.1.7. Identifies devices with Internet Protocol addresses that are attached to the network
and distinguishes these devices from users.
The IRS informed us that Business DNA will be its enterprise asset discovery tool for identifying
devices on its network. Business DNA network scans can identify devices with Internet Protocol
addresses that are attached to the network and distinguish these devices from users. However,
the full implementation of the Business DNA tool is not expected to be completed until
September 2012. Therefore, the IRS has not yet fully implemented this attribute.
We also found that one of our three sample GSSs did not have device identification and
authentication in place. It did not uniquely identify and authenticate devices or users before
establishing a connection. Also, its firewalls did not use the Terminal Access Controller Access
Control System14 to authenticate organization users or devices. Rather, these firewalls were
accessed via a shared administrator account.


13
   GAO, GAO-12-393, IRS Needs to Further Enhance Internal Control Over Financial Reporting and Taxpayer
Data (Mar. 2012).
14
   An enterprise access control security system that provides device/network access authentication, authorization,
and accounting.
                                                                                                            Page 12
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



3.1.8. Identifies all user and nonuser accounts.
No information was provided to determine how the IRS identifies all user and nonuser accounts.
3.1.9. Ensures that accounts are terminated or deactivated once access is no longer
required.
Three of our 10 sample systems (two GSSs and one application) did not have controls in place to
ensure accounts are terminated or deactivated once access is no longer needed. The most recent
security control assessment for one GSS found:
        The system did not disable inactive accounts after 120 days of inactivity and did not
         employ automated mechanisms to audit account creation, modification, disabling, and
         termination actions.
        Evidence was not provided to ensure system accounts are reviewed at least annually.
        The system was not configured to notify appropriate individuals when accounts were
         modified.
        Evidence was not provided to ensure system accounts were reviewed at least annually
         and automated mechanisms were employed to support system account management
         functions.
        No automated mechanisms existed to support information system account management
         functions.
        Inactive accounts were not automatically disabled.
For the other GSS, the most recent security control assessment found:
        Accounts were not automatically disabled.
        The log files did not contain any evidence of logging the account creation, modification,
         disabling, and termination actions of a user account.
For the one application, its most recent security control assessment found that it did not disable
accounts after 45 days or remove accounts after 90 days of inactivity.
Further, the GAO reported in March 201215 that the IRS had not taken actions to remove active
application accounts in a timely manner for employees who had separated or no longer needed
access.




15
 GAO, GAO-12-393, IRS Needs to Further Enhance Internal Control Over Financial Reporting and Taxpayer
Data (Mar. 2012).
                                                                                                Page 13
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



3.1.10. Identifies and controls use of shared accounts.
One of the GSSs in our sample was not adequately identifying and controlling use of shared
accounts. The most recent security control assessment found that the administrative account for
this GSS was shared. For example, the operating system administrator had the ability to “switch
user” into Oracle using the “root” password. This login process is not uniquely linked to any one
individual. Rather, this access is “shared” among the operating system administrators. Sharing
this account in this manner allows fully privileged actions to be taken on the system without any
accountability. In addition, passwords were stored and transmitted in plaintext.
Also, in June 2012, the TIGTA reported16 that administrative accounts on Windows servers were
not being properly safeguarded in accordance with IRS policy. Specifically, administrators in
two IRS organizations were using the built-in system administrator accounts to perform normal
administrative duties rather than only in emergencies as required by IRS policy. Seven
administrators in one organization and 14 administrators in the other were sharing the password
to the built-in accounts and were using these accounts for administrative tasks rather than using
their unique role-based administrator accounts. Consequently, individual accountability was lost
as to by whom and for what purposes these full-privileged accounts were being accessed.

Security Training
The FISMA requires all Government personnel and contractors to complete annual security
awareness training that provides instruction on threats to data security and responsibilities for
information protection. It also requires specialized training for personnel and contractors with
significant security responsibilities. Without adequate security training programs, agencies
cannot provide appropriate training or ensure that all personnel receive the required training.
The IRS had not fully implemented the following security training attribute specified by the DHS
metrics: 6.1.5. Identification and tracking of the status of specialized training for all personnel
(including employees, contractors, and other organization users) with significant information
security responsibilities that require specialized training.
6.1.5. Identification and tracking of the status of specialized training for all personnel
(including employees, contractors, and other organization users) with significant
information security responsibilities that require specialized training.
The DHS provided clarification for this attribute as it relates to contractors, stating that agencies
should be providing and tracking completion of specialized training for contractors just as they
would for Federal employees. The specialized training requirement is based on the role of the
contractor, not just on contractor status. Whoever holds a significant security role needs to
receive specialized role-based training.

16
  TIGTA, Ref. No. 2012-20-063, Enterprise-Level Oversight Is Needed to Ensure Adherence to Windows Server
Security Policies (June 2012).
                                                                                                   Page 14
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012



The IRS has not fully implemented identification and tracking of the status of specialized
role-based training for contractors. However, the IRS stated it is making plans to implement
such tracking by October 15, 2012. The Contractor Security Management office in the
Agency-Wide Shared Services organization is currently leading efforts to modify its contractor
tracking system to allow the identification of those contractors with significant security
responsibilities, with subsequent plans to implement a process to monitor and track completion
of contractor specialized training. Once identified, the IRS would rely on the contractors to
provide and self-report the completion of their required specialized training hours. Preliminary
IRS results indicated that 919 such contractors were employed during the FISMA FY 2012
reporting period, with only 99 of those having confirmed that they completed the required
training.
The IRS did not agree that it should provide specialized training for contractors and supported its
position by citing the U.S. Office of Personnel Management’s Training Policy Handbook, which
states:
       Since contractors are selected for their expertise in a subject area, contractors may only
       be trained in skills they are not required to bring to the job. Contractors may be trained
       in rules, practices, procedures, and/or systems that are unique to the employing agency
       and essential to the performance of the contractor’s assigned duties, such as agency
       computer security procedures. However, the authority for training of contractors is not
       in training law. It is in the authority to administer contracts. Training of contractors is
       subject to the decision of the chief contracting official.
The IRS stated that to require it to provide, track, and report specialized training completions for
contractors would present significant challenges, including requiring thousands of contract
language modifications before it could enforce this requirement for contract employees.




                                                                                            Page 15
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



                                                                                           Appendix I

                  Fiscal Year 2012 Reporting Metrics

Presented below is the list of reporting metrics questions and information as detailed in the
Fiscal Year 2012 Inspector General Federal Information Security Management Act (FISMA)
Reporting Metrics.1 The list is presented in its entirety, along with the accompanying Purpose
and Use information. Following each metric is a notation identifying each individual question as
an Administration Priority (AP), a Key FISMA Metric (KFM), or a Baseline Question (Base).
Many abbreviations in this list are used as presented in the original document and are not defined
therein. However, we have provided the definitions in the Abbreviations page after the Table of
Contents of this report.

1.      CONTINUOUS	MONITORING	MANAGEMENT		
        1.1.    Has the organization established an enterprise‐wide continuous monitoring program 
                that assesses the security state of information systems that is consistent with FISMA 
                requirements, OMB policy, and applicable NIST guidelines?  If yes, besides the 
                improvement opportunities that may have been identified by the OIG, does the 
                program include the following attributes: 
                1.1.1. Documented policies and procedures for continuous monitoring (NIST 800‐53: 
                       CA‐7). (AP) 
                1.1.2. Documented strategy and plans for continuous monitoring (NIST 800‐37 Rev. 1, 
                       Appendix G). (AP) 
                1.1.3. Ongoing assessments of security controls (system‐specific, hybrid, and common) 
                         that have been performed based on the approved continuous monitoring plans 
                         (NIST 800‐53, NIST 800‐53A). (AP) 
                1.1.4. Provides authorizing officials and other key system officials with security status 
                         reports covering updates to security plans and security assessment reports as 
                         well as POA&M additions and updates, with the frequency defined in the 
                         strategy and/or plans (NIST 800‐53, NIST 800‐53A). (AP) 




1
 U.S. Department of Homeland Security, National Cyber Security Division, Fiscal Year 2012 Inspector General
Federal Information Security Management Act Reporting Metrics, pp. 6–17 (Mar. 2012). The FISMA is encoded in
Title III of the E-Government Act of 2002; Pub. L. No. 107-374, 116 Stat. 2899.
                                                                                                   Page 16
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



         1.2.    Please provide any additional information on the effectiveness of the organization’s 
                 continuous monitoring management program that was not noted in the questions 
                 above. 
Purpose and Use  
These questions are being asked for the following reasons:  
        The Federal Continuous Monitoring Working Group (CMWG) has determined that continuous 
         monitoring (CM) of configurations is one of the first areas where CM capabilities need to be 
         developed.  This applies to both operating systems and widely used applications.  
        Even with a completely hardened system, exploitation may still occur due to zero‐day 
         vulnerabilities.  However, this forces attackers to elevate their sophistication for successful 
         attacks.  
        Rather, a robust continuous monitoring solution will be able to provide additional visibility for 
         organizations to identify signs of compromise, though no single indicator may identify a 
         definitive incident.  

2.       CONFIGURATION	MANAGEMENT		
         2.1.    Has the organization established a security configuration management program that is 
                 consistent with FISMA requirements, OMB policy, and applicable NIST guidelines?  If 
                 yes, besides the improvement opportunities that may have been identified by the OIG, 
                 does the program include the following attributes: 
                 2.1.1. Documented policies and procedures for configuration management. (Base) 
                 2.1.2. Standard baseline configurations defined. (Base) 
                 2.1.3. Assessing for compliance with baseline configurations. (Base) 
                 2.1.4. Process for timely, as specified in organization policy or standards, remediation 
                        of scan result deviations. (Base) 
                 2.1.5. For Windows‐based components, FDCC/USGCB secure configuration settings 
                         fully implemented and any deviations from FDCC/USGCB baseline settings fully 
                         documented. (Base) 
                 2.1.6. Documented proposed or actual changes to hardware and software 
                        configurations. (Base) 
                 2.1.7. Process for timely and secure installation of software patches. (Base) 
                 2.1.8. Software assessing (scanning) capabilities are fully implemented (NIST 800‐53: 
                        RA‐5, SI‐2). (Base) 


                                                                                                     Page 17
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



                2.1.9. Configuration‐related vulnerabilities, including scan findings, have been 
                        remediated in a timely manner, as specified in organization policy or standards. 
                        (NIST 800‐53: CM‐4, CM‐6, RA‐5, SI‐2). (Base) 
                2.1.10. Patch management process is fully developed, as specified in organization policy 
                        or standards. (NIST 800‐53: CM‐3, SI‐2). (Base) 
         2.2.   Please provide any additional information on the effectiveness of the organization’s 
                configuration management program that was not noted in the questions above. 
Purpose and Use  
These questions are being asked for the following reasons:  
        A key goal of configuration management is to make assets harder to exploit through better 
         configuration.  
        A key assumption is that configuration management covers the universe of assets to which 
         other controls need to be applied (controls that are defined under asset management).  
        To have a capable configuration management program, the configuration management 
         capability needs to be:  
            o   Relatively complete, covering enough of the software base to significantly increase the 
                effort required for a successful attack.  
            o   Relatively timely, being able to find and fix configuration deviations faster than they can 
                be exploited.  

3.       IDENTITY	AND	ACCESS	MANAGEMENT 
         3.1.   Has the organization established an identity and access management program that is 
                consistent with FISMA requirements, OMB policy, and applicable NIST guidelines and 
                identifies users and network devices?  If yes, besides the improvement opportunities 
                that have been identified by the OIG, does the program include the following attributes: 
                3.1.1. Documented policies and procedures for account and identity management 
                       (NIST 800‐53: AC‐1). (Base) 
                3.1.2. Identifies all users, including Federal employees, contractors, and others who 
                       access organization systems (NIST 800‐53, AC‐2). (Base) 
                3.1.3. Identifies when special access requirements (e.g., multifactor authentication) 
                       are necessary. (Base) 
                3.1.4. If multifactor authentication is in use, it is linked to the organization’s PIV 
                       program, where appropriate (NIST 800‐53, IA‐2). (KFM) 


                                                                                                     Page 18
                  Treasury Inspector General for Tax Administration – Federal
               Information Security Management Act Report for Fiscal Year 2012



                3.1.5. Organization has adequately planned for implementation of PIV for logical 
                        access in accordance with Government policies (HSPD‐12, FIPS 201, 
                        OMB M‐05‐24, OMB M‐07‐06, OMB M‐08‐01, OMB M‐11‐11). (AP) 
                3.1.6. Ensures that the users are granted access based on needs and separation of 
                       duties principles. (Base) 
                3.1.7. Identifies devices with IP addresses that are attached to the network and 
                        distinguishes these devices from users.  (For example:  IP phones, faxes, and 
                        printers are examples of devices attached to the network that are 
                        distinguishable from desktops, laptops, or servers that have user accounts.) 
                        (Base) 
                3.1.8. Identifies all user and nonuser accounts (refers to user accounts that are on a 
                        system.  Examples of nonuser accounts are accounts such as an IP that is set up 
                        for printing.  Data user accounts are created to pull generic information from a 
                        database or a guest/anonymous account for generic login purposes that are not 
                        associated with a single user or a specific group of users.) (Base) 
                3.1.9. Ensures that accounts are terminated or deactivated once access is no longer 
                       required. (Base) 
                3.1.10. Identifies and controls use of shared accounts. (Base) 
        3.2.    Please provide any additional information on the effectiveness of the organization’s 
                identity and access management program that was not noted in the questions above. 
Purpose and Use  
These questions are being asked for the following reasons:  
       OMB and DHS have determined that Federal identity management (HSPD‐12) is among the 
        areas where additional controls need to be developed.  See also OMB M‐04‐04 for web‐based 
        systems.  
       Strong information system authentication requires multiple factors to securely authenticate a 
        user.  Secure authentication requires something you have, something you are, and something 
        you know.  A single‐factor authentication mechanism, such as a username and password, is 
        insufficient to block even basic attackers.  
       The USG will first move to a two‐factor authentication using PIV cards, though a stronger 
        authentication solution would include all three factors. 
       Enhanced identity management solutions also support the adoption of additional nonsecurity 
        benefits, such as single sign‐on, more useable systems, and enhanced identity capabilities for 
        legal and nonrepudiation needs.  


                                                                                                 Page 19
                     Treasury Inspector General for Tax Administration – Federal
                  Information Security Management Act Report for Fiscal Year 2012



        A key goal of identity and access management is to make sure that access rights are only given 
         to the intended individuals and/or processes.2  
        To have a capable identity management program, this capability needs to be:  
              o   Relatively complete, covering all accounts.  
              o   Relatively timely, being able to find and remove stale or compromised accounts faster 
                  than they can be exploited.  

4.       INCIDENT	RESPONSE	AND	REPORTING 
         4.1.     Has the organization established an incident response and reporting program that is 
                  consistent with FISMA requirements, OMB policy, and applicable NIST guidelines?  If 
                  yes, besides the improvement opportunities that may have been identified by the OIG, 
                  does the program include the following attributes: 
                  4.1.1. Documented policies and procedures for detecting, responding to, and 
                         reporting incidents (NIST 800‐53: IR‐1). (Base) 
                  4.1.2. Comprehensive analysis, validation, and documentation of incidents. (KFM) 
                  4.1.3. When applicable, reports to US‐CERT within established time frames 
                         (NIST 800‐53, 800‐61, and OMB M‐07‐16, M‐06‐19). (KFM) 
                  4.1.4. When applicable, reports to law enforcement within established time frames 
                         (SP 800‐86). (KFM) 
                  4.1.5. Responds to and resolves incidents in a timely manner, as specified in 
                            organization policy or standards, to minimize further damage (NIST 800‐53, 
                            800‐61, and OMB M‐07‐16, M‐06‐19). (KFM) 
                  4.1.6. Is capable of tracking and managing risks in a virtual/cloud environment, if 
                         applicable. (Base) 
                  4.1.7. Is capable of correlating incidents. (Base) 
                  4.1.8. There is sufficient incident monitoring and detection coverage in accordance 
                            with Government policies (NIST 800‐53, 800‐61, and OMB M‐07‐16, M‐06‐19). 
                            (Base) 
         4.2.     Please provide any additional information on the effectiveness of the organization’s 
                  incident management program that was not noted in the questions above. 



2
  This is done, of course, by establishing a process to assign attributes to a digital identity and by connecting an
individual to that identity. However, this would be pointless without subsequently using it to control access.
                                                                                                                Page 20
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



Purpose and Use  
These questions are being asked for the following reasons:  
        Given real world realities, it is reasonable to expect that some attacks will succeed.  
         Organizations need to be able to detect those attacks.  Ideally, organizations would defend 
         against those attacks in real time; but at a minimum, organizations are expected to determine 
         the kinds of attacks that are most successful.  
        This allows the organization to use this information about successful attacks and their impact to 
         make informed risk‐based decisions about where it is most cost effective and essential to focus 
         security resources.  

5.       RISK	MANAGEMENT 
         5.1.    Has the organization established a risk management program that is consistent with 
                 FISMA requirements, OMB policy, and applicable NIST guidelines?  If yes, besides the 
                 improvement opportunities that may have been identified by the OIG, does the 
                 program include the following attributes: 
                 5.1.1. Documented and centrally accessible policies and procedures for risk 
                         management, including descriptions of the roles and responsibilities of 
                         participants in this process. (Base) 
                 5.1.2. Addresses risk from an organization perspective with the development of a 
                         comprehensive governance structure and organization‐wide risk management 
                         strategy as described in NIST 800‐37, Rev. 1. (Base) 
                 5.1.3. Addresses risk from a mission and business process perspective and is guided by 
                         the risk decisions at the organizational perspective, as described in NIST 800‐37, 
                         Rev. 1. (Base) 
                 5.1.4. Addresses risk from an information system perspective and is guided by the risk 
                         decisions at the organizational perspective and the mission and business 
                         perspective, as described in NIST 800‐37, Rev. 1. (Base) 
                 5.1.5. Categorizes information systems in accordance with Government policies. 
                        (Base) 
                 5.1.6. Selects an appropriately tailored set of baseline security controls. (Base) 
                 5.1.7. Implements the tailored set of baseline security controls and describes how the 
                         controls are employed within the information system and its environment of 
                         operation. (Base) 
                 5.1.8. Assesses the security controls using appropriate assessment procedures to 
                         determine the extent to which the controls are implemented correctly, 

                                                                                                    Page 21
                  Treasury Inspector General for Tax Administration – Federal
               Information Security Management Act Report for Fiscal Year 2012



                        operating as intended, and producing the desired outcome with respect to 
                        meeting the security requirements for the system. (Base) 
                5.1.9. Authorizes information system operation based on a determination of the risk 
                        to organizational operations and assets, individuals, other organizations, and 
                        the Nation resulting from the operation of the information system and the 
                        decision that this risk is acceptable. (Base) 
                5.1.10. Ensures information security controls are monitored on an ongoing basis, 
                        including assessing control effectiveness, documenting changes to the system or 
                        its environment of operation, conducting security impact analyses of the 
                        associated changes, and reporting the security state of the system to designated 
                        organizational officials. (Base) 
                5.1.11. Information system specific risks (tactical), mission/business specific risks, and 
                        organizational level (strategic) risks are communicated to appropriate levels of 
                        the organization. (Base) 
                5.1.12. Senior officials are briefed on threat activity on a regular basis by appropriate 
                        personnel (e.g., CISO). (Base) 
                5.1.13. Prescribes the active involvement of information system owners and common 
                        control providers, Chief Information Officers, senior information security 
                        officers, authorizing officials, and other roles as applicable in the ongoing 
                        management of information system‐related security risks. (Base) 
                5.1.14. Security authorization package contains system security plan, security 
                        assessment report, and POA&M in accordance with Government policies 
                        (NIST SP 800‐18, SP 800‐37). (Base) 
                5.1.15. Security authorization package contains accreditation boundaries for 
                        organization information systems defined in accordance with Government 
                        policies. (Base) 
        5.2.    Please provide any additional information on the effectiveness of the organization’s risk 
                management program that was not noted in the questions above. 
Purpose and Use:  
These questions are being asked for the following reasons:  
       One goal in issuing these FISMA questions is to further empower OIGs to focus on how agencies 
        are evaluating risk and prioritizing security issues.  
       OIGs are encouraged to use a type of risk analysis as specified in NIST 800‐39 to evaluate 
        findings and compare those to (1) existing organization priorities and (2) Administration 


                                                                                                    Page 22
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



         priorities and key FISMA metrics identified in the CIO metrics to determine areas of weakness 
         and highlight the significance of security issues.  

6.       SECURITY	TRAINING 
         6.1.    Has the organization established a security training program that is consistent with 
                 FISMA requirements, OMB policy, and applicable NIST guidelines?  If yes, besides the 
                 improvement opportunities that may have been identified by the OIG, does the 
                 program include the following attributes: 
                 6.1.1. Documented policies and procedures for security awareness training 
                        (NIST 800‐53: AT‐1). (Base) 
                 6.1.2. Documented policies and procedures for specialized training for users with 
                        significant information security responsibilities. (Base) 
                 6.1.3. Security training content based on the organization and roles, as specified in 
                        organization policy or standards. (Base) 
                 6.1.4. Identification and tracking of the status of security awareness training for all 
                         personnel (including employees, contractors, and other organization users) with 
                         access privileges that require security awareness training. (KFM) 
                 6.1.5. Identification and tracking of the status of specialized training for all personnel 
                         (including employees, contractors, and other organization users) with significant 
                         information security responsibilities that require specialized training. (KFM) 
                 6.1.6. Training material for security awareness training does not contain appropriate 
                        content for the organization (NIST SP 800‐50, SP 800‐53). (Base) 
         6.2.    Please provide any additional information on the effectiveness of the organization’s 
                 security training program that was not noted in the questions above. 
Purpose and Use  
These questions are being asked for the following reasons:  
        Some of the most effective attacks on cyber‐networks world‐wide currently are directed at 
         exploiting user behavior.  These include phishing attacks, social engineering to obtain 
         passwords, and introduction of malware via removable media.  
        These threats are especially effective when directed at those with elevated network privileges 
         and/or other elevated cyber responsibilities.  
        DHS has determined that some metrics in this section are prioritized as Key FISMA Metrics.  
        Some questions in this section also contain baseline information to be used to assess future 
         improvement in performance.  

                                                                                                    Page 23
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



        The metrics will be used to assess the extent to which organizations are providing adequate 
         training to address these attacks and threats.  

7.       PLAN	OF	ACTION	&	MILESTONES	(POA&M) 
         7.1.    Has the organization established a POA&M program that is consistent with FISMA 
                 requirements, OMB policy, and applicable NIST guidelines and tracks and monitors 
                 known information security weaknesses?  If yes, besides the improvement opportunities 
                 that may have been identified by the OIG, does the program include the following 
                 attributes: 
                 7.1.1. Documented policies and procedures for managing IT security weaknesses 
                         discovered during security control assessments and requiring remediation. 
                         (Base) 
                 7.1.2. Tracks, prioritizes, and remediates weaknesses. (Base) 
                 7.1.3. Ensures remediation plans are effective for correcting weaknesses. (Base) 
                 7.1.4. Establishes and adheres to milestone remediation dates. (Base) 
                 7.1.5. Ensures resources are provided for correcting weaknesses. (Base) 
                 7.1.6. POA&Ms include security weaknesses discovered during assessments of security 
                         controls and requiring remediation.  (Do not need to include security weakness 
                         due to a risk‐based decision to not implement a security control) 
                         (OMB M‐04‐25). (Base) 
                 7.1.7. Costs associated with remediating weaknesses are identified (NIST SP 800‐53, 
                        Rev. 3, Control PM‐3 and OMB M‐04‐25). (Base) 
                 7.1.8. Program officials and contractors report progress on remediation to CIO on a 
                         regular basis, at least quarterly, and the CIO centrally tracks, maintains, and 
                         independently reviews/validates the POA&M activities at least quarterly 
                         (NIST SP 800‐53, Rev. 3, Control CA‐5, and OMB M‐04‐25). (Base) 
         7.2.    Please provide any additional information on the effectiveness of the organization’s 
                 POA&M program that was not noted in the questions above. 
Purpose and Use  
These questions are being asked for the following reasons:  
        POA&M processes are important as part of the risk management process to track problems and 
         to decide which ones to address.  




                                                                                                    Page 24
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012




8.       REMOTE	ACCESS	MANAGEMENT 
         8.1.    Has the organization established a remote access program that is consistent with FISMA 
                 requirements, OMB policy, and applicable NIST guidelines?  If yes, besides the 
                 improvement opportunities that may have been identified by the OIG, does the 
                 program include the following attributes: 
                 8.1.1. Documented policies and procedures for authorizing, monitoring, and 
                         controlling all methods of remote access (NIST 800‐53: AC‐1, AC‐17). (Base) 
                 8.1.2. Protects against unauthorized connections or subversion of authorized 
                        connections. (Base) 
                 8.1.3. Users are uniquely identified and authenticated for all access (NIST 800‐46, 
                        Section 4.2, Section 5.1). (Base) 
                 8.1.4. Telecommuting policy is fully developed (NIST 800‐46, Section 5.1). (Base) 
                 8.1.5. If applicable, multifactor authentication is required for remote access 
                        (NIST 800‐46, Section 2.2, Section 3.3). (KFM) 
                 8.1.6. Authentication mechanisms meet NIST Special Publication 800‐63 guidance on 
                        remote electronic authentication, including strength mechanisms. (Base) 
                 8.1.7. Defines and implements encryption requirements for information transmitted 
                        across public networks. (KFM) 
                 8.1.8. Remote access sessions, in accordance to OMB M‐07‐16, are timed out after 
                        30 minutes of inactivity, after which reauthentication is required. (Base) 
                 8.1.9. Lost or stolen devices are disabled and appropriately reported (NIST 800‐46, 
                        Section 4.3, US‐CERT Incident Reporting Guidelines). (Base) 
                 8.1.10. Remote access rules of behavior are adequate in accordance with Government 
                         policies (NIST 800‐53, PL‐4). (Base) 
                 8.1.11. Remote access user agreements are adequate in accordance with Government 
                         policies (NIST 800‐46, Section 5.1, NIST 800‐53, PS‐6). (Base) 
         8.2.    Please provide any additional information on the effectiveness of the organization’s 
                 remote access management that was not noted in the questions above. 
Purpose and Use  
These questions are being asked for the following reasons:  
        Adequate control of remote connections is a critical part of boundary protection.  



                                                                                                   Page 25
                   Treasury Inspector General for Tax Administration – Federal
                Information Security Management Act Report for Fiscal Year 2012



        Attackers exploit boundary systems on Internet‐accessible DMZ networks (and on internal 
         network boundaries) and then pivot to gain deeper access on internal networks.  Responses to 
         the above questions will help agencies deter, detect, and defend against unauthorized network 
         connections/access to internal and external networks.  
        Remote connections allow users to access the network without gaining physical access to 
         organization space and the computers hosted there.  Moreover, the connections over the 
         Internet provide opportunities for compromise of information in transit.  Because these 
         connections are beyond physical security controls, they need compensating controls to ensure 
         that only properly identified and authenticated users gain access and that the connections 
         prevent hijacking by others.  

9.       CONTINGENCY	PLANNING 
         9.1.   Has the organization established an enterprise‐wide business continuity/disaster 
                recovery program that is consistent with FISMA requirements, OMB policy, and 
                applicable NIST guidelines?  If yes, besides the improvement opportunities that may 
                have been identified by the OIG, does the program include the following attributes: 
                9.1.1. Documented business continuity and disaster recovery policy providing the 
                        authority and guidance necessary to reduce the impact of a disruptive event or 
                        disaster (NIST 800‐53: CP‐1). (Base) 
                9.1.2. The organization has performed an overall Business Impact Analysis (BIA) 
                       (NIST SP 800‐34). (Base) 
                9.1.3. Development and documentation of division, component, and IT infrastructure 
                       recovery strategies, plans, and procedures (NIST SP 800‐34). (Base) 
                9.1.4. Testing of system‐specific contingency plans. (Base) 
                9.1.5. The documented business continuity and disaster recovery plans are in place 
                       and can be implemented when necessary (FCD1, NIST SP 800‐34). (Base) 
                9.1.6. Development and fully implementable of test, training, and exercise (TT&E) 
                       programs (FCD1, NIST SP 800‐34, NIST 800‐53). (Base) 
                9.1.7. Performance of regular ongoing testing or exercising of business continuity/ 
                        disaster recovery plans to determine effectiveness and to maintain current 
                        plans. (Base) 
                9.1.8. After‐action report that addresses issues identified during contingency/disaster 
                       recovery exercises (FCD1, NIST SP 800‐34). (Base) 
                9.1.9. Systems that have alternate processing sites (FCD1, NIST SP 800‐34, 
                       NIST SP 800‐53). (Base) 

                                                                                                Page 26
                  Treasury Inspector General for Tax Administration – Federal
               Information Security Management Act Report for Fiscal Year 2012



                9.1.10. Alternate processing sites are subject to the same risks as primary sites (FCD1, 
                        NIST SP 800‐34, NIST SP 800‐53). 
                9.1.11. Backups of information that are performed in a timely manner (FCD1, 
                        NIST SP 800‐34, NIST SP 800‐53). (Base) 
                9.1.12. Contingency planning that considers supply chain threats. (Base) 
        9.2.    Please provide any additional information on the effectiveness of the organization’s 
                contingency planning program that was not noted in the questions above. 
Purpose and Use  
These questions are being asked for the following reasons:  
       Contingency planning deals with risks which occur rarely.  As such, there is a temptation to 
        ignore these risks.  
       The purpose of this section is to determine if the organization is giving adequate attention to 
        the rare events which have such significant consequences that they become first‐priority risks.  

10.     CONTRACTOR	SYSTEMS 
        10.1. Has the organization established a program to oversee systems operated on its behalf 
                by contractors or other entities, including organization systems and services residing in 
                the cloud external to the organization?  If yes, besides the improvement opportunities 
                that may have been identified by the OIG, does the program includes the following 
                attributes: 
                10.1.1. Documented policies and procedures for information security oversight of 
                        systems operated on the organization’s behalf by contractors or other entities, 
                        including organization systems and services residing in public cloud. (Base) 
                10.1.2. The organization obtains sufficient assurance that security controls of such 
                        systems and services are effectively implemented and comply with Federal and 
                        organization guidelines. (Base) 
                10.1.3. A complete inventory of systems operated on the organization’s behalf by 
                        contractors or other entities, including organization systems and services 
                        residing in public cloud. (Base) 
                10.1.4. The inventory identifies interfaces between these systems and 
                        organization‐operated systems (NIST 800‐53: PM‐5). (Base) 
                10.1.5. The organization requires appropriate agreements (e.g., MOUs, Interconnection 
                        Security Agreements, contracts, etc.) for interfaces between these systems and 
                        those that it owns and operates. (Base) 

                                                                                                  Page 27
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012



               10.1.6. The inventory of contractor systems is updated at least annually. (Base) 
               10.1.7. Systems that are owned or operated by contractors or entities, including 
                       organization systems and services residing in public cloud, are compliant with 
                       FISMA requirements, OMB policy, and applicable NIST guidelines. (Base) 
       10.2. Please provide any additional information on the effectiveness of the organization’s 
             contractor systems program that was not noted in the questions above. 
Purpose and Use  
These questions are being asked for the following reasons:  
      These questions are being asked because in the past some Federal agencies tended to assume 
       that they were not responsible for managing the risk of contractor systems.  
      The key question is “Are these contractor‐operated systems being managed to ensure that they 
       have adequate security and can the DAA make an informed decision about whether or not to 
       accept any residual risk?”  

11.    SECURITY	CAPITAL	PLANNING 
       11.1. Has the organization established a security capital planning and investment program for 
               information security?  If yes, besides the improvement opportunities that may have 
               been identified by the OIG, does the program include the following attributes: 
               11.1.1. Documented policies and procedures to address information security in the 
                       capital planning and investment control (CPIC) process. (Base) 
               11.1.2. Includes information security requirements as part of the capital planning and 
                       investment process. (Base) 
               11.1.3. Establishes a discrete line item for information security in organizational 
                       programming and documentation (NIST 800‐53: SA‐2). (Base) 
               11.1.4. Employs a business case/Exhibit 300/Exhibit 53 to record the information 
                       security resources required (NIST 800‐53: PM‐3). (Base) 
               11.1.5. Ensures that information security resources are available for expenditure as 
                       planned. (Base) 
       11.2. Please provide any additional information on the effectiveness of the organization’s 
             security capital planning program that was not noted in the questions above. 




                                                                                                   Page 28
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012



Purpose and Use  
These questions are being asked for the following reasons:  
      One key area of capital investment in the next few years will be investments in the tools and 
       other infrastructure needed for adequate continuous monitoring.  Fortunately, most of these 
       tools also support (and are needed for) good network and system operations.  Thus, many of 
       these tools may already be in place.  
      This section might equally consider operational budgeting.  Clearly, good security requires a 
       wise investment of operational resources, not just capital ones. 




                                                                                                Page 29
                Treasury Inspector General for Tax Administration – Federal
             Information Security Management Act Report for Fiscal Year 2012



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Jody Kitazono, Audit Manager
Bret Hunter, Senior Auditor
Mary Jankowski, Senior Auditor
Louis Lee, Senior Auditor
Midori Ohno, Senior Auditor
Esther Wilson, Senior Auditor
Linda Nethery, Information Technology Specialist




                                                                                     Page 30
               Treasury Inspector General for Tax Administration – Federal
            Information Security Management Act Report for Fiscal Year 2012



                                                                 Appendix III

                       Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Technology Officer OS:CTO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                       Page 31
              Treasury Inspector General for Tax Administration – Federal
           Information Security Management Act Report for Fiscal Year 2012



                                                                          Appendix IV

 Treasury Inspector General for Tax Administration
  Information Technology Security-Related Reports
Issued During the Fiscal Year 2012 Evaluation Period

 1. Treasury Inspector General for Tax Administration (TIGTA), Ref. No. 2011-20-076,
    The IRS2GO Smartphone Application Is Secure, but Development Process Improvements
    Are Needed (Aug. 2011).
 2. TIGTA, Ref. No. 2011-20-088, The Modernized e-File Release 6.2 Included
    Enhancements, but Improvements Are Needed for Tracking Performance Issues and
    Security Weaknesses (Sept. 2011).
 3. TIGTA, Ref. No. 2011-20-116, Treasury Inspector General for Tax Administration –
    Federal Information Security Management Act Report for Fiscal Year 2011 (Sept. 2011).
 4. TIGTA, Ref. No. 2011-20-111, Continued Centralization of the Windows Environment
    Would Improve Administration and Security Efficiencies (Sept. 2011).
 5. TIGTA, Ref. No. 2011-20-101, Security Controls Over Wireless Technology Were
    Generally in Place; However, Further Actions Can Improve Security (Sept. 2011).
 6. TIGTA, Ref. No. 2011-20-099, The Mainframe Databases Reviewed Met Security
    Requirements; However, Automated Security Scans Were Not Performed (Sept. 2011).
 7. TIGTA, Ref. No. 2012-20-019, The Computer Security Incident Response Center Is
    Effectively Performing Most of Its Responsibilities, but Further Improvements Are
    Needed (Mar. 2012).
 8. TIGTA, Ref. No. 2012-20-041, Disaster Recovery Testing Is Being Adequately
    Performed, but Problem Reporting and Tracking Can Be Improved (May 2012).
 9. TIGTA, Ref. No. 2012-20-063, Enterprise-Level Oversight Is Needed to Ensure
    Adherence to Windows Server Security Policies (June 2012).




                                                                                   Page 32
                Treasury Inspector General for Tax Administration – Federal
             Information Security Management Act Report for Fiscal Year 2012



                                                                               Appendix V

                           Glossary of Terms

Term                      Definition
Accreditation (or         Includes all components of an information system to be authorized
Authorization) Boundary   for operation by an authorizing official and excludes separately
                          authorized systems to which the information system is connected.
Administrative Account    A user account with full privileges on a computer.
Authentication            Verifying the identity of a user, process, or device, often as a
                          prerequisite to allowing access to resources in an information
                          system.
Boundary Protection       Monitoring and control of communications at the external
                          boundary of an information system to prevent and detect malicious
                          and other unauthorized communication through the use of
                          boundary protection devices.
Boundary System           Physical or logical perimeter of a system.
Cloud (Computing)         The use of computing resources (hardware and software) that are
Environment               delivered as a service over a network (typically the Internet). The
                          name comes from the use of a cloud-shaped symbol as an
                          abstraction for the complex infrastructure it contains in system
                          diagrams.
Configuration Baseline    A set of specifications for a system, or a configuration item within
                          a system, that has been formally reviewed and agreed on at a given
                          point in time, and that can be changed only through change control
                          procedures. The baseline configuration is used as a basis for
                          future builds, releases, and/or changes.
Configuration Items       Assets, service components, or other items that are (or will be)
                          controlled by configuration management.




                                                                                       Page 33
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012




Term                        Definition
Configuration Management A collection of activities focused on establishing and maintaining
                         the integrity of products and systems through control of the
                         processes for initializing, changing, and monitoring the
                         configurations of those products and systems throughout the
                         system development life cycle.
Demilitarized Zone          A network segment inserted as a “neutral zone” between an
                            organization’s private network and the Internet.
Device Identification and   The information system uniquely identifies and authenticates
Authentication              before establishing a connection. See Authentication.
Federal Desktop Core        OMB-mandated set of security configurations for all Federal
Configuration               workstation and laptop devices that run either Windows XP or
                            Vista.
Firewall                    A gateway that limits access between networks in accordance with
                            local security policy.
General Support System      An interconnected set of information resources under the same
                            direct management control that shares common functionality. It
                            normally includes hardware, software, information, data,
                            applications, communications, and people.
Identity and Access         Addresses the mission-critical need to ensure appropriate access to
Management                  resources across increasingly heterogeneous technology
                            environments and to meet increasingly rigorous compliance
                            requirements.
Internal Revenue Manual     The IRS publication of its information security policies,
                            guidelines, standards, and procedures in order for IRS divisions
                            and offices to carry out their respective responsibilities in
                            information security.
Internet Protocol           Standard protocol for transmission of data from source to
                            destinations in packet-switched communications networks and
                            interconnected systems of such networks.
Least Privilege             The security objective of granting users only those accesses they
                            need to perform their official duties.




                                                                                       Page 34
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012




Term                         Definition
Logical Access               Controls used to determine the electronic information and systems
                             that users and other systems may access and the actions that may
                             be performed to the information accessed.
Malware                      A program that is inserted into a system, usually covertly, with the
                             intent of compromising the confidentiality, integrity, or availability
                             of the computer’s data, applications, or operating system.
Milestone                    The “go/no-go” decision point in a project; it is sometimes
                             associated with funding approval to proceed.
Multifactor Authentication   Authentication using two or more factors to achieve
                             authentication. Factors include: (1) something you know (e.g.,
                             password/PIN); (2) something you have (e.g., cryptographic
                             identification device, token); or (3) something you are (e.g.,
                             physical characteristic).
nCircle                      An automated tool that scans computers for vulnerabilities related
                             to network exploits and renders a report of findings.
Operating System             A set of software that manages computer hardware resources and
                             provides common services for computer programs. The operating
                             system is a vital component of the system software in a computer
                             system. Application programs require an operating system to
                             function.
Patch Management             The systematic notification, identification, deployment,
                             installation, and verification of operating system and application
                             software code revisions. These revisions are known as patches, hot
                             fixes, and service packs.
Phishing (Attack)            Tricking individuals into disclosing sensitive personal information
                             through deceptive computer-based means.
Plaintext                    Intelligible data that has meaning and can be understood without
                             the application of decryption.
Plan of Action and           A document that identifies tasks needing to be accomplished. It
Milestones                   details resources required to accomplish the elements of the plan,
                             any milestones in meeting the tasks, and scheduled completion
                             dates for the milestones.



                                                                                           Page 35
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012




Term                        Definition
Policy Checker              An automated tool that reads the security settings of computers
                            and logs any noncompliant setting to text files.
Privileged Account          Individuals who have access to set “access rights” for users on a
                            given system. Sometimes referred to as system or network
                            administrative accounts.
Remote Access               Access to an organizational information system by a user (or an
                            information system acting on behalf of a user) communicating
                            through an external network (e.g., the Internet).
Rogue Computer              An unauthorized computer on a network.
Security Capital Planning   The integration of information technology security and capital
                            planning processes to ensure that agency resources are protected
                            and risk is effectively managed.
Separation of Duties        As a security principle, its primary objective is the prevention of
                            fraud and errors. This objective is achieved by disseminating the
                            tasks and associated privileges for a specific business process
                            among multiple users.
Single-factor               Authentication using one factor (e.g., a username or password) to
Authentication              achieve authentication. See Authentication.
Single Sign-On              Provides the capability to authenticate once and be subsequently
                            and automatically authenticated when accessing various target
                            systems. It eliminates the need to separately authenticate and sign
                            on to individual applications and systems, essentially serving as a
                            user surrogate between client workstations and target systems.
Social Engineering          An attempt to trick someone into revealing information (e.g., a
                            password) that can be used to attack systems or networks.
Two-factor Authentication   Authentication using two factors to achieve authentication. See
                            Multifactor Authentication.
US-CERT                     A partnership between the Department of Homeland Security and
                            the public and private sectors established to protect the Nation’s
                            Internet infrastructure. US-CERT coordinates defense against and
                            responses to cyberattacks across the Nation.




                                                                                         Page 36
                 Treasury Inspector General for Tax Administration – Federal
              Information Security Management Act Report for Fiscal Year 2012




Term                         Definition
Virtual Environment          The physical system running a host operating system and
                             hypervisor (i.e., software that allows a single host to run one or
                             more guest operating systems).
Vulnerability Scanning       Scanning for specific functions, ports, protocols, and services that
(i.e., Software Assessing)   should not be accessible to users or devices and for improperly
                             configured or incorrectly operating information flow mechanisms.
Zero-Day Vulnerability       An exploit that takes advantage of a security vulnerability on the
                             same day that the vulnerability becomes generally known. There
                             are zero days between the time the vulnerability is discovered and
                             the first attack. Given time, the software company can fix the code
                             and distribute a patch or software update.




                                                                                           Page 37
